No..

IN THE
SUPREME COURT OF THE UNITED STATES

CARTER VINCENT ANDERSON - PETITIONER
vs.
DARREL VANNOY, WARDEN - RESPONDENTS)

APPENDICES IN SUPPORT OF
PETITION FOR CERTIORARI

APPENDIX “A"

United Slates Court of Appeal, Fifth Circuit, denial of COA

APPENDIX “ET

Petitioner's Motion for Certificate of Appealability

APPENDIX “C”

United States District. Court, Eastern District of Louisiana, denial of Writ
of Habeas Corpus Relief

APPENDIX “DC

Petitioner's Writ, of Habeas Corpus with attached exhibits.

EXHIBIT

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

FILED

No. 19-30397

April 14, 2020
Lyle W. Cayce.
Clerk

CARTER VINCENT ANDERSON,
Petitioner-Appellant
v.

DARREL VANNOY, WARDEN, LOUISIANA STATE PENITENTIARY, .
Respondent-Appellee

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:18-CV-7977

Before SMITH, COSTA, and HO, Circuit Judges.
PER CURIAM:*
Carter Vincent Anderson, Louisiana prisoner # 418030, was convicted by
a jury of armed robbery and being a felon in possession of a firearm. Following
his adjudication as a third felony offender he was sentenced to life
imprisonment. He now requests a certificate of appealability (COA) to appeal
the denial of his 28 U.S.C. § 2254 petition, which he filed to challenge his
convictions and his multiple offender adjudication.

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-30397
To obtain a COA, a prisoner must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Slack v. McDaniel,.
529 U.S. 473, 483-84 (2000). An applicant satisfies the COA standard “by
demonstrating that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed further.” MillerEl v. Cockrell, 537 U.S. 322, 327 (2003). Where the district court denies relief
on the merits, an applicant must show that reasonable jurists “would find the
district court’s assessment of the constitutional claims debatable or wrong.”
Slack, 529 U.S. at 484.
Anderson renews several claims raised in the district court. He argues
that his rights under Batson v. Kentucky, 476 U.S. 79 (1986), were violated
because the prosecution used peremptory challenges on the three prospective
black jurors and because the trial court failed to articulate a specific finding as
to whether the prosecution’s use of a peremptory challenge as to one of the
jurors was based on her race. He asserts that his appellate counsel was
ineffective for failing to raise a Batson challenge. Anderson contends that his
confession should have been suppressed because it was obtained in violation of
his constitutional rights. Asserting prosecutorial misconduct, Anderson claims
that his rights were violated because the prosecution failed to preserve
evidence and was permitted to elicit testimony about the missing evidence.
Anderson also contends that his rights under the Double Jeopardy Clause were
violated in connection with his adjudication as a multiple offender. As to the
above claims, Anderson fails to the make the showing required to obtain a
COA. See Miller-El, 537 U.S. at 337; Slack, 529 U.S. at 483-84.
Finally, Anderson contends that the district court erred by denying his
§ 2254 petition without conducting an evidentiary hearing. Anderson is not

2

No. 19-30397
required to obtain a COA to appeal the denial of an evidentiary hearing;
therefore, to the extent he seeks a COA on this issue we construe his COA
request “as a direct appeal from the denial of an evidentiary hearing.” Norman
v. Stephens, 817 F.3d 226, 234 (5th Cir. 2016). Because Anderson’s underlying
claims fail, we need not address the merits of his evidentiary hearing claim.
See id.
Consistent with the foregoing, Anderson's motion for a COA is DENIED,
and the district court’s denial of an evidentiary hearing is AFFIRMED.

3

19-30397

Mr. Carter Vincent Anderson
#418030
Louisiana State Penitentiary
General Delivery
Angola, LA 70712-0000

V

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

April 14, 2020
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 19-30397

Carter Anderson v. Darrel Vannoy, Warden
USDC No. 2:18-CV-7977

Enclosed is a copy of the court's decision. The court has entered
. judgment under Fed. R. App. P. 36.
(However, the opinion may yet
. contain typographical or printing errors which are subject to
correction. )
Fed. R-. App. P. 39 through 41, and 5TH Cir. R.s 35, 39, and 41
govern costs, rehearings, and mandates.
5TH Cir. R.s 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court's opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion of
when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
• petition for rehearing en banc.
Direct Criminal Appeals.
5th Cir. R. 41 provides that a motion for
a stay oT mandate under Fed. R. App. P. 41 will not be granted
simply upon request.
The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
. and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. Ap'p. P. 41.
The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition (s) for rehearing(s) (panel and/or en banc) and
writ (s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
I'f it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari-!
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Sincerely,
LYLE W.

By:
Laney L.Lampard,Deputy Clerk
Enclosure(s)
Mr. Carter Vincent Anderson
Mr. Matthew B. Caplan

EXHIBIT

$
K-Ul'P ?>«*!&£•••

■
M -

Case No. 19-30397
IN THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
CARTER VINCENT ANDERSON,
Petitioner-Appellant
v.
DARREL VANNOY, WARDEN, LOUISIANA STATE PENITENTIARY,
Respondent-Appellee

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA
USDC NO. 2:18-CV-7977
MOTION FOR A CERTIFICATE OF APPEALABILITY
FROM THE DENIAL OF HABEAS CORPUS RELIEF

RESPECTFULLY SUBMITTED

CARTER VINCENT ANDERSON
. 418030, MAGNOLIA—4
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

REQUEST FOR CERTIFICATE OF APPEALABILITY
ANDERSON V. VANNOY—Case No. 19-30397
NOW INTO COURT comes. Carter Vincent Anderson (“Anderson”)
pro se petitioner-appellant, respectfully requesting the Court to issue a
certificate of appealability on the ground that, he has shown jurists of reason
would find it debatable that: (1) the trial court denied Anderson’s Batson
motion in error; (2) the trial court committed reversible error when it failed
to proceed to Batson’s third-step and articulate reasons for denying
Anderson’s Batson motion when the prosecutions reason for dismissing one
juror was not inherently race-neutral; (3) he was entitled to have his coerced
and false confession suppressed as a result of threat, force, or intimidation;
(4) his adjudication as a third felon)/ offender and resultant life sentence was
the result of an impermissible double enhancement resulting in double
jeopardy; and (5) the federal, district court erred when it dismissed his
habeas petition without an evidentiary hearing.
Respectfully submitted this 14th day of June, 2019.

Carter Vincent Anderson
418030, Magnolia—4
Louisiana State Penitentiary
Angola, LA 70712
1

AFFIDAVIT/CERTIFICATE OF SERVICE
I do hereby swear and affirm that the foregoing is true and correct to
the best of my knowledge and belief. I further certify that a copy of the
foregoing has been served upon:
Opposing Counsel :
Warren Montgomery, District Attorney
Attention: ADA.Matthew Caplan
701 N. Columbia Street
Covington, LA 70433
By placing a copy of same in a properly addressed envelope into the hands
of the Classification Officer assigned to my unit along with a Withdrawal
Form made out to the General Fund, LSP, Angola, LA 70712 for the cost of
postage and a properly filled out Inmate’s Request for Indigent/Legal Mail
form, receiving receipt, for same in accordance with the institution’s rules
and procedures for legal mail.
Done this 14 th day of Jun e, 2019.

Carter Vincent .Anderson, Petitioner-Appellant

2

Case No. 19-30397

IN THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CARTER VINCENT ANDERSON
Petitioner-Appellant
v.
DARREL VANNOY, WARDEN, LOUISIANA STATE PENITENTIARY,
Respondent-Appellee

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA
USDC NO. 2.18-CV-7977

BRIEF IN SUPPORT OF REQUEST FOR A CERTIFICATE
OF APPEALABILITY FROM THE DENIAL OF
HABEAS CORPUS RELIEF

RESPECTFULLY SUBMITTED

CARTER ANDERSON
418030, MAGNOLIA—4
LOUISIANA STATE PENITENTIARY
ANGOLA, LA 70712

CERTIFICATE OF INTERESTED PERSONS
The undersigned certifies that he knows of no other person,
associations of persons, firms, partnerships, or corporations, as described in
the fourth sentence of 5th Cir, Local Rule 28,2.1, other than those listed
below which have an interest in the outcome of this particular case:
Carter Vincent Anderson Petitioner-Appellant
Darrel Vannoy, Respondent-Appellee
Jeff Landry, Attorney General, Attorney for Respondent-Appellant
Warren Montgomery, District Attorney, Attorney for Respondent-Appellant

11

REQUEST FOR ORAL ARGUMENT
Oral argument is requested, as Anderson has not received the
opportunity to present these claims, in the form of additional testimony and
argument-;, to any court, and in light of the legal complexity of the issues

raised. Oral argument will aid this Court in the resolution of these issues.
Fed. R. App. P, 34(a); 5th Cir. Local Rule 34.2.
Carter Vincent Anderson, Petitioner-Appellant

m

TABLE OF CONTENTS
PAGE
Cover Page
Certificate of Interested Persons

11

Request for Oral Argument.

in

Table of Contents

IV

Table of Authorities..,

vi

Memorandum......

1

Statement of Jurisdiction

1

Statement of Case

1

Standard of Review

5

Issues and Questions Presented,

6

1.

Was Anderson’s Batson motion denied in error?

2.

Did the trial court commit reversible error when it failed to
address an inherently discriminatory excuse for the removal of
an African-American prospective juror?

3.

Was Anderson entitled to have his uncorroborated and coerced
confession suppressed?

Reasons Why CO A Should Be Granted
I.

7

Whether jurists of reason would find it debatable that Baton !s
Third Step requires a trial court to articulate reasons for the
denying of a challenge especially when the reason for the exercise
7
of a peremptory challenge is inherently discriminatory
iv

2.

Whether jurists of reason would find it debatable whether
Anderson’s confession was knowingly and voluntarily given or
the product of police intimidation......... ...........................
11

3=

Whether jurists of reason would find it debatable that the
prosecution made it's case on evidence that was not preserved or
did not exist
14
Whether jurists of reason would find it debatable that Anderson
was subjected to double jeopardy as the result of an
impermissible double enhancement
17

4.

Conclusion

21

Affidavit/Certificate of Service

22

Certificate of Compliance

23

Declaration of Inmate Filing

24

v

TABLE OF AUTHORITIES
PAGE
United States Constitution
Fifth Amendment.

20

Eighth Amendment

20

Fourteenth Amendment

20

Louisiana Constitution
20

Article I, § 15.... .
Statutes
28 U.S.C. § 2253

1,5

28 U.S.C. § 2254

5

La. R.S. 14:64

19

La. R.S. 14:95.1

19, 20

La. R.S. 15:529.1

19

Federal Cases
Barrientes v. Johnson, 221 F.3d 741 (5th Cir. 2000)

5

Batson v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712 (U.S. Ky. 1986).....7, 8, 10, 11
Dassey v. Dittmarai, 877 F.3d 297 (7th Cir. 2017)

14

Fare v. Michael C„ 442 U.S. 707, 99 S.Ct. 2560 (1979)

14

vi

10

Harrington v. Richter, 562 U.S. 86, 131 S.Ct. 770 (2011)

7,9

Hernandez v. New York, 500 U.S, 352 (1991)

5

Hill v. Johnson, 210 F.3d 481 (5 Cir. 2000)

13

Lynumn v. Illinois, 372 U.S. 528, 83 S.Ct. 917 (1963)

5

Miller-El v. Cockrell, 537 U.S. 322, 123 S.Ct. 322 (2003)
Miranda v. Arizona, 384 U.S. 436, 86 S.CU602 (1966)

11, 12, 13, 14

Moran v, Burbine, 475 U.S. 412 (1986)
North Carolina v. Pearce, 395 U.S. 711, 89 S.Ct. 2072 (1969)
Perez v. Smith, 791 F. Sapp.2d 291 (E.D. N.Y. 2011)
Self v. Collins, 973 F.2d 1198 (C.A. 5 Tex.) 1992)
Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595 (2000)
Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984)

-..12, 13
21
9
11
5
passim

Louisiana Cases
State v. Baker, 2006-2175 (La. 10/16/07), 970 So.2d 948

20

State v. Dauzart, 02-1187 (La. App. 5 Cir 3/25/03), 844 So.2d 159

19

State v. Holloway, 2012-0926 (La. App. 4 Cir. 7/3/13), 120 So.3d 795....20, 21
State v. Jacobs, 07-887, (La. App. 5 Cir. 5/24/11), 67 So.3d 535

10

State v. Ruiz, 2006-1755 (La. 4/11/07), 955 So.2d81

20

State v. Vaughn, 431 So.2d 763 (La. 1983)

21

VH

o

o

State v. Warner, 94-2649 (La. App. 4 Cir. 3/16/95), 653 So.2d 57

21

Other Authorities
5th Cir, Local Rule 28.2.1

.11

5tli Cir. Local Rule 32.2.7

23

5th Cir. Local Rule 34.2

in

Fed. R. App. P. 32

23

Fed. R. App. P. 34

in

vni

MEMORANDUM
MAY IT PLEASE THE COURT:
NOW COMES pro se habeas petitioner Carter Vincent Anderson
(“Anderson”) to respectfully ask the Court to grant him a certificate of

appealability (“COA”).
STATEMENT OF JURISDICTION
The Court lias jurisdiction to entertain the instant memorandum in
support of Anderson’s request for a CO A. under 28 U.S,C, § 2253.
STATEMENT OF THE CASE
Course of Proceedings
Anderson was charged by bill of information with one count of armed
robbery and one cotint of being a felon in possession of a firearm.1 He
entered not guilty pleas to both2 On November 15, 2012, Anderson was
found guilty as charged on both counts.3 On February 4, 2013, he was
i

sentenced to concurrent terms of 60 years and 10 years at hard labor.4 On

1 See R. pp. 25-26.
2 See R. p. 1.
3R. p. 468.
4R. p. 476.
1

April 16, 2013, he was adjudicated a third felony offender
and re-sentenced
to life imprisonment at hard labor

without the possibility of parole,

probation, or suspension of sentence.5
Anderson timely appealed his convictions and sentences
without
success. He also launched a timely, yet unsuccessful collateral
attack on his
convictions and sentences. Anderson also filed
Illegal Habitual Offender Senten

a Motion to Correct an

ce which was ultimately denied by the

Louisiana Supreme Court.
On August 20, 2018, Anderson filed a timely petition for writ of
habeas corpus in the Eastern District Court of Louisiana. O

n May 10, 2019,

the district court dismissed Anderson’s
petition with prejudice and did not
issue a certificate of appealability.6 He now seeks

CO A from this Court.

Facts of the Offense
Larry Bennett (“Mr. Bennett”)

was robbed of his vehicle after he

was

startled awake in a Wal-Mart parking ]
lot ? In the course of the robbery,
Which happened in the middle of the night. Mr. Bennett
struck with a
5See R. p. 490.

-... SSSSSSSSSOSSSS. K.

recommendation

7See R. pp. 307-10.

weapon and forced to cover his heard with a blanket to prevent him from
identifying his attacker.8
Investigator’s tracked Mr. Bennett’s cell-phone to a home where
Anderson was staying with his girlfriend and her relatives.9 the police
initially believed Vincent Navarre, the boyfriend of the relative of
Anderson’s girlfriend, was the perpetrator of this crime. Navarre, however,
was eliminated as a suspect without any investigation because a police
officer went to high school with him.10 After Navarre was eliminated,
Anderson became the primary suspect.
John Binder (“Binder”) testified for the State and said he and his
sisters were leaving Wal-Mart when he observed glass on the groimd and “a
short black man, standing with a car door open. And there was an older
looking man sitting in the driver seat of the car. ”ii Binder said he “could
clearly see because there’s a light pole nearby. ”12 Binder described the

R. p. 310, 312.
9R. pp. 321-25.
10R. pp. 347-48.
uR.pp. 299-300.
12R. p. 302.
3

perpetrator as “maybe five-five. Kind of on the shorter side for a male."5 He
described the victim as being “around five nine or five 10. >3 13 Although
Binder claimed to have saw everything clearly with the aid of the lighting in
the parking lot, he also admitted he could not identify the black male who
robbed Mr. B ennett.14
According to Detective Robert Chadwick, Vincent Navarre was not
really a suspect. He told the jury the prime suspect was “Ms. Laura Bolden’s
boyfriend ... Carter Anderson,

Det. Chadwick also admitted the police

lost many items of evidence.16
Detective Daniel Suzeneaux admitted the investigation was sloppy and
that the police failed to properly collect, evidence. In fact, the police failed
to preserve most of the alleged evidence referred to at Anderson’s trial; moreover,
the police did not even try to conduct any type of identification procedure
with Mr. Bennett.17 Accordingly, Anderson is entitled to habeas relief.

13

R. p. 303-04.

14R. p. 302.
15R. p.325.
,6R. pp. 326, 50, 376-77, 396.
17R. p. 370.
4

A COA should be granted in this case because Anderson will show: (1)
the denial of substantial constitutional rights; (2) that reasonable jurists
would find the issues presented herein are debatable; (3) that this Court
could resolve the issues in a different manner; and (4) that the questions are
adequate to require further proceedings.
ISSUES AND QUESTIONS PRESENTED
L

The prosecution used peremptory challenges to strike every AfricanAmerican prospective juror from the panel. In articulating the reason
for the removal of one juror in particular, the excuse was inherently
discriminatory. Was Anderson’s Batson motion denied in error?

2.

The prosecution’s excuse for peremptorily removing one prospective
juror was inherently discriminatory. However, the trial court did not
proceed to Batson’s third step when it failed to articulate any reason
for its denial of the Batson motion. Did the trial court commit
reversible error when it failed to address an inherently
discriminatory excuse for the removal of an African-American
prospective juror?

3.

When interviewing Anderson about a robbery, the police did not
believe he was the perpetrator; however, the uncorroborated word of
one officer cast suspicion upon Anderson. The police, not advising
him of his rights after he became the primary suspect, began to lie and
threaten him and forced a statement from him where he claimed to
have robbed the victim in this case. Was Anderson entitled to have
his uncorroborated and coerced confession suppressed?

6

REASONS WHY CQA SHOULD BE GRANTED
1.

Whether jurists of reason would find it debatable that Batson’s
Third Step requires a trial court to articulate reasons for the
denying of a challenge especially when the reason for the exercise
of a peremptory challenge is inherently discriminatory.
There are three well-defined-steps identified in Batson: (1) the

articulated prima facie showing; (2) the race-neutral explanation; and (3)
the trial court's determination of whether or not purposeful discrimination
has been proved.22 The district court observed correctly that unless a
“discriminatory intent is inherent in the prosecutor’s, explanation, the reason
will be deemed raced neutral.”23 Contrary to clearly established law, as
determined by the Supreme Court in Batson, the district court concluded
that “the prosecutor’s stated reasons for striking the [only] three [black]
jurors were facially neutral and not inherently discriminatory. 24»
The district court tried to explain how the prosecution used its
peremptory strikes at trial; however, there is no getting around there being
only three African-American female prospective jurors and the prosecution’s
22See Batson v. Kentucky, 476 U.S. 79. 96-98, 106 S.Ct. 1712, 1723
1724 (U.SKy 1986).
^Magistrate’s Report and Recommendation, p. 25, (quoting
Hernandez v. New York, 500 U.S. 352, 360 (1991)).
^Magistrate’s Report and Recommendation, p. 25.
7

use of a peremptory strike against all three. The biggest contention
surrounding this claim concerns the application of Batson’s third step. The
district court correctly observed that “die trial court offered a brief synopsis
that directly addressed the defense’s contention about [Ms. Cheryl Zeigler]
and noted an additional reason not raised by the prosecution for [Ms. Jo
Torregano]....the trial court expressly stated that it had reviewed each of the
parties struck even if it then specifically commented on only two of the
jurors.”25 The district court’s reasoning here is misplaced. The trial court, as
acknowledged by the district court, proceeded to comply with Batson’s third
step by evaluating if “the defense had carried its burden” by offering a
“brief synopsis ... directly address[ing] the defense’s contention ... and ...
an additional reason. 33 26 However, where the prosecutor’s reasoning for
striking Ms. Katherine Liebert was not inherently race-neutral, there should
have been an on-the-record demonstration of the trial court’s determination
for denying the challenge. Contrary to the district court’s assertion, Ms.
Liebert’s concern was more than “doubting witness identification. 3>27 Ms.

25Id., p. 27.
26Magistrate’s Report and Recommendation, p. 27.
27 Id.
8

Liebert, according to the prosecution, “made a comment about the mis—ID.
That everyone says they look the same. And she believes that people are
convicted by misidentification. »2S
The district court has tasked Anderson, a pro se litigant, with citing
“Supreme Court precedent that requires express factual reasons” to support
a court’s third step evaluation. »29 To support this contention, the district
court cited Perez v. Smith, 791 F. Supp.2d 291, 309-10 (E.D. N.Y. 2011).
However, the dicta of Perez v. Smith actually supports Anderson’s position.
The Perez Court reasoned:
While “it is error to deny a Batson motion without determining
whether the prosecution’s race-neutral explanations for the
challenged peremptory strikes are credible,” United States v.
Thomas, 320 F.3d 315, 320 (2d Cir. 2003), there are a variety of
ways in which a trial court can make such an adjudication. No
specific incantation is required. See McKinney, 326 F.3d at 100
(“Although reviewing courts [may] prefer [ ] [a] trial court to
provide express reasons for each credibility determination, no
clearly established federal law require[s] the trial court to do
so.”); Hernandez, 500 U.S. 3567 n. 2, 111 3 Ct. 1859
(recognizing that step three may be implied, noting that “[t]he
trial judge appears to have accepted the prosecutor’s reasoning
as to his motivation”).

28R. p. 222.
29Magistrate’s Report and Recommendation, p. 28.
9

In Anderson’s case, the trial court denied the Batson motion without
determining whether the prosecutor’s use of a peremptory strike against Ms.
Liebert was credible. Also, because the prosecutor’s reasons for striking Ms.
Liebert was, whether intentional or not, inherently discriminatory. And,
because there is more than one way to articulate thoughts, there cannot be
one “specific incantation” to express acceptance or rejection. If for no other
reason than there being a split which has to be reconciled, the Court should
grant a COA because there are debates concerning this very issue. In fact,
the district court has admitted the claim presented here is “one upon which
’Tairminded jurists’ could disagree^] >s 30
Concerning a Batson violation, one may logically argue that under
step one, the defense must articulate “that the prosecutor exercised a
peremptory challenge on the basis of race.” Step two then requires the
prosecutor to also articulate “a race-neutral explanation for striking the juror
in question.” And step three would, of a necessity, require the reviewing
court to also articulate “whether the defendant has established purposeful
discrimination.”31 The prosecution’s articulated reason for striking
^Magistrate’s Report and Recommendation, p. 29 (citing Harrington
v. Richter, 562 ITS. 86, 101, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011)).
n State v. Jacobs, 07-887, (La. App. 5 Cir. 5/24/11), 67 So.3d at 54410

prospective juror Katherine Liebert was inherently discriminatory. It would
also be negligent if Anderson fails to mention that the trial court should
have tried to rehabilitate the African-American prospective jurors as it did
with prospective juror Mr. Jared Panks, who happened to be white.
Moreover, where Anderson’s appellate counsel failed to argue the foregoing
in appeal, his direct appeal of right was adversely affected because of
counsel’s deficient performance. Accordingly, Anderson is entitled to habeas
relief concerning this claim.
2.

Whether jurists of reason would find it debatable whether
Anderson’s confession was knowingly and voluntarily given or the
product of police intimidation.
This Court has held that, states are precluded from “securing criminal

convictions resulting from coercive police conduct.”32 More importantly,
there is no evidence to support Anderson’s false confession. Also, there is a
difference between a cajoled confession and a coerced confession. Again,
.Anderson was not even the suspect at the time he was being interviewed. It
was on the word of an officer who knew the initial suspect personally that
caused suspicion to fall on Anderson after the officer removed his high-

555 (citing Batson v. Kentucky, 476 U.S., at 96-98, 106 S.Ct. at 1723, 1724.
-2Selfv. Collins, 973 F.2d 1198, 1205 (C.A. 5 Tex.) 1992).
11

school-pal from the light of suspicion. At the very least, the officers kad a
duty to inform Anderson he was now their suspect and to re-read him the
Miranda warning.
The district court erroneously claimed “Vinny, who was Anderson’s
roommate [was] a potential suspect at the time.”33 According to the
investigating officers, Vinny was the suspect at the time.34 Although the
district court noted the shift in the investigation, it nevertheless failed to
expose the detectives unlawful tactics and simply excused their sloppy
work. By noting Anderson’s fear, whether or not it is of “going back to jail,
[and] not fear of the police or Vinny,” is irrelevant. Not only was Anderson
mentally exhausted, he was further precluded from making any intelligent
decisions because of his fear—regardless of the source.
As the district court correctly noted, a person who waives or
relinquishes the right to remain silent must do so willingly and “with full
awareness of the nature of the right being waived, and not the result of

33Magistrate’s Report and Recommendation, p. 18.
34R. pp, 347-48 (Anderson was not provided with a copy of the Record
submitted by the State and therefore can only cite the pages submitted by
him in his original habeas petition.
12

intimidation, coercion or deception.”35 The district court then claimed
Anderson knew what he was doing when he waived his right to remain silent
because he has “prior convictions for which he served time in prison and
knew precisely how the criminal justice system worked, ”36 The district
court's conclusions are severely misplaced and contrary to truth aid justice.
Anderson would not have waived falsely confessed to a crime he did not
commit had the detectives not threatened to prosecute his girlfriend and take
her child away. It is important for the Court to understand that Anderson did
not execute a valid waiver as a suspect in this case. He did not confess until
he was threatened concerning his girlfriend and her child. Whether or not
his girlfriend would be charged is of no consequence; however, to use the
more-than-probable prosecution as leverage to coax cooperation and/or a
confession from Anderson is. The district court acknowledged as much in
the MJ:s Report and Recommendation:
False promises may be evidence of involuntariness, at least when
paired with more coercive practices or especially vulnerable
defendants as part of the totality of the circumstances. E.g.,
Lynumn v. Illinois, 372 U.S. 528, 534, 83 S.Ct. 917, 9 L.Ed.2d
922 (1963) (pr^-Miranda confession found involuntary based on
35Magistrate’s Report and Recommendation, p. 13 (citing Moran v.
Bur bine y 475 U.S. 412, 421 (1986) (emphasis added).
36Magistrate’s Report and Recommendation, p. 17.
13

false promise of leniency to indigent mother with young
children, with threats to remove her children and to terminate
welfare benefits, along with other factors). But the Supreme
Court allows police interrogators to tell a suspect that “a
cooperative attitude” would be to his benefit. Fare v. Michael
C., 442 U.S. 707, 727, 99 S.Ct. 2560, 61 L.Ed.2d 197 (1979)
(reversing finding that confession was involuntary). Supreme
Court precedents do not draw bright lines on this subject.37
Under the totality of the circumstances of this case, it would be a
complete miscarriage of justice to reward police work that was not only
sloppy but also ran afoul of the United States Constitution. Accordingly,
Anderson is entitled to habeas relief concerning this claim.
3.

Whether jurists of reason would find it debatable that the
prosecution made its case on evidence that was not preserved
or did not exist
The district court claimed that “Anderson has not presented any

evidence of perjured testimony or shown that the prosecutor knowingly
permitted officers to perjure themselves.”38However, this is simply not true.
The police and the prosecution conceded that alleged items of evidence were
collected and lost. They further admitted that there were, allegedly, some
other items of evidence that were viewed by the police that was not

37Magistrate’s Report and Recommendation, p. 15 (citing Dassey v.
Diitmann, 877 F.3d 297, 304 (7th Cir. 2017) (emphasis added)).
i

38Magistrate’s Report and Recommendation, p. 34.
14

preserved. This amounts to less than circumstantial evidence because it was
not preserved for the defense or the jury. Contrary to law, however, they
hmrd all about it. The district court also admitted that the alleged evidence
was lost or missing. Still, the district court excused this incompetence and
injustice because “they regretfully, in hindsight, did not return to secure the
evidence that seemed less important once Anderson confessed to the crime[]
[although they] could not explain why the traffic ticket and photographs
they had collected were missing from the evidence.”39 Contrary to the
district court’s assertion, the “missing evidence” concerns more than the
“weight to be afforded the [detectives] testimony” because the prosecution
could not “ conclusively establish that the testimony was [not] false

«4G

And,

unlike situations where officers are forced to make split second decisions,
the officers, and by extension the prosecution, cannot prevail from the
benefit of hindsight. Because the prosecution did not have the evidence it
relied on to wrangle this conviction, it should not have been able to talk
about it in its case-in-chief. Because the prosecution was allowed to do so
rendered Anderson’s trial constitutionally unfair mid the verdict unreliable.

39Magistrate’s Report and Recommendation, p. 35.
40 Id., p. 35 (emphasis added).
15

The prosecution had the burden of presenting the evidence it claims was
there and not the other way around. The district court’s claim that the
burden was on Anderson to present evidence of bad faith on the part of the
police in failing to retrieve and preserve evidence is severely misplaced.41
The burden does not belong to Anderson to prove the State withheld
favorable evidence when the very evidence in question was not only
withheld but still harped on at trial. Accordingly, the district court’s
assertion that the alleged “copy of the surveillance recording [ ] did not
appear helpful to Anderson in any event” is contrary. Therefore Anderson is
entitled to habeas relief, especially where there was no offered “explanation
[ ] for why the traffic ticket and photographs were missing from the
evidence collected[.] »42
The credibility of people testifying may be something for the jury to
consider; however, whether Anderson was or was not the primary suspect
from the beginning of the investigation of this case is not left to subjective
speculation. Vincent Navarre was the primary suspect in this case and not
Anderson. Thus the district court’s belief that Detective Suzeneaux’s and

41 Id., p. 37.
42Magistrate’s Report and Recommendation, pp. 37-38.
16

Chadwick’s testimonies were simply conflicting is misplaced. Again, all the
investigators suspected Navarre; therefore, this is a matter of fact and not
opinion being testified to. And it is established fact that Anderson was not
the primary suspect. Accordingly. Anderson is entitled to habeas relief

concerning this claim.
Whether jurists of reason would find it debatable that
Anderson was subjected to double jeopardy as the result of
an impermissible double enhancement.
The district court correctly observed that Anderson’s issue here is that
“the underlying felony conviction used to charge him as a convicted felon in
possession of a firearm in this case was also used to support the multipleoffender adjudication and sentence he received.”43 However, the district
court somehow misconstrued Anderson’s argument by claiming his complaint
is only a sentencing issue. Anderson complaint is not simply about an
enhanced sentence or second punishment. It is however, what the district
court overlooked although it was spelled-out by the MJ:
Here, Anderson appears to argue that the State used his previous
2005 convictions for possession of cocaine and/or being a
convicted felon in possession ofa firearm to support the current
charge of being a convicted felon in possession of a firearm,
and then used the same firearm conviction as part of the multiple
bill of information charging him as a third-felony offender. He
43Id., p. 39.
17

contends that the state sought multiple enhancement of his
sentence based on the same set of prior convictions. However,
the bill of information reflects that only the prior 2005
conviction for possession of cocaine was used for count two
(possession of a firearm by a convicted felon), see Stale v. Anderson,
2014 WL 647913, at *1 n. 1, whereas the multiple bill of
information listed the underlying predicate convictions as the
2004 simple burglary of an inhabited dwelling and 2005 convicted
felon in possession of a firearm.44
It does not get any clearer than that. The district court recapitulated
V

Anderson’s argument and then claims it was not an impermissible double
enhancement. Again, the first conviction the prosecution relied on in seeking
to have Anderson adjudicated a third felony offender is for one count of simple
burglary under docket number 375879 originating in the Twenty-second
Judicial District Court. The second conviction the prosecution relied on is
for one count of felon in possession of a firearm in docket number 395212
also originating in the Twenty-second Judicial District Court. In alleging
Anderson to be a third felony offender, the prosecution relied on the same
underlying felony it used to prosecute him as a convicted felon in possession
of a firearm. Accordingly, Anderson’s adjudication and enhanced life sentence,

44Id.
18

as a third felony offender under La. R.S. 15:529.1 is the result of an
impermissible double enhancement.45
On March 29, 2004, Anderson pled guilty to one count of simple
burglary of an inhabited dwelling and was sentenced to serve six years at
hard labor. On October 17, 2005, Anderson pled guilty to one count of felon
in possession of a firearm and was sentenced to serve ten years at hard
labor. In its felony bill of information, the prosecution’s count two against
Anderson reads:
R.S. 14:95.1 CONVICTED FELON POSSESSING A FIREARM
OR CARRYING A CONCEALED WEAPON, by being a
convicted felon; having previously been convicted of
POSSESSION OF COCAINE ON OCTOBER 17, 2005, IN
DOCKET NUMBER 395213, IN THE 22ND JUDICIAL
DISTRICT COURT IN ST. TAMMANY, and possessing or
having concealed upon his person a weapon, to-wit: A GUN.
Anderson was arrested and charged with one count of armed robbery
and one count of being a felon in possession of a firearm in violation of La.
R.S. 14:64 and La. R.S. 14:95.1, respectively. To support the charge of felon
in possession of a firearm against him, the prosecution used the convictions
cited above—possession of cocaine and possessing or having upon his
person a weapon as the underlying felony. However, the prosecution’s

45 State v. Dauzart, 02-1187 (La. App. 5 Cir 3/25/03), 844 So.2d 159, 168.
19

habitual offender bill of information listed the same firearm conviction to
support its allegation that Anderson was a third felony offender.
In State v. Baker; the Louisiana Supreme Court said “the state may not
seek multiple enhancement of a defendant’s sentence on the basis of the
same set of prior convictions. n 46 However, that is exactly what the
prosecution did in this case. The prosecution knew Anderson had a previous
conviction for felon in possession of firearm. That is what prompted the
prosecution to file a bill of information charging Anderson with being a
felon in possession of a firearm in violation of La. R.S. 14:95.1. Contrary to
the state and federal constitutions, the prosecution used the same underlying
felony, twice, to adjudicate Anderson a third felony offender.47
The Fifth Amendment to the United States Constitution and Article 1 §
15 of the Louisiana Constitution guarantees that no one is to be placed in
jeopardy twice for the same offense. 48 However, Anderson’s right of equal
protection has been violated because the very provisions designed to protect
^State v. Baker, 2006-2175 (La. 10/16/07), 970 So.2d 948, 957; see
also State v. Ruiz, 2006-1755 p. 12-13 (La. 4/11/07), 955 So.2d 81, 89.
6,1 La. Const, art. I, § 15; TJ.S. Const, amend. V; U.S. Const, amend.
VIII; U.S. Const, amend. XIV.
4SSee State v. Holloway, 2012-0926 (La. App. 4 Cir. 7/3/13), 120 So.3d
795, 797.
20

him were violated by an impermissible double enhancement when he was
subjected to “multiple punishment for the same conduct. »49 Accordingly,
Anderson is entitled to habeas relief concerning this claim.
CONCLUSION
WHEREFORE, considering the claims asserted above, Petitioner,
Carter Vincent Anderson asks the Court to grant the requested COA.
Respectfully submitted this 14th day of June, 2019.

Carter Vincent Anderson, pro se
418030, Magnolia—4
Louisiana State Penitentiary
Angola, LA 70712

49State v. Holloway, supra; citing North Carolina v. Pearce, 395 U.S.
711, 717, 89 S.Ct. 2072, 2076, 23 L.Ed.2d 656 (1969); State v. Vaughn, 431
So.2d 763, 767 (La. 1983); State v. Warner, 94-2649, p. 4 (La. App. 4 Cir.
3/16/95), 653 So.2d 57, 59.
21

AFFIDAVIT/CERTIFICATE OF SERVICE
I do hereby swear and affirm that the foregoing is true and correct to
the best of my knowledge and belief. I further certify that the foregoing has
been served upon;
Opposing, Counsel:
Warren Montgomery, District Attorney
Attention: ADA Matthew Caplan
701 N. Columbia Street
Covington, LA 70433
By placing a copy of same in a properly addressed envelope into the hands
of the Classification Officer assigned to my unit along with a Withdrawal
made out to the General Fund, LSP, Angola, LA 70712 for the cost of
postage and a properly filled out Inmate’s Request for Indigent/Legal Mail
form, receiving receipt for same in accordance with the institution’s rules
and procedures for the sending of legal mail.
Done this 14th day of June, 2019.

22

CERTIFICATE OF COMPLIANCE
Pursuant to 5th Cir. R. 32.2.7(c), the undersigned certifies this brief
complies with the type volume limitations of Fed. R. App. P. 32(a)(7).
1.

This brief complies with the type-volume limitation of Fed. R. App. P.

32(a)(7)(B) because this brief contains 4, 965 words, including the parts of
the brief exempted by Fed. R. App. P. 32(a)(7)(B)(iii).
2.

This brief complies with the typeface requirements of Fed. R. App. P.

32(a)(5) and the type style requirements of Fed. R. App. P. 32(a)(6) because
this brief has been prepared in a proportionally spaced typeface using
LibreOffice in 14 point Times New Roman type face.
3.

The undersigned understands a material misrepresentation in

completing this certificate, or circumvention of the type-volume limits in
Fed. R. App. P. 32(a)(7) may result in the court’s striking the brief and
imposing sanctions against the person signing the brief.

Carter Vincent Anderson, Petitioner-Appellant

23

*

Case No. 19-30397
IN THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
CARTER VINCENT ANDERSON
P etiti oner- App ellant
v.
DARREL VANN GY, WARDEN, LOUISIANA STATE PENITENTIARY,
R esp ondent- App elle e
DECLARATION OF INMATE FILING
I am an inmate confined in a state institution. Today, June 15, 2019, I
am depositing a Motion for Certificate of Appealability, the Brief in Support
for the Motion for Certificate of Appealability in this case in the
institution’s internal mail system.. First-class postage is being prepaid by me
or by the institution on my behalf.
I declare under penalty that the foregoing is true and correct.

Carter Vincent Anderson, Petitioner-Appellant
Signed on June 14, 2019.

24

EXHIBIT

U.S. District Court - Eastern District of Louisiana

Carter Vincent Anderson #418030
Louisiana State Penitentiary
General Delivery
Angola, LA 70712

Case: 2:18-CV-07977 #18
4 pages.
Fri May 10 9:01:59 2019

MIME-Version:1.0
From:Efile„Notice@laed.uscourts.gov
To:Efile_Information
Bcc:
~

—Case Participants: Matthew Caplan (mcaplan@22da.com)
—Non Case Participants:
—No Notice Sent:
Message-Id:<9883939@laed.uscourts.gov>
Subject:Activity in Case 2:18-cv-07977-LMA Anderson v. Vannoy et at Order
Adopting Report and Recommendations
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of Louisiana
Notice of Electronic Filing
The following transaction was entered on 5/10/2019 8:16 AM CDT and filed
on 5/10/2019
Case Name: Anderson v. Vannoy et al
Case Number: 2:18-CV-07977-LMA
https://ecf.laed.uscourts.gov/cgi-bin/DktRpt.pi 7220928
Filer:
Document Number: 17
Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https://ecf.laed.uscourts.gov/doc1/085111010947?caseid=220928&de=seq_jium=59
&magic=num=MAGIC

Docket Text:
ORDER ADOPTING REPORT AND RECOMMENDATIONS '
[15]. Signed by Judge Lance M Africk on 5/10/19.(sbs)

2:18-cv-07977-LMA Notice has been electronically mailed to:
Matthew Caplan mcaplan@22da.com
2:18-cv-07977-LMA Notice has been delivered by other means to:
Carter Vincent Anderson
#418030
Louisiana State Penitentiary
General Delivery
Angola, LA 70712

The following document(s) are associated with this transaction:
Document description: Main Document
Original filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp=ID=1091133085 [Date=5/10/2019] [FileNumber=9883936-0]
[8d6116af03dc2c52d6911b00e56e56e7c53f12f3e5e9bb4a2635a7636a647e22d44d718060
912e0fcc01801fb356e043acb0abbl04bb8119f4880b9c5646508a] ]

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CARTER VINCENT ANDERSON

CIVIL ACTION

VERSUS

NO. 18-7977

DARREL VANNOY, WARDEN

SECTION: “I” (5)

ORDER
The Court, having considered the petition, the record, the applicable law, the Report
and Recommendation of the United States Magistrate Judge, and the objection by plaintiff,
Carter Vincent Anderson, which is hereby OVERRULED, approves the Magistrate Judge's
Findings and Recommendation and adopts it as its opinion in this matter. Accordingly,
IT IS ORDERED that the petition of Carter Vincent Anderson for issuance of a writ of
habeas corpus under 28 U.S.C. § 2254, is hereby DISMISSED WITH PREJUDICE.
New Orleans, Louisiana, this 10th day of May, 2019.

LAMCE M. AFRICK
UNITED S/ATES DISTRICT JUDGE

/

U.S. District Court - Eastern District of Louisiana

\

Carter Vincent Anderson #418030
Louisiana State Penitentiary
General Delivery
Angola, LA 70712

Case: 2:18-CV-07977 #17
4 pages.
Fri May 10 9:01:53 2019

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CARTER VINCENT ANDERSON

CIVIL ACTION

VERSUS

NO. 18-7977

DARREL VANNOY, WARDEN

SECTION: T’(5)

IUDGMENT
The Court having approved the Report and Recommendation of the United States
Magistrate Judge and having adopted it as its opinion herein;
Accordingly,
IT IS ORDERED, ADJUDGED, AND DECREED that there be judgment against
petitioner, Carter Vincent Anderson, dismissing with prejudice his petition for issuance of a
writ of habeas corpus under 28 U.S.C. § 2254.
New Orleans, Louisiana, this 10th day of May, 2019.

LANCim AFRICK
UNITED STATES DISTRICT JUDGE

MIME-Version:1.0

From: Ef ileJ\lotice@laed. uscourts . gov
To:Efile„Information
Bcc:
™
—Case Participants: Matthew Caplan (mcaplan@22da.com)
—Non Case Participants:
—No Notice Sent:
Message-Id:<9883948@laed.uscourts.gov>
Subject:Activity in Case 2:18-CV-07977-LMA Anderson v. Vannoy et al
Judgment
Content-Type: text/plain
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States
policy permits attorneys of record and parties in a case (including pro se
litigants) to receive one free electronic copy of all documents filed
electronically, if receipt is required by law or directed by the filer, PACER
access fees apply to all other users. To avoid later charges, download a
copy of each document during this first viewing. However, if the
referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Eastern District of Louisiana
Notice of Electronic Filing
The following transaction was entered on 5/10/2019 8:18 AM CDT and filed
on 5/10/2019
Case Name: Anderson v. Vannoy et al
Case Number: 2:18-CV-07977-LMA
https://ecf.laed.uscourts.gov/cgi-bin/DktRpt.pi7220928
Filer:
WARNING: CASE CLOSED on 05/10/2019
Document Number: 18
Copy the URL address from the line below into the location bar
of your Web browser to view the document:
https://ecf.laed.uscou rts.gov/doc1/085111010958?caseid=220928&de_seq=num=62
&magic_num=MAGIC

Docket Text:
JUDGMENT entered in favor of Darrel
Vannoy against Carter Vincent Anderson, dismissing with prejudice his
petition
for issuance of a writ of habeas corpus. Signed by Judge Lance M Africk on
5/10/19.(sbs)
2:18-cv-07977-LMA Notice has been electronically mailed to:
Matthew Caplan mcaplan@22da.com
2:18-cv-07977-LMA Notice has been delivered by other means to:
Carter Vincent Anderson
#418030
Louisiana State Penitentiary
General Delivery
Angola, LA 70712

The following document(s) are associated with this transaction:
Document description: Main Document
Original filename: n/a
Electronic document Stamp:
[STAMP dcecfStamp=ID=1091133085 [Date=5/10/2019] [FileNumber=9883947-0]
[484761beaeb9f48a9d295b37al3505532b943a4ef11444b97cba0el9bf81dd564ee9ca2af5
b28455308f4314371b0fa566148a8ac6ecb87dca8cd78829804a46]]

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page lot 41

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CARTER VINCENT ANDERSON

CIVIL ACTION

VERSUS

NO. 18-7977

DARREL VANNOY, WARDEN

SECTION: T’(5)

REPORT AND RECOMMENDATION
This matter was referred to the undersigned United States Magistrate Judge to
conduct a hearing, including an evidentiary hearing, if necessary, and to submit proposed
findings and recommendations for disposition pursuant to 28 U.S.C. § 636(b)(1)(B) and (C),
and as applicable, Rule 8(b) of the Rules Governing Section 2254 Cases in the United States
District Courts.

Upon review of the entire record, the Court has determined that this

matter can be disposed of without an evidentiary hearing.

See 28 U.S.C. § 2254(e)(2).

For the following reasons, IT IS RECOMMENDED that the petition for habeas corpus relief
be DISMISSED WITH PREJUDICE.
Procedural History
Petitioner, Carter Anderson, is a convicted inmate currently incarcerated at the
Louisiana State Penitentiary in Angola, Louisiana.

On March 21, 2011, Anderson was

charged by bill of information with armed robbery and being a convicted felon in possession

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 2 of 41

of a firearm.1

On November 15, 2012, a jury found him guilty as charged.2

for post-verdict judgment of acquittal and new trial were denied.

His motions

On February 4, 2013, the

trial court sentenced him to 60 years at hard labor with the first 20 years to be served
without benefit of probation, parole or suspension of sentence, and 10 years at hard labor
without benefit of probation, parole or suspension of sentence, respectively.3
to reconsider the sentence was denied.

His motion

The State filed a multiple bill of information.4

On

April 16, 2013, his original sentences were vacated, and the trial court sentenced him as a
third-felony offender to life imprisonment on each count, to run concurrently.
Anderson appealed and asserted one claim of error.

He argued that the trial court

erred in denying his motion to suppress his confession.

On February 18, 2014, the

Louisiana First Circuit Court of Appeal affirmed the convictions and sentences.5
an application for writ of certiorari with the Louisiana Supreme Court.

He filed

On October 24,

2014, the Louisiana Supreme Court denied his writ application.6

State Rec., Vol. 1 of 7, Bill of Information, 22nd JDC for St. Tammany Parish.
2 State Rec., Vol. 1 of 7, Minute Entry, 11/15/12.
3 State Rec., Vol. 1 of 7, Minute Entry, 2/4/13.
4 State Rec., Vol. 1 of 7, Multiple Offender Bill of Information.
5 State v. Anderson, 2013-KA-0836, 2014 WL 647913 (La. App. 1st Cir. 2/18/14);
State Rec., Vol. 4 of 7.
6 State v. Anderson, 2014-KO-0591 (La. 2014), 151 So.3d 599; State Rec., Vol. 3 of 7.

2

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 3 of 41

On December 28, 2015, Anderson submitted an application for post-conviction relief
to the state district court.7

In that application, he asserted the following claims:

(1) the

prosecution purposefully excluded all African-American prospective jurors, rendering his
trial fundamentally unfair; (2) prosecutorial misconduct rendered his trial fundamentally
unfair; and (3) he was denied the right to effective assistance of appellate counsel for failing
to raise a Batson claim on direct appeal.

On July 20, 2016, the district court denied relief.8

On October 17, 2016, his related writ application with the Louisiana First Circuit was
denied.9

On August 3, 2018, the Louisiana Supreme Court denied his application for

supervisory writs.10

The Louisiana Supreme Court concluded that Anderson failed to show

that he received ineffective assistance of counsel under Strickland and that he failed to satisfy
his burden of proof as to the remaining claims.
During the time he was seeking supervisory relief from the post-conviction ruling
with the appellate courts, Anderson also submitted to the state district court a motion to
vacate an illegal habitual-offender sentence.11

In that motion, he argued that his

7 State Rec., Vol. 4 of 7, R.p. 619, Uniform Application for Post-Conviction Relief.
State Rec., Vol. 4 of 7, R.p. 708, District Court Ruling denying PCR, 7/20/16.
9 State Rec., Vol. 5 of 7, State v. Anderson, 2016-KW-1048, 2016 WL 6092938 (La.
App. 1st Cir. Oct. 17, 2016).
10 State Rec., Vol. 6 of 7, State ex rel Anderson v. State, 2016-KH-2137 (La. 2018), 249
So.3d 822.
11 State Rec., Vol. 4 of 7, Motion to Vacate an Illegal Habitual Offender Sentence signed

3

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 4 of 41

adjudication and enhanced sentence as a third-felony offender was the result of an
impermissible double enhancement, because the underlying offense the State used to charge
him as a convicted felon in possession of a firearm was also used to have him adjudicated as
a third-felony offender.

On June 7, 2017, the trial court denied the motion to vacate

because it was untimely, successive and the sentence had been reviewed on appeal.12

On

August 21, 2017, his timely filed supervisory writ application was denied by the Louisiana
First Circuit without stated reasons.13

On August 3, 2018, the Louisiana Supreme Court

issued a one-word denial of his related supervisory writ application.14
On August 20, 2018, Anderson filed a federal application for relief in this Court.

In

that application, he raises the following combined five grounds for relief asserted on direct
appeal and collateral review:

(1) the trial court erroneously denied the motion to suppress

his confession; (2) the trial court erred in overruling his Batson challenge to the prosecutor's
use of peremptory challenges to remove the only three prospective African-American jurors;
(3) ineffective assistance of appellate counsel in failing to assert the Batson claim on direct
appeal; (4] the prosecutor engaged in misconduct by presenting a case based on speculation

and dated 6/1/17.
12 State Rec., Vol. 4 of 7, R.pp. 757-60, Ruling Denying Motion to Vacate, 6/7/17.
13 State Rec., Vol. 7 of 7, R.p. 1230, State v. Anderson, 2017-KW-0865, 2017 WL
6603954 (La. App. 1st Cir. Aug. 21, 2017).
14 State Rec., Vol. 7 of 7, State ex rel. Anderson v. State, 2017-KH-1530 (La. 2018), 250
So.3d 888.

4

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 5 of 41

and hearsay unsupported by any tangible evidence; and (5) the enhanced sentence is the
result of an impermissible double enhancement.15

In its response to the federal

application, the State does not allege untimeliness, failure to exhaust, or procedural default.16
Anderson submitted a Reply to the State's Response.17
Facts
On direct appeal, the Louisiana First Circuit Court of Appeal summarized the facts
adduced at trial as follows:
On December 30, 2010, between midnight and 1:00 a.m., Larry Bennett (the
victim) was in a Wal-Mart parking lot in Slidell, Louisiana, when an AfricanAmerican male approached his 1993 Cadillac Seville. The victim, a retired
truck driver from Toledo, Ohio, who came to Slidell to purchase a part for his
antique airplane, was set to spend the night in his vehicle when the
perpetrator suddenly smashed his rear window. When the victim turned
towards the back, the perpetrator pointed a gun at the victim's face and told
him to get out of the car. When the victim attempted to take the keys out of the
ignition, the perpetrator told him to leave the keys in the ignition and get out
of the car, and he began striking the victim in the back of his head. Before
fleeing the scene in the victim's vehicle, the perpetrator forced the victim to
place a blanket that was in his vehicle over his head, as blood from his head
injury began to cover his neck. John Binder, a bystander who was in the WalMart parking lot at the time, witnessed the robbery and contacted the police.
Binder described the perpetrator as a short, African-American male with
dreadlocks. The victim was taken to Ochsner Hospital where he received
stitches in the back of his head.
After being released from the hospital, the victim provided the Slidell Police
Department (SPD) with the telephone number for the cell phone that he left in
15 Rec. Doc. 3, Petition.
16 Rec. Doc. 12.
17 Rec. Doc. 14.

5

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 6 of 41

the vehicle and with the clothing that he was wearing at the time of the
incident. The police accessed the cell phone records and determined that the
cell phone was used to call Laura Bolden. Bolden was defendant's girlfriend,
with whom he was living at the time in a duplex apartment building at the
corner of 11th Street and Cousin Street in Slidell. The victim's vehicle was
recovered from an apartment complex within walking distance of the
residence. SPD Detectives Daniel Suzeneaux18 and Brian Brown observed
surveillance footage19 from the apartment complex showing that, shortly
after the robbery, the vehicle was dropped off by an individual who fit the
description provided by Binder. The victim's cell phone was found at the
residence on Cousin Street, and defendant and the others who were present at
the residence were asked to come to the police station for questioning.
Defendant, before being questioned, initially denied any knowledge or
involvement. Defendant was advised of his Miranda rights at the scene and
again at the police station where a waiver of rights form was executed.
Defendant made incriminating statements during an audio-recorded
interview at the police station. SPD executed a search warrant for Bolden's
vehicle that was at the residence on Cousin Street and found a bag containing
a handgun and a traffic ticket in defendant's name. The victim's DNA was found
during the testing of swabs processed from the recovered handgun. Defendant
fit the basic description depicted on the surveillance footage and given by
Binder; however, at the time of his arrest he had a short haircut with
remaining twists, as opposed to full dreadlocks. During the audio-recorded
interview, defendant admitted that his girlfriend recently styled his hair in
dreadlocks, but due to the "good" texture of his hair he could not maintain the
locks. During the trial, the victim identified defendant as the perpetrator,
noting that he was able to focus on the perpetrator's eyes and nose as the gun
was being held between the perpetrator's face and the victim's face.20

18 The detective's name is alternatively spelled as "Seuzeneau" in the record.
19 The apartment manager had limited knowledge on the operation of the
surveillance system. After the police viewed the surveillance footage, they unsuccessfully
attempted to download the footage.
20 State v. Anderson, 2013-KA-0836, 2014 WL 647913, at *1 (La. App. 1st Cir.
2/18/14) (footnotes in original).

6

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 7 of 41

Standards of Review on the Merits
Title 28 U.S.C. § 2254(d)(1) and (2), as amended by The Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA), provides the applicable standards of review for pure
questions of fact, pure questions of law, and mixed questions of both.

A state court's purely

factual determinations are presumed to be correct and a federal court will give deference to
the state court's decision unless it “was based on an unreasonable determination of the facts
in light of the evidence presented in the State court proceeding.”

28 U.S.C. § 2254(d)(2);

see also 28 U.S.C. § 2254(e)(1) (“In a proceeding instituted by an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State court, a
determination of a factual issue made by a State court shall be presumed to be correct. The
applicant shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.”).

With respect to a state court's determination of pure questions of

law or mixed questions of law and fact, a federal court must defer to the decision on the
merits of such a claim unless that decision “was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court of the
United States.” 28 U.S.C. § 2254(d)(1).
The “‘contrary to’ and ‘unreasonable application’ clauses [of § 2254(d)(1)] have
independent meaning.”

Bell v. Cone, 535 U.S. 685, 694 (2002).

A state court decision is

"contrary to" clearly established precedent if the state court applies a rule that contradicts
the governing law set forth in the United States Supreme Court's cases or if the state court

7

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 8 of 41

confronts a set of facts that are materially indistinguishable from a decision of the United
States Supreme Court and nevertheless arrives at a result different from United States
Supreme Court precedent.

Williams v. Taylor, 529 U.S. 362, 405-06 (2000); Wooten v.

Thaler, 598 F.3d 215, 218 (5th Cir.), cert, denied, 131 S.Ct. 294 (2010).

An “unreasonable

application” of [United States Supreme Court] precedent occurs when a state court
"identifies the correct governing legal rule... but unreasonably applies it to the facts of the
particular state prisoner's case."

Williams, 529 U.S. at 407-08; White v. Woodall, 572 U.S.

415, 426 (2014).
It is well-established that "an unreasonable application is different from an incorrect
one.” Bell, 535 U.S. at 694.

A state court's merely incorrect application of Supreme Court

precedent simply does not warrant habeas relief.

Puckett v. Epps, 641 F.3d 657, 663 (5th

Cir. 2011) (“Importantly, ‘unreasonable’ is not the same as 'erroneous' or ‘incorrect’; an
incorrect application of the law by a state court will nonetheless be affirmed if it is not
simultaneously unreasonable.”).

"[E]ven a strong case for relief does not mean the state

court's contrary conclusion was unreasonable” under the AEDPA.
562 U.S. 86, 102 (2011).

Harrington v. Richter,

Section 2254(d) preserves authority to issue the writ in cases

where there is "no possibility fairminded jurists could disagree that the state court's decision
conflicts with [United States Supreme Court] precedents."

Id. at 102 (emphasis added); see

also Renico v. Lett, 559 U.S. 766, 779 (2010) (“AEDPA prevents defendants—and federal
courts—from using federal habeas corpus review as a vehicle to second-guess the reasonable

8

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 9 of 41

decisions of state courts.").
Claims for Relief
Admission of Involuntary Confession

L

Anderson claims that the trial court improperly denied the motion to suppress his
statement.

He asserts that his confession was involuntary and coerced with threats,

promises and falsehoods.

The confession was audio-recorded.

The compact disc

recordings and executed statements regarding his Miranda rights were introduced as
evidence at the suppression hearing and submitted as part of the instant state-court record.21
The Louisiana First Circuit rejected the claim on direct appeal as follows:
In his sole assignment of error, defendant argues that the trial court erred in
denying his motion to suppress his confession. He asserts that detectives
threatened him and his girlfriend in order to get him to incriminate himself.
Defendant contends that there was no eyewitness identification or DNA
evidence linking him to the armed robbery offense. Defendant argues that the
convictions should be reversed due to the police's use of coercion, threats, and
promises to induce the confession. Defendant contends that the trial court
should have granted the motion to suppress after hearing the detectives
threatening him on the recording. Defendant notes that he was not the only
person who had access to the vehicle and further contends that the police
investigation was faulty because they lost evidence and they failed to identify
the owner of the items seized from the vehicle that was searched. Defendant
contends that he emotionally collapsed under the notion that his girlfriend
could be falsely accused of this crime. Defendant notes that the detectives lied
about his fingerprints being found in the victim's vehicle and about having a
witness who already identified defendant as the perpetrator. Defendant also
claims that the detectives promised to help his girlfriend, knowing that they
intended to prosecute her.
The Fourth Amendment to the United States Constitution and article I, § 5 of
21 Rec. Doc. 12-2, Notice of Manual Attachment, Exhibit 2.

9

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 10 of 41

the Louisiana Constitution protect persons against unreasonable searches and
seizures. A defendant adversely affected may move to suppress any evidence
from use at the trial on the merits on the ground that it was unconstitutionally
obtained. LSA-C.Cr.P. art. 703A. The State bears the burden of proving the
admissibility of a purported confession or any evidence seized during a search
without a warrant. LSA-C.Cr.P. art. 703D. Louisiana Revised Statute 15:451
provides that before a purported confession can be introduced in evidence, it
must be affirmatively shown to be free and voluntary and not made under the
influence of fear, duress, intimidation, menaces, threats, inducements, or
promises. It must also be established that an accused who makes a confession
during custodial interrogation was first advised of his or her Miranda rights.
State v. Plain, 99-1112 (La. App. 1 Cir. 2/18/00), 752 So .2d 337,342. The State
must specifically rebut a defendant's specific allegations of police misconduct
in eliciting a confession. State v. Thomas, 461 So.2d 1253,1256 (La. App. 1 Cir.
1984), writ denied, 464 So.2d 1375 (La.1985).
Whether a showing of voluntariness has been made is analyzed on a case-by­
case basis with regard to the facts and circumstances of each case. State v.
Benoit, 440 So.2d 129, 131 (La. 1983). The trial court must consider the
totality of the circumstances in deciding whether a confession is admissible.
State v. Hernandez, 432 So.2d 350,352 (La. App. 1 Cir.1983). Testimony of the
interviewing police officer alone may be sufficient to prove a defendant's
statements were freely and voluntarily given. State v. Maten, 04-1718 (La.
App. 1 Cir. 3/24/05), 899 So.2d 711, 721, writ denied, 05-1570 (La. 1/27/06),
922 So.2d 544.
A trial court's ruling on a motion to suppress the evidence is entitled to great
weight, because the court had the opportunity to observe the witnesses and
weigh the credibility of their testimony. State v. Jones, 01-0908 (La. App. 1 Cir.
11/8/02), 835 So.2d 703, 706, writ denied, 02-2989 (La. 4/21/03), 841 So.2d
791. Correspondingly, when a trial court denies a motion to suppress, factual
and credibility determinations should not be reversed in the absence of a clear
abuse of the trial court's discretion, i.e., unless such ruling is not supported by
the evidence. See State v. Green, 94-0887 (La. 5/22/95), 655 So.2d 272, 28081. However, a trial court's legal findings are subject to a de novo standard of
review. See State v. Hunt, 09-1589 (La. 12/1/09), 25 So.3d 746, 751. When
reviewing a trial court's ruling on a motion to suppress, the entire record may
be considered, including trial testimony. State v. Martin, 595 So.2d 592, 596
(La. 1992).

10

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 11 of 41

The following evidence was presented at the hearing on the motion to
suppress. Detective Suzeneaux testified that everyone present at the duplex
apartment on the day of the robbery, including defendant, was asked to come
to the station for questioning regarding the robbery, and everyone agreed.
After Bolden was interviewed, Detective Suzeneaux and SPD Detective Luke
Irwin interviewed defendant. Detective Suzeneaux denied that defendant was
coerced or forced into making a statement at the hearing and again during the
trial.
The audio-recorded interview revealed that defendant's rights were read to
him, and he stated that he understood his rights and further stated that he
wished to make a statement. Defendant denied that he had been physically or
verbally abused and confirmed that he was making the statement of his own
free will. Defendant initially denied having specific information regarding, or
being involved in, the robbery. He implicated his male roommate before
eventually making incriminating statements that pointed to his personal
involvement, but he did not initially make a full-blown confession. The police
relayed some of the information that they had regarding the offense and
admittedly used falsehoods. For example, the police indicated that they
already knew what happened and that they had fingerprint evidence and
witness statements implicating defendant. Vulgar language was also used
along with repeated requests for truth, honesty, and details. The police also
told defendant that he was not helping himself by lying and that he was being
given the chance to tell the truth. Defendant eventually admitted to handling
the gun, having personal contact with the stolen vehicle, and knowing that it
had been stolen. Defendant ultimately stated that he hit the victim out of fear.
The police informed defendant that if he continued to cooperate they would
let his cooperation be known. The police reminded defendant that his child
and girlfriend loved him and suggested that defendant may have committed
the offense for them, as they continued to question defendant. Before
defendant finally confessed, he again admitted that he was not being forced to
make the statements. Defendant's emotional breakdown came after he
confessed and became even more concerned about the consequences of his
actions.
As to the voluntariness of defendant's statements, we note that the police
testimony indicated that there were no promises or abuse to induce
defendant's agreement to make a statement, and defendant indicated as such
during the interview. As noted, defendant was fully advised of his rights and
executed a waiver of rights form. We note that statements by the police to a

11

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 12 of 41

defendant that he would be better off if he cooperated are not promises or
inducements designed to extract a confession. State v. Lavalais, 95-0320 (La.
11/25/96), 685 So.2d 1048,1053, cert denied, 522 U.S. 825,118 S.Ct. 85,139
L.Ed.2d 42 (1997). A confession is not rendered inadmissible by the fact that
law enforcement officers exhort or adjure a defendant to tell the truth,
provided the exhortation is not accompanied by an inducement in the nature
of a threat or one which implies a promise of reward. Further, a defendant's
confession is not inadmissible merely because in making it he may have been
motivated by a desire to protect his girlfriend. See State v. Lee, 577 So.2d 134,
143-44 (La. App. 1 Cir.), writ denied, 580 So.2d 667 (La. 1991); State v.
Weinberg, 364 So.2d 964, 969-71 (La. 1978); State v. Brown, 504 So.2d 1025,
1031 (La. App. 1 Cir.), writ denied, 507 So.2d 225 (La. 1987). As did the
Louisiana Supreme Court in Lavalais, we find in this case that, rather than
being promises or inducements designed to extract a confession, the
comments in question herein were more likely musings not much beyond
what this defendant might well have concluded for himself. Lavalais, 685 So.2d
at 1053-54. The totality of the interview clearly conveys that the statements
were not being made according to any promises, coercion, or threats.
Regarding certain falsehoods used by the police during questioning, the issue
is whether or not such tactics were sufficient to make an otherwise voluntary
confession or statement inadmissible. See State v. Lockhart, 629 So.2d 1195,
1204 (La. App. 1 Cir. 1993), writ denied, 94-0050 (La. 4/7/94), 635 So.2d
1132. In Lockhart, a detective misled the defendant into believing that the
police knew more about the case than they really did by telling him that the
victims had identified him. Another detective stated that he would inform the
district attorney's office that the defendant contended the shootings were
accidental. This court found that the detectives' statements to the defendant
were not sufficient inducements "to make an otherwise voluntary confession
inadmissible." Lockhart, 629 So.2d at 1204. Similarly, in State v. Sanford, 569
So.2d 147, 150-52 (La. App. 1 Cir.1990), writ denied, 623 So.2d 1299 (La.
1993), this court determined that a defendant's confession was not rendered
involuntary, although the detective apparently misled the defendant into
believing that one of his cohorts had confessed by informing him that the other
suspects were "singing like birds." Sanford, 569 So.2d at 151.
We have carefully reviewed the evidence presented at the suppression
hearing and at trial and conclude that the lower court's ruling is supported by
the record. While the officers admittedly utilized confrontational language,
defendant, who had a criminal record, seemed to be more concerned about his

12

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 13 of 41

realization that he was a multiple offender and admitted to being terrified in
that regard. We find that the totality of the circumstances surrounding the
making of the confession by defendant and his responses as a whole show that
the confession was made freely and voluntarily. Considering the above, we
further find that the trial court did not err or abuse its discretion in denying
the motion to suppress. The assignment of error is without merit.
The Louisiana Supreme Court likewise denied relief.
The admissibility of a confession is a mixed question of law and fact.

Miller v.

Fenton, 474 U.S. 104,112 (1985); Shislndayv. Quarterman, 511 F.3d 514, 522 (5th Cir. 2007)
(citing Miller, 474 U.S. at 112).

On federal habeas review, this Court must determine if the

state court’s ruling on voluntariness was "contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court.” 28
U.S.C. § 2254(d)(1); Barnes v. Johnson, 160 F.3d 218, 222 (5th Cir. 1998).

If the underlying

facts as determined by the state court indicate the presence of some coercive tactic, the
impact that factor had on the voluntariness of the confession is a matter for independent
federal determination and is ultimately a legal determination.

Miller, 474 U.S. at 117,106

S.Ct. 445; Shislnday, 511 F.3d at 522.
Under Miranda v. Arizona, 384 U.S. 436 (1966), a statement made by a person in
custody is inadmissible unless that person was informed that "he has a right to remain silent,
that any statement he does make may be used as evidence against him, and that he has a
right to the presence of an attorney."

Id. at 444-45.

Waiver or relinquishment of these

rights must be knowing and voluntary, that is, made with full awareness of the nature of the
right being waived, and not the result of intimidation, coercion or deception.

13

Moran v.

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 14 of 41

Burbine, 475 U.S. 412, 421 (1986).

The court must consider the "totality of all the

surrounding circumstances—both the characteristics of the accused and the details of the
interrogation."

Schneckloth v. Bustamonte, 412 U.S. 218, 226 (1973).

"Coercive police conduct is a necessary prerequisite to the conclusion that a
confession was involuntary, and the defendant must establish a causal link between the
coercive conduct and the confession."

United States v. Blake, 481 Fed. Appx. 961,962 (5th

Cir. 2012) (citing Colorado v. Connelly, 479 U.S. 157,163-67,107 S.Ct. 515, 93 L.Ed.2d 473
(1986)). In the absence of evidence of official coercion, a defendant cannot establish that
his confession was involuntary.

Carter v. Johnson, 131 F.3d 452, 462-63 (5th Cir. 1997).

The United States Seventh Circuit Court of Appeals recently reviewed Supreme Court
precedent regarding psychological interrogation tactics and coercion:
Interrogation tactics short of physical force can amount to coercion. The Court
has condemned tactics designed to exhaust suspects physically and mentally.
Such tactics include long interrogation sessions or prolonged detention paired
with repeated but relatively short questioning. Davis v. North Carolina, 384 U.S.
737, 752, 86 S.Ct. 1761, 16 L.Ed.2d 895 (1966) (finding coercive the practice
of repeated interrogations over sixteen days while the suspect was being held
incommunicado).
The Supreme Court has not found that police tactics not involving physical or
mental exhaustion taken alone were sufficient to show involuntariness. In
several cases, the Court has held that officers may deceive suspects through
appeals to a suspect's conscience, by posing as a false friend, and by other
means of trickery and bluff. See, e.g., Procunier v. Atchley, 400 U.S. 446, 45354, 91 S.Ct. 485, 27 L.Ed.2d 524 (1971) (suspect was deceived into confessing
to false friend to obtain insurance payout to children and stepchildren);
Frazier v. Cupp, 394 U.S. 731, 739, 89 S.Ct. 1420, 22 L.Ed.2d 684 (1969)
(deceiving suspect about another suspect's confession). False promises to a
suspect have similarly not been seen as perse coercion, at least if they are not

14

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 15 of 41

quite specific. See Arizona v. Fulminante, 499 U.S. 279,285, 111 S.Ct. 1246,113
L.Ed.2d 302 (1991) (rejecting language in Bram v. United States, 168 U.S. 532,
18 S.Ct. 183, 42 L.Ed. 568 (1897), stating that a confession could not be
obtained by “any direct or implied promises,” id. at 542-43,18 S.Ct. 183, but
finding promise to protect suspect from threatened violence by others
rendered confession involuntary); Welsh S. White, Confessions Induced by
Broken Government Promises, 43 Duke L.J. 947, 953 (1994).
False promises may be evidence of involuntariness, at least when paired with
more coercive practices or especially vulnerable defendants as part of the
totality of the circumstances. E.g., Lynumn v. Illinois, 372 U.S. 528, 534, 83 S.Ct.
917, 9 L.Ed.2d 922 (1963) {pre-Miranda confession found involuntary based
on false promise of leniency to indigent mother with young children, combined
with threats to remove her children and to terminate welfare benefits, along
with other factors). But the Supreme Court allows police interrogators to tell
a suspect that "a cooperative attitude" would be to his benefit. Fare v. Michael
C., 442 U.S. 707, 727, 99 S.Ct. 2560, 61 L.Ed.2d 197 (1979) (reversing finding
that confession was involuntary). Supreme Court precedents do not draw
bright lines on this subject.
Dassey v. Dittmann, 877 F.3d 297, 304 (7th Cir. 2017).

Similarly, the United States Fifth

Circuit Court of Appeals has analyzed instances of alleged coercive conduct in varying
contexts:
Such conduct includes official overreach and direct coercion, as well as
promises and inducements. See United States v. Blake, 481 Fed. Appx. 961,962
(5th Cir. 2012) (unpublished) (per curiam). Trickery or deceit only constitutes
coercion "to the extent [the defendant is deprived] of knowledge essential to
his ability to understand the nature of his rights and the consequences of
abandoning them.” Hopkins, 325 F.3d at 584. "Neither mere emotionalism and
confusion, nor mere trickery will alone necessarily invalidate a confession.”
Selfv. Collins, 973 F.2d 1198,1205 (5th Cir. 1992) (internal quotations marks
omitted). For instance, this Court found that coercion occurred when a
defendant confessed to a murder after being assured by police that the
conversation was confidential. Hopkins, 325 F.3d at 584-85. The defendant
had been isolated for fifteen days and was even interviewed by a close friend
in order to help elicit a confession. Id. at 584. Likewise, coercion was found
when a mother confessed only after police threatened to cut off her state

15

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 16 of 41

financial aid and take custody of her children. Lynumn v. Illinois, 372 U.S. 528,
534, 83 S.Ct. 917, 9 L.Ed.2d 922 (1963).
Byrom v. Epps, 518 Fed. Appx. 243, 256-57 (5th Cir. 2013).

In Byrom, the Fifth Circuit

acknowledged that officers used deception and cajoling, but rejected the assertion that the
confessions were coerced, reasoning:
Having reviewed the transcripts of these interviews, it is clear that Byrom's
confessions were not coerced. While the sheriffs statements were certainly
intended to cajole Byrom into confessing using her emotions and a measure of
deception, they did not constitute coercion. Byrom first implicated herself
after the sheriff implored Byrom to not leave Junior "hanging out there to bite
the big bullet." The sheriff made that statement early during the interview,
after a series of denials from Byrom. While the statement certainly suggested
that Junior was facing serious legal consequences regarding Edward's murder,
the police did not make any threats, promises, or other coercive statements.
Insofar as the sheriff made other, subsequent statements, Byrom had already
confessed and continued to do so. In any event, Byrom was not promised
leniency and she was not threatened in any capacity. The sheriff merely
utilized an appeal to emotion and urged her to confess to spare Junior harsher
legal consequences, a permissible tactic since Byrom was not thereby
deprived of knowledge essential to an understanding of her rights and the
consequences of waiving them. Hopkins, 325 F.3d at 584.22

22 The Fifth Circuit reviewed the claim in the context of the following statements:
At the beginning of her second interview, the sheriff told Byrom that [her son] Junior
had already confessed and warned Byrom against letting Junior bear the full weight of
Edward's murder on his own: "He's already given us a statement on this. Don't let him be out
here by himself on this." The sheriff reiterated the point later when he told Byrom that she
was "trying to leave him out there by himself." The sheriff also told Byrom that she and Junior
would be in danger as long as the triggerman remained free. Finally, the sheriff warned
Byrom that he would tell the judge whether and to what extent Byrom cooperated: "There
are [sic] stuff you are leaving out here. Now I'm going to tell you. Once we get to the point
where we have to talk to the Judge and everything. All that's going to matter. He's going to
ask me how did she cooperate? ... Well I'm gonna have to tell him that you had a memory
lapse on some ‘stuff,’ we had to pick it out of her. Now the Judge ain't going to like it." Byrom
claims that these statements deceived her and exploited her emotions, thereby constituting

16

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 17 of 41

Id. at 257-58.
Anderson does not dispute that his rights were read to him and that he stated he
understood those rights and wished to make a statement.

However, he asserts that the

confession was involuntary because his will was overborne by police misconduct.

Selfv.

Collins, 973 F.2d 1198,1205 (5th Cir. 1992) (citing Schneckloth v. Bustamonte, 412 U.S. 218,
225-26,93 S.Ct. 2041, 2047,36 L.Ed.2d 854 (1973)).

He contends the police used a variety

of coercive tactics to compel an involuntary confession.

First, he argues that police

intentionally misled him by telling him they had witnesses and physical evidence that
pointed to Anderson as the perpetrator of the armed robbery when no such evidence
existed.23

Second, he asserts that the police threatened to charge his girlfriend and take

her child away if he did not confess and implied they would help her if he did confess.
Here, the Louisiana First Circuit considered the totality of the circumstances, which
included not only the pressure and tactics used by police, but also Anderson's personal
characteristics, including his familiarity with the criminal justice system.
Bustamonte, 412 U.S. at 226.

Schneckloth v.

Quite the opposite of being vulnerable, Anderson had prior

convictions for which he served time in prison and knew precisely how the criminal justice
system worked.

His admitted fear was going back to jail for "life” and not the officers’

coercion that tainted her subsequent confessions.

Id. at 257-58.

23 Detective Suzeneaux admitted during trial that they told him some things during
the interview that were false. See State Rec., Vol. 1 of 7, Transcript, pp. 114-122.

17

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 18 of 41

interrogation tactics.

He already knew that his girlfriend, who had come to the station with

him, was being questioned by police regarding her involvement in the crime and could face
possible charges.

He signed the form stating he understood his Miranda rights and wanted

to talk to detectives.
Detectives Suzeneaux and Irwin interviewed Anderson at the station.

During the

first part of the interview, detectives urged Anderson to cooperate and tell the truth about
Vinny, who was Anderson's roommate and a potential suspect at the time.

They said

generally they could not help him unless he was truthful about what happened.

They

truthfully told him that the focus of the investigation was not on him, but on Vinny—at that
time.

Their statements that they did not care about Anderson’s involvement were hardly

promises of leniency.

In fact, they informed him they did possess information and had

recovered a gun that could potentially implicate Anderson, if not for the armed robbery, then
for being an accessory after the fact.

Clearly, based on information received thus far,

however, they believed Vinny committed the armed robbery and believed Anderson was
simply covering for Vinny.

They hoped to get Anderson to cooperate and give them

information about Vinny and suggested he had limited time in which to do so.
Anderson repeatedly expressed fear of going back to jail, not fear of the police or
Vinny, which explained his withholding information and not being candid with police.
Detectives falsely indicated they had his fingerprints on the gun and his girlfriend's car
where they found the gun and that other people had witnessed what happened.

18

Still,

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 19 of 41

Anderson maintained his innocence and offered explanations for the information they had.
In doing so, he retreated somewhat from his position that he knew absolutely nothing about
Vinny’s activity that night and provided more details about what he suspected Vinny had
done.
The second part of the interview was conducted after detectives shifted their focus to
Anderson, because they learned Vinny's physique did not match the individual they viewed
on surveillance.

At this point, detectives began suggesting that he may not have meant to

hurt the victim and that he committed the crime to support his girlfriend and daughter, who
loved him.

Anderson agreed he did not intend to hurt the victim.

that the guy jumped up and scared him when he hit the window.
how he acquired the gun he used.

He told the detectives
He also told detectives

The detectives continued to express that if he

cooperated they would make his cooperation known.

Anderson once again acknowledged

that he understood his Miranda rights and had not been forced to make the statement.

He

stated that he was going to jail regardless, and the detectives "didn’t even make me, I’m
sinking myself on tape."

After this point in the interview, when he realizes, "I’m gone," then

he became more emotional.
Detectives pressed him about other robberies that he may have been involved in and
suggested he could clear his conscience, but he remained skeptical that they could help him
out since he doubted they were going to let him just leave.

Detectives candidly informed

him he was going to be charged, but they could relay to the District Attorney that he was a

19

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 20 of 41

good and remorseful person who deserved another chance.

In an appeal to his sympathy,

the detectives told him to think about his loving girlfriend and little girl, who he would be
saving from having her mom go to prison.
Later, in the context of the other suspected robberies, detectives told him they had
enough to charge his girlfriend as an accessory after the fact and promised to leave her alone
if he started talking.
at issue.

By this time, however, he had already confessed to the armed robbery

He steadfastly refused to confess to one of the two additional robberies they were

questioning him about, despite the detective’s admitted use of the "bargaining chip.”
The state court’s decision finding the police conduct did not render his confession
involuntary is neither contrary to Supreme Court precedent nor an unreasonable application
of federal law.

Anderson understood his rights surrounding the statement and agreed to

speak to the police.
statement.

He does not claim that he was impaired in any way when he gave the

The interview was somewhat confrontational, but not unduly long.

not young or new to the criminal justice system.

He was

He had multiple prior arrests and

experience with law enforcement and understood his waiver and the consequences of his
statements.

See, e.g., Lord v. Duckworth, 29 F.3d 1216,1222 (7th Cir. 1994) (identifying the

fact that "[a]tthe time of his interrogation, [defendant] was 35 years old and had experience
with the criminal justice system by virtue of two prior felony convictions" as one of several
factors that led to the conclusion that defendant’s confession was voluntary).
Anderson was not forced, threatened or otherwise induced to give a confession.

20

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 21 of 41

The deception surrounding the available evidence implicating him and alleged promises or
threats made by detectives do not constitute evidence of improper or overbearing coercion
on the part of the police sufficient to render his confession involuntary.

The existence of a

promise constitutes but one factor in the totality of the circumstances analysis and does not
render a confession involuntary perse.

United States v. Fernandes, 285 Fed. Appx. 119,124

(5th Cir. 2008] (citing Hawkins v. Lynaugh, 844 F.2d 1132, 1140 (5th Cir. 1988]].
Detectives made no explicit promises to Anderson regarding leniency or involving his
girlfriend to induce his confession to the armed robbery at issue.
257-58.

Byrom, 518 Fed. Appx. at

By the time officers sought to use a "bargaining chip,” concerning his girlfriend, in

an attempt to gain additional information about other robberies, he had already made the
relevant incriminating statements concerning the crime of conviction.
Additionally, encouraging a suspect to tell the truth or telling him that his cooperation
will be made known does not suffice to render a subsequent incriminating statement
involuntary.
omitted].

United States v. Ballard, 586 F.2d 1060, 1063 (5th Cir. 1978] (citations
The officers’ comments to this effect during the interview did not rise to the level

of coercion so as to render his statement involuntary.

Similarly, "trickery or deceit is only

prohibited to the extent that it deprives the defendant of knowledge essential to his ability
to understand the nature of his rights and the consequences of abandoning them.”

United

States v. Bell, 367 F.3d 452, 461 (5th Cir. 2004] (citing inter alia, Soffar v. Cockrell, 300 F.3d
588, 596 (5th Cir. 2002] (en banc]].

Anderson's repeated remarks throughout the

21

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 22 of 41

interview indicated that he was never deprived of the ability to understand his rights or the
consequences he faced for voluntarily abandoning them.
The appeals to his emotion and sympathy for his girlfriend, who also voluntarily
submitted to questioning, were not overtly coercive.

He clearly cared for and wanted to

help his girlfriend avoid consequences for the crime he committed.

His comments that he

is “gone regardless,” but he was "not going to take her down or my little girl down" reflect
this concern.

It does not appear at any point during the interview that he was so distraught

that his will was overborne.

Under the totality of the circumstances, the comments and

statements made by detectives were not so coercive as to overcome Anderson's will to resist.
Accordingly, he is not entitled to habeas relief on this claim.

1L

Discriminatory lurv Selection and Ineffective Assistance of Appellate Counsel
Anderson claims that he was denied the right to a fair and impartial jury.

He argues

that the prosecution impermissibly used peremptory challenges to remove the only three
African-American prospective jurors from the venire in violation of Batson v. Kentucky, 476
U.S. 79,106 S.Ct. 1712,90 L.Ed. 2d 69 [1986).

In a related claim, he asserts that counsel on

direct appeal was ineffective for failing to raise the claim of purposeful discrimination under
Batson.

These claims were rejected on collateral review by the state courts without any

stated reasons.24

24 Section 2254[d) "does not require a state court to give reasons before its decision
can be deemed to have been 'adjudicated on the merits.'" Harrington, 562 U.S. at 100.

22

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 23 of 41

In the first venire panel of 20 jurors, the State used five of its peremptory challenges
to exclude two white male jurors, No. 289 and No. 168, and three African-American female
jurors, No. 324, No. 290 and No. 180.25

The defense raised a Batson challenge based on the

removal of the only three African-American jurors.

The trial court agreed that a prima

facie showing was made considering three minority members had been struck and required
that the prosecutor provide race-neutral reasons for the peremptory challenges.

The

prosecutor stated that he struck Juror No. 324 because when the trial judge asked if jury
service would create a problem for anyone, she replied "I’m not going to get paid," which
suggested to him a lack of focus and desire to be elsewhere.

He struck Juror No. 290

because she stated she was an emotional decision-maker who rated herself a 3 out of 10 for
wanting to serve on the jury and said she does not like having to decide someone's fate, all
of which showed she did not want to take part in the process.

Finally, he struck Juror No.

180 due to her comment that she believes innocent people are convicted of crimes based on
mistaken identity or being in the wrong place at the wrong time.
comment by stating, "because everybody says they look the same."26

She explained her
The trial court

accepted those reasons, specifically commenting only on Juror Nos. 324 and 290, adding that
No. 290 also indicated she had difficulty and concerns with weapons, and denied the

25 State Rec., Vol. 1 of 7, Transcript, p. 159 (first venire panel]. See also, Minute Entry,
11/13/12.
26 State Rec., Vol. 1 of 7, Trial Transcript, p. 201-202.

23

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 24 of 41

defense’s Batson challenge.

The defense asked the trial court to note an objection for the

record.27
In Batson, the Supreme Court held that purposeful racial discrimination in the use of
peremptory strikes of prospective jurors violates the Equal Protection Clause.
Kentucky, 476 U.S. at 89.

Batson v.

The United States Supreme Court has established a three-step

analysis for a Batson challenge:
A defendant’s Batson challenge to a peremptory strike requires a three-step
inquiry. First, the trial court must determine whether the defendant has made
a prima facie showing that the prosecutor exercised a peremptory challenge
on the basis of race. 476 U.S. at 96-97,106 S.Ct. 1712. Second, if the showing is
made, the burden shifts to the prosecutor to present a race-neutral
explanation for striking the juror in question. Id., at 97-98, 106 S.Ct. 1712.
Although the prosecutor must present a comprehensible reason, ”[t]he second
step of this process does not demand an explanation that is persuasive, or even
plausible;” so long as the reason is not inherently discriminatory, it suffices.
Purkettv. Elem, 514 U.S. 765, 767-768,115 S.Ct. 1769,131 L.Ed.2d 834 (1995)
[per curiam). Third, the court must then determine whether the defendant has
carried his burden of proving purposeful discrimination. Batson, supra, at 98,
106 S.Ct. 1712; Miller-El v. Dretke, 545 U.S. [231,251-52], 125 S.Ct. 2317,233132, 162 L.Ed.2d 196 (2005). This final step involves evaluating "the
persuasiveness of the justification" proffered by the prosecutor, but "the
ultimate burden of persuasion regarding racial motivation rests with, and
never shifts from, the opponent of the strike." Purkett, supra, at 768,115 S.Ct.
1769.
Rice v. Collins, 546 U.S. 333, 338, 126 S.Ct. 969, 163 L.Ed.2d 824 (2006); accord Stevens v.
Epps, 618 F.3d 489, 492 (5th Cir. 2010).
Anderson’s arguments focus on the second and third Batson steps.

27 State Rec., Vol. 1 of 7, Trial Transcript, pp. 221-24.

24

With respect to

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 25 of 41

step two, "[a] neutral explanation in the context of our analysis here means an explanation
based on something other than the race of the juror.
the facial validity of the prosecutor's explanation.

At this step of the inquiry, the issue is
Unless a discriminatory intent is

inherent in the prosecutor's explanation, the reason offered will be deemed race neutral.”
Hernandez v. New York, 500 U.S. 352, 360 (1991) (emphasis added).
the prosecutor’s asserted race-neutral excuses were unfounded.

Anderson contends

However, at this step, the

Court need not weigh plausibility or persuasiveness, but only facial validity.

Here, the

prosecutor’s stated reasons for striking the three jurors were facially neutral and not
inherently discriminatory.

When questioning began, Juror No. 324 expressed immediate

concern about not being paid and raised serious questions about whether she could or would
focus on the trial.

Similarly, Juror No. 290's responses demonstrated she did not want to

serve or decide an individual’s fate.

And Juror No. 180 expressed skepticism for

eyewitness identifications.
Anderson faults the trial court’s evaluation at the third step primarily because the
record was silent as to the weight the trial court afforded the State's reasons for striking
Juror No. 180.

A state court's finding under Batson's third step is a factual determination

and must be reviewed under the AEDPA's specific and highly deferential standard of review
applicable to such determinations.

As the Supreme Court has explained:

Under AEDPA,... a federal habeas court must find the state-court conclusion
"an unreasonable determination of the facts in light of the evidence presented
in the State court proceeding." 28 U.S.C. § 2254(d)(2). Thus, a federal habeas
court can only grant [the petitioner’s] petition if it was unreasonable to credit

25

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 26 of 41

the prosecutor’s race-neutral explanations for the Batson challenge. Statecourt factual findings, moreover, are presumed correct; the petitioner has the
burden of rebutting the presumption by "clear and convincing evidence.” §
2254(e)(1).
Rice, 546 U.S. at 338-39 (2006); accord Foster v. Chatman, 136 S. Ct. 1737, 1747 (2016)
(Batson’s third step "turns on factual determinations, and, in the absence of exceptional
circumstances, we defer to state court factual findings unless we conclude that they are
clearly erroneous." (quotation marks omitted)); Murphy v. Dretke, 416 F.3d 427, 432 (5th
Cir. 2005) ("A state trial court's finding of the absence of discriminatory intent is a pure issue
of fact that is accorded great deference and will not be overturned unless clearly erroneous.”
(quotation marks omitted)).

Therefore, even if "[rjeasonable minds reviewing the record

might disagree about the prosecutor's credibility,... on habeas review that does not suffice
to supersede the trial court’s credibility determination.”

Rice, 546 U.S. at 341-42; accord

Wood v. Allen, 558 U.S. 290, 301 (2010) ("[A] state-court factual determination is not
unreasonable merely because the federal habeas court would have reached a different
conclusion in the first instance.”).
The record of voir dire shows that the prosecutor first offered specific reasons for
striking each of the three jurors.

The defense was given an opportunity to respond.

Defense counsel did so only with respect to Juror No. 324, stating that although she initially
expressed concern about losing money, she did not indicate that she was unwilling to serve
or would suffer a financial hardship; thus, it was not a legitimate race-neutral excuse.
trial court then ruled as follows:

26

The

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 27 of 41

The Court has viewed each of these parties that were struck by the State. [Juror
No. 324], when she made that comment about the fact that she would not be
paid, seemed very concerned about that.
Juror 290 did indicate that she would not want to decide someone’s face [sic]
fate. She also indicated she had difficulty with weapons. And had concerns
about weapons. The Court feels that the race neutral reasons given by the State
are reasonable in their decision making. And is going to deny the Batson
challenge.28
In evaluating whether the defense had carried its burden of proving purposeful
discrimination at this third step, the trial court offered a brief synopsis that directly
addressed the defense’s contention about Juror 324 and noted an additional reason not
raised by the prosecution for Juror No. 290.

As the record demonstrates, the trial court

expressly stated that it had viewed each of the parties struck even if it then specifically
commented on only two of the jurors.
However, Anderson argues that the trial judge did not comply with Batson because it
failed specifically to discuss Juror No. 180 in its ruling.

He also suggests that the trial court

avoided the issue because of the racially charged explanation given by Juror No. 180 for
doubting witness identifications.

Anderson implies that the trial court did not evaluate or

weigh the prosecutor's explanation to "determine if the State was being intentionally
discriminatory” with respect to Juror No. 180, because the scrutiny afforded that particular
race-neutral reason was not expressed on the record.
Anderson fails to cite any Supreme Court precedent that requires express factual

28 State Rec., Vol. 1 of 7, Transcript, p. 223.

27

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 28 of 41

reasons supporting the trial court’s evaluation of each stricken juror at this third step.

See,

e.g., Perez v. Smith, 791 F. Supp.2d 291, 309-10 (E.D.N.Y. 2011] [third step requires
determining whether the prosecution's race-neutral explanations are credible, but no
specific incantation is required in doing so) [citing McKinney v. Artuz, 326 F.3d 87,100 (2d
Cir. 2003) and Hernandez, 500 U.S. at 357 n. 2, 111 S.Ct. 1859).

Nor has such a requirement

been recognized by the United States Fifth Circuit Court of Appeals:
[Tjhere is no requirement in this circuit that a district court make explicit
factual findings during Batson's third step. Indeed, "a district court may make
‘implicit’ findings while performing the Batson analysis.” United States v.
McDaniel, 436 Fed. Appx. 399, 405 (5th Cir. 2011) (unpublished) (collecting
cases). A recent panel of this court explicitly rejected such a requirement,
even when the only race-neutral reason advanced was a demeanor-based
reason not otherwise reviewable based on the record. See Thompson, 735
F.3d at 300-01.
Although some other courts disagree, failure to make
explicit factual findings on the third step is not itself reversible error. See
Higgins v. Cain, 720 F.3d 255, 268 (5th Cir. 2013) (noting a circuit split on
"whether a trial judge must make explicit findings of fact at Batson's third
step").
United States v. Ongaga, 820 F.3d 152,166 (5th Cir. 2016) (compliance with the third step of
the Batson analysis was adequately shown where the district court implicitly found that the
government's strike was not purposefully discriminatory).
To the extent Anderson argues that the state-court decision involved an unreasonable
application of Batson because no third-step analysis occurred for one of the stricken jurors,
the claim fails.

See 28 U.S.C. § 2254(d)(1).

As the Fifth Circuit noted, there is

disagreement among the circuit courts regarding the specificity required for step three of
the Batson analysis, which certainly highlights the absence of any "clearly established federal

28

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 29 of 41

law as determined by the United States Supreme Court."

See Miller v. Colson, 694 F.3d 691,

698 (6th Cir. 2012] ("a disagreement among the circuit courts is evidence that a certain
matter of federal law is not clearly established.”].

The mere existence of the circuit court

split on the issue supports a finding that the determination under Batson by the state courts
in this case is one upon which "fairminded jurists" could disagree.
101.

Harrington, 562 U.S. at

In light of the split among circuit courts and the lack of Supreme Court precedent on

the specific issue presented here, Anderson cannot show that the state court unreasonably
applied "clearly established Federal law."

28 U.S.C. § 2254(d](l].

To the extent he claims that given the evidence presented the state court
unreasonably determined that the prosecutor offered legitimate racially neutral reasons for
striking the three venirepersons, that claim also fails.

Based on the state trial court’s own

observations and for the additional reasons expressed, the trial court credited the raceneutral reasons proffered by the State as legitimate reasons for striking the jurors.

The

determination on the issue of discriminatory intent was based on all the facts and
circumstances available, and that determination is entitled to great deference.
reasonably supports that finding in this case.

The record

Here, the trial court's ruling was based on

the statements by the jurors and the implications those statements had on the criminal trial.
At the outset, Juror No. 324 seemed disinclined to jury service for monetary reasons.

Juror

No. 290 feared weapons and expressed reluctance in serving on the jury and deciding a
person's fate in an armed robbery trial.

29

Juror No. 180 was skeptical of eyewitness

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 30 of 41

identification of black persons in general, and the State bore the critical burden of proving
the identity of the perpetrator in this case with weak identification evidence.

Anderson’s

own subjective doubt in the veracity of the reasons hardly proves that the peremptory
challenges were pretextual.29

The record in this case supports the trial court’s crediting

the proffered race-neutral reasons and finding no discriminatory motive behind the
peremptory strikes.

For these reasons, Anderson is not entitled to habeas corpus relief on

his Batson claim.
In a related claim, Anderson asserts that he received ineffective assistance of counsel
on appeal because his appointed counsel failed to assert the Batson claim.

The United

States Supreme Court has established a two-prong test for evaluating ineffective-assistanceof-counsel claims.

Specifically, a petitioner seeking relief must demonstrate that counsel's

performance was deficient and that the deficient performance prejudiced his defense.
Strickland v. Washington, 466 U.S. 668, 687, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). To
prevail on the deficiency prong of the Strickland test, a petitioner must demonstrate that
counsel's conduct fails to meet the constitutional minimum guaranteed by the Sixth
Amendment.

See Styron v. Johnson, 262 F.3d 438,450 (5th Cir. 2001). To prove prejudice

with respect to a claim that appellate counsel was ineffective, a petitioner must show a
reasonable probability that he would have prevailed on appeal but for his counsel's deficient

29 Anderson fails to identify any individual on the jury who expressed issues similar
to the stricken venire members.

30

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 31 of 41

representation.

Briseno v. Cockrell, 274 F.3d 204, 207 (5th Cir. 2001); see also Smith v.

Robbins, 528 U.S. 259, 286,120 S.Ct. 746,145 L.Ed.2d 756 (2000).

Therefore, a petitioner

must demonstrate a reasonable probability that, if appellate counsel's performance had not
been deficient in the manner claimed, the appellate court would have vacated or reversed
the trial court judgment based on the alleged error.

Briseno, 274 F.3d at 210.

Appellate counsel need not “urge on appeal every nonfrivolous issue that might be
raised (not even those requested by defendant)."
Cir. 1996).

West v. Johnson, 92 F.3d 1385,1396 (5th

Indeed, "[experienced advocates since time beyond memory have emphasized

the importance of winnowing out weaker arguments on appeal and focusing on one central
issue if possible, or at most on a few key issues."
S.Ct. 3308, 77 L.Ed.2d 987 (1983).

Jones v. Barnes, 463 U.S. 745,751-52,103

Far from evidencing ineffectiveness, an appellate

counsel's restraint often benefits his client because "a brief that raises every colorable issue
runs the risk of burying good arguments ... in a verbal mound made up of strong and weak
contentions."

Id. at 753, 103 S.Ct. 3308.

The salient question is whether the issue

ignored by appellate counsel was "clearly stronger” than the issues raised on appeal.

See,

e.g., Diaz v. Quarterman, 228 Fed. Appx. 417, 427 (5th Cir. 2007); accord Smith v. Robbins,
528 U.S. at 288.

For the reasons thoroughly addressed above in relation to his suppression

and Batson claims for relief, Anderson has not shown that his Batson claim was "clearly
stronger" than the suppression issue presented on appeal and, therefore, his ineffective
assistance of appellate counsel claim necessarily fails.

31

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 32 of 41

ML

Prosecutorial Misconduct
Anderson claims that the prosecutor knowingly presented false testimony from

detectives regarding so-called "elusive” physical evidence that was not preserved and could
not be produced, in violation of his due-process right to a fair trial.

Anderson’s theory is

that because the prosecutor knew from the start that he lacked the physical evidence linking
Anderson to the armed robbery, he built the case instead around false testimony from
detectives and a coerced confession from Anderson.

Specifically, he alleges:

[T]he State wrangled a conviction without the evidence that was supposedly
obtained and some that was allegedly viewed by investigators. The State’s
alleged "evidence" was never presented to the jury and over Anderson's trial
counsel's objection, the State was allowed to present a case based on
speculation and hearsay. As a result, Anderson was denied his constitutional
right to a fair and impartial trial because the court allowed the State to
circumvent justice by presenting its theory to the jury unsupported by any
tangible evidence.30
He contends that "had the police really discovered evidence that could have proven
Anderson was the perpetrator they would have found a way to preserve it.”31

Thus, he

argues that the State should have been precluded from “mentioning any alleged evidence
that was not preserved for the defense or jury to inspect.”32

30 Rec. Doc. 3, p. 48.
31 Rec. Doc. 3, p. 59.
32 Rec. Doc. 3, p. 49. The defense unsuccessfully raised objections based on the
missing evidence. The defense's pretrial motion in limine to prohibit testimony regarding
any missing items of evidence was denied. State Rec., Vol. 1 of 7 (Transcript November 12,

32

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 33 of 41

Anderson argues that the State allowed Detective Chadwick to lie when he testified
that Vincent Navarre was not the primary suspect at the beginning of the investigation, and
the primary suspect was Anderson.

In support, he notes the conflicting testimony given by

Detective Suzeneaux and Detective Chadwick regarding whether each believed Anderson
was the primary suspect from the start of the investigation.33

He also argues that the State

improperly elicited false testimony about alleged missing items of evidence related to the
vehicle search, including photographs taken of items in Bolden's vehicle and a traffic ticket
allegedly found in the car.

He asserts that the State elicited improper testimony from

Detective Suzeneaux regarding surveillance video recordings, which the police watched but
admittedly did not preserve as evidence.

He maintains that Detective Suzeneaux testified

falsely that Anderson ran and hid when they knocked on the door to the apartment when he
could not actually "see through walls or the door."34
A state denies a defendant due process when it knowingly uses perjured testimony at
trial or allows untrue testimony to go uncorrected.

Napue v. Illinois, 360 U.S. 264, 269, 79

2012), pp. 103-06. The trial court also overruled the defense’s hearsay objection at trial
regarding testimony about the surveillance recording.
State Rec., Vol. 2 of 7, Trial
Transcript, pp. 347-49. Although he criticizes the rulings on hearsay, he has not raised a
specific claim on those grounds; the claim presented involves alleged prosecutorial
misconduct for presenting false testimony and failing to preserve evidence.
33 State Rec., Vol. 2, Trial Transcript, p. 325 [Chadwick) and pp. 352-53, 360-61
[Suzeneaux).
34 Rec. Doc. 3, p. 59.

33

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 34 of 41

S.Ct. 1173, 3 L.Ed.2d 1217 [1959); Fctulderv. Johnson, 81 F.3d 515, 519 (5th Cir. 1996).

To

obtain relief, the defendant must show that (1) the testimony was actually false, (2) the State
knew the testimony was false, and (3) the testimony was material.

Duncan v. Cockrell, 70

Fed. Appx. 741, 744-45 (5th Cir. 2003).
Anderson has not presented any evidence of perjured testimony or shown that the
prosecutor knowingly permitted officers to perjure themselves.

The fact that the

detectives in this case offered differing opinions as to the primary suspect of their
investigation does not establish that the testimony was false or that the prosecution knew or
believed that testimony to be false.

See Kutzner v. Cockrell, 303 F.3d 333, 337 (5th Cir.

2002); Koch v. Puckett, 907 F.2d 524, 531 (5th Cir. 1990) (holding that conflicting testimony
does not prove perjury but instead establishes a credibility question for the jury).

The

mere existence of a conflict in testimony and evidence does not make it false or perjured.
See United States v. Wall, 389 F.3d 457, 473 (5th Cir. 2004), cert denied, 544 U.S. 978, 125
S.Ct. 1874,161 L.Ed.2d 730 (2005) ("Wall has not established that McDowell’s testimony was
actually false. He has merely shown that Ristau's testimony would establish a conflict in the
testimony, a far cry from showing that it was 'actually false.' ’’).

The differing opinions

present only a credibility question and disputed issue concerning the appropriate weight to
be afforded to the evidence, which frequently occurs at trial and lies within the province of
the jury to resolve.
Nor does the mere fact that the evidence was lost or missing establish that the

34

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 35 of 41

testimony regarding that evidence is false or that the prosecutor knew the testimony was
false.

Here, the officers admitted they failed to follow up on the surveillance video and

obtain a copy of the recording.

Detective Suzeneaux candidly explained that despite their

efforts, it was impossible at the time of viewing due to unfamiliarity with the technology and
the rapidly unfolding investigation demanding their immediate attention, and they
regretfully, in hindsight, did not return to secure the evidence that seemed less important
once Anderson confessed to the crime.

The detectives could not explain why the traffic

ticket and photographs they had collected were missing from the evidence.

While the

missing evidence raises an issue as to the weight to be afforded the testimony, the absence
of the evidence does riot conclusively establish that the testimony was false.

The defense

conducted a thorough cross-examination on these issues and squarely presented the
credibility issue to the jury to resolve.

To create a reasonable doubt as to Anderson's guilt,

defense counsel highlighted the missing evidence during closing argument.

The jury was

entitled to find the testimony credible or to reject the testimony given the absence of the
demonstrative evidence to support it.

There is simply no record evidence in this case to

suggest the testimony was false or that the prosecutor knew it was false.
Finally, Anderson fails to establish that Detective Suzeneaux testified falsely
concerning Anderson's hiding from officers.

His testimony reflects his impression, based

on the statements made by the other individuals in the apartment and the fact that Anderson
was found in a different room, that Anderson fled to some other part of the residence when

35

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 36 of 41

they knocked on the door.35

On the record presented, Anderson has not shown that the

State knowingly elicited false testimony from the detectives.
Furthermore, to the extent he asserts that the prosecutor withheld evidence from the
defense, he has never alleged that the material was exculpatory or favorable to the defense.36
Indeed he maintains it was material to the State’s case.

Furthermore, the State informed

the defense at the outset that it did not possess the items of evidence and therefore could not
produce them as requested in discovery.37

The prosecution immediately notified defense

counsel when it recovered a copy of the videotape from Wal-Mart’s parking lot, but the State
had no other evidence in its possession to turn over to the defense.
Due process requires that the prosecution disclose exculpatory evidence within its
possession.

Brady v. Maryland, 373 U.S. 83, 87 (1963).

There are three components of a

Brady violation: "[t]he evidence at issue must be favorable to the accused, either because it
is exculpatory, or because it is impeaching; the evidence must have been suppressed by the
State, either willfully or inadvertently; and prejudice must have ensued."

Strickler v.

Greene, 527 U.S. 263, 281-82 (1999); see also Banks v. Dretke, 540 U.S. 668, 691 (2004).

In

this case, for the reasons expressed, Anderson plainly could not establish a Brady claim, even

35 State Rec., Vol. 2 of 7, Trial Transcript, p. 351.
36 Rec. Doc. 3, pp. 48-49. He appears to contemplate that Brady does not apply here,
but in an abundance of caution, the Court discusses briefly the possibility of such a claim.
37 State Rec., Vol. 1 of 7, Transcript (November 12, 2012), p. 102.

36

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 37 of 41

if he raised such grounds for relief.

See Brady, 373 U.S. at 87; United States v. McClure, No.

90-5001,1990 WL 180122, at *3 (4th Cir. Nov. 21,1990) (affirming district court ruling that
evidence was not Brady material in part because "the government did not possess the tape"
and noting that merely "reviewing the evidence had not amounted to taking possession" of
it).
To the extent he suggests a due process violation resulted from the failure to preserve
evidence, he fares no better.

A failure to preserve evidence violates a defendant's right to

due process if the unavailable evidence possessed "exculpatory value that was apparent
before the evidence was destroyed, and [is] of such a nature that the defendant would be
unable to obtain comparable evidence by other reasonably available means."
Trombetta, 467 U.S. 479, 489 (1984).

California v.

A defendant must also demonstrate that the police

acted in bad faith in failing to preserve the potentially useful evidence.
Youngblood, 488 U.S. 51, 58 (1988).

Arizona v.

The presence or absence of bad faith turns on the

government's knowledge of the apparent exculpatory value of the evidence at the time it was
lost or destroyed.

Youngblood, 488 U.S. at 56-57 n. *.

Anderson has presented no evidence of bad faith on the part of the police in failing to
retrieve and preserve the surveillance video.

As part of their investigation, officers viewed

the surveillance, but could only glean the physique and general build of the individual from
the grainy, unclear footage.

They did not return afterward to secure a copy of the

surveillance recording, which did not appear helpful to Anderson in any event.

37

Nor was

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 38 of 41

there any suggestion of bad faith in losing track of the ticket found in the vehicle or the
photographs of the vehicle and items.

No explanation was offered for why the traffic ticket

and photographs were missing from the evidence collected; however, if anything, Anderson
benefitted more by the absence of the evidence than he would have had the evidence been
preserved and introduced at trial.38
value.

He has never suggested that it had any exculpatory

Furthermore, Anderson has not alleged that deputies failed to retrieve the video or

responsibly preserve the traffic ticket and photographs because of "official animus" or a
"conscious effort to suppress exculpatory evidence."

Trombetta, 467 U.S. at 488.

As

explained above, although the officers knew the items of evidence existed, there is no
evidence to suggest that they had reason to believe that any of the items held any evidentiary
value favorable to Anderson.

At worst, the failure to retrieve the video and loss of evidence

collected may be described as a sloppy or negligent investigation, but mere negligence in
failing to preserve evidence is inadequate to show bad faith.

See Youngblood, 488 U.S. at

58.
Accordingly, the state courts' denial of relief of this claim was not contrary to, or an
unreasonable application of, federal law.

Thus, Anderson is not entitled to relief on this

claim.
Double Jeopardy - Habitual-Offender Adjudication
Anderson asserts that his habitual-offender adjudication violates double jeopardy

38 See, e.g., State Rec., Vol. 2 of 7, Trial Transcript (Defense Closing Argument), p. 436.

38 •

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 39 of 41

because the underlying felony conviction used to charge him as a convicted felon in
possession of a firearm in this case was also used to support the multiple-offender
adjudication and sentence he received.

Thus, he contends that his "adjudication and

enhanced sentencing as a third felony offender under La. R.S. 15:529.1 is the result of an
impermissible double enhancement."39

The state courts denied the claim on collateral

review of his motion to vacate an illegal sentence.40
Here, Anderson appears to argue that the State used his previous 2005 convictions
for possession of cocaine and for being a convicted felon in possession of a firearm to support
the current charge of being a convicted felon in possession of a firearm, and then used the
same firearm conviction as part of the multiple bill of information charging him as a thirdfelony offender.

He contends that the state sought multiple enhancement of his sentence

based on the same set of prior convictions.

However, the bill of information reflects that

only the prior 2005 conviction for possession of cocaine was used for count two (possession
of a firearm by a convicted felon], see State v. Anderson, 2014 WL 647913, at *1 n. 1, whereas
the multiple bill of information listed the underlying predicate convictions as the 2004
simple burglary of an inhabited dwelling and 2005 convicted felon in possession of a firearm.

39 Rec. Doc. 3, p. 69.
40 Although the state district court (and presumably the higher courts] denied the
claim on procedural grounds, the validity of which Anderson disputes, the Court will conduct
a de novo review of the claim on the merits (as briefed by the State], without discussion of
any potential procedural default, because no such defense was raised in these federal
proceedings.

39

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 40 of 41

Furthermore, the United States Supreme Court has historically held that double
jeopardy protections do not apply to sentencing proceedings.

Monge v. California, 524 U.S.

721, 727 (1992) (citing Bullington v. Missouri, 451 U.S. 430, 438 (1981) and Nichols v. United
States, 511 U.S. 738, 747 (1994)).

Specifically, the Supreme Court held in Monge that an

enhanced sentence is simply a heightened penalty for a habitual offender's latest conviction,
not a second punishment for the prior offense.

Monge, 524 U.S. at 727 (citing Gryger v.

Burke, 334 U.S. 728, 732 (1948) and Moore v. Missouri, 159 U.S. 673, 678 (1895)); see also
Dolliole v. Kent, Civ. Action 17-9655, 2018 WL 2977233, at *6 (E.D. La. May 14, 2018),
adopted, 2018 WL 2970875 (E.D. La. June 13, 2018).

Thus, for the reasons expressed,

Anderson has not established a double jeopardy violation resulted under the circumstances.
He is not entitled to relief on this claim.
RECOMMENDATION
For the foregoing reasons, it is RECOMMENDED that Anderson's application for
federal habeas corpus relief be DISMISSED WITH PREJUDICE.
A party's failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge's report and recommendation within fourteen (14)
days after being served with a copy shall bar that party, except upon grounds of plain error,
from attacking on appeal the unobjected-to proposed factual findings and legal conclusions
accepted by the district court, provided that the party has been served with notice that such
consequences will result from a failure to object. 28 U.S.C. § 636(b)(1); Douglass v. United

40

Case 2:18-cv-07977-LMA Document 15 Filed 04/26/19 Page 41 of 41

Services Auto. Ass’n, 79 F.3d 1415,1430 (5th Cir. 1996] (en banc).41
New Orleans, Louisiana, this

26th

day of

April

2019.

MICHAEL B. NORTH
UNITE)/STATES MAGISTRATE JUDGE

41 Douglass referenced the previously applicable ten-day period for the filing of
objections. Effective December 1, 2009, 28 U.S.C. § 636(b)(1) was amended to extend that
period to fourteen days.

41

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CARTER VINCENT ANDERSON

CIVIL ACTION NO.

VERSUS

JUDGE

DARREL VANNOY, WARDEN

MAGISTRATE JUDGE

Louisiana State Penitentiary
DECT. AR ATT ON OF INMATE FILING
I am an inmate confined in a state institution. Today, August 20, 2018,1 am depositing
my petition for writ of habeas corpus in this case in the institution’s internal mail system to
be scanned by the Legal Programs Department and electronically filed into the United States
Eastern District Court.
I also declare that I have placed a properly addressed copy of the petition for writ of
habeas corpus, made out to the Jefferson Parish District Attorney’s Office, into the hands of
the Classification Officer assigned to my unit. First-class postage is\eing prepaid either by
me or by the institution on my behalf.
I declare under penalty that the foregoing is true and correct (see: 28 U.S.C. § 1746; 18
U.S.C. § 1621).
'A.,

' "1 y

** ^..¥

1 1

Carter V. Anderson
418030, Magnolia—2
Louisiana State Penitentiary
Angola, Louisiana 70712

RECEIVED
AUG 2 0 2D18
Legal Programs Department

IXat LSP and Emailed
10 \ pages

No.

Page 1

AO 241
(Rev. 01/15

Petition for Relief From a Conviction or Sentence
By a Parson in State Custody
.\

(Petition Under 28 U.S.C. § 2254 for a Writ of Habeas Corpus)
Instructions
1.

To use this form, you must be a person who is currently sawing a sentence under a judgment against you in a state
court. You are asking for relief from the conviction or the sentence This form is your petition for relief.

2.

You may also use this form to challenge a state judgment that imposed a sentence to be served in the future, but
you must fill in the name of the state where the judgment was entered. If you want to challenge a federal
judgment that imposed a sentenced to be served in the future, you should file a motion under 28 U.S.C. § 2255 in
the federal court that altered the judgment.

3.

Make sure the form is typed or neatly written

4.

You must tell the truth and sign the form. If you make a false statement of a material fact, you may be prosecuted
for perjury.

5.

J You do not need to cite law. You may submit additional pages if necessary. If you do no fill
Answer all questions.
out the form properly, you will be asked to submit additional or correct information If you want to submit a brief
or arguments, you must submit them in a separate memorandum.

6.

You must pay a fee of $5. If the fee is paid, your petition will be filed. If you cannot pay the fee, you may ask to
proceed in forma pauperis (as a poor person). To do that, you must fill out the last page of this form. Also, you
must submit a certificate signed by an officer at the institution where you are confined shewing the amount of
, you must pay the filing fee,
money that the institution is holding for you. If your account exceeds $

7.

In this petition, you may challenge the judgment entered by only one court If you want to challenge a judgment
entered by a different court (either in the same state or in different states), you must file a separate petition.
8. When you have completed this form, send the original and
C ourt at this address:

copies to the Clerk of the United States District

Clerk’s Office, U.S. District Court
Eastern District of Louisiana
500 Poydras Street, Room C-151
New Orleans, LA 70130
If you want a file-stamped copy of the petition, you must enclose an additicnal copy of the petition and ask the
court to file-stamp it and return it to y ou.
9.

CAUTION: You must include in this p etition all grounds for relief from the conviction or sentence that you
challenge. And you must state the facts that support each ground. If you fail to set forth all the grounds In
this petition, you may be barred from presenting additional grounds at a later date.

10.

CAPITAL CASES: If you are under a sentence of death, you are entitled to the assistance of counsel and
should request the appointment of counsel

Page 2

AO 241
(Rev. 01/15

PETITION UNDER 28 U.S.C. § 2254 FOR WRIT OF
HABEAS CORPUS BY A PERSON IN STATE CUSTODY

Name (under which you were convicted: Carter Vincent Anderson

District: Eastern
Docket or Case No.: 12-1285

Place of Confinement : Louisiana State Penitentiary

Prisoner No.: 418030

United States District Coart

Petitioner (include name under which you were convicted

Respondent (authorized person having custody of petitioner)

v.
Carter Vincent Anderson
The Attorney General of the State of Louisiana: Jeff Landry

Darrel Vannov. Warden

PETITION
1.

(a) Name and location of court that entered the judgment of conviction you are challenging:
Twenty-Second Judicial District Court. Justice Center. 701 N. Columbia Street. Covington. LA

70434-1090.
(b) Criminal docket or case number (if you know): 503016.
2.

(a) Date of the judgment of conviction (if you know): November 15. 2012.
(b) Date of sentencing: February 4, 2013.

3.

Length of sentence: Life w/o benefits.

4.

In this case, were you convicted on more than one count or more than one crime? [x] Yes [] No

5.

Identify all crimes of which you were convicted and sentenced in this case: Anned Robbery.

Possession of Firearm bv convicted felon. Adjudicated as a Multiple offender.
6.

(a) What was your plea? (Check one)
[x] (1) Not guilty
[] (2) Guilty

[] (3) Nolo contendere (no contest)
[] (4) Insanity Plea

(b) If you entered a guilty plea to one count or indictment, and a not guilty plea to another
count, what did you plead guilty to and what did you plead not guilty to? N/A.
(c) If you went to trial, what kind of trial did you have? (Check one)
[x] Jury

[] Judge only

Page 3

AO 241
(Rev. 01/15
7.

Did you testify at a pretrial hearing, trial, or post-trial hearing?
[] Yes

8.

Did you appeal from the judgment of conviction?
[x] Yes

9.

[x] No

[] No

If you did appeal, answer the following:
(a) Name of court: Court of Anneal. First Circuit,
(b) Docket or case number (if you know): #2013-KA- 0836
(c) Result: Convictions and sentences Affirmed.
(d) Date of result: February 18, 2014.
(e) Citation to the case (if you know): Unpublished.
(f) Grounds raised: The district court’s ruling which denied Anderson’s motion to suppress was

completely erroneous and violated his right to a fair and impartial trial under the Sixth Amendment to
the United States Constitution. During this investigation, the detectives used every conceivable tactic
it could to get Anderson to implicate himself in this robbery. These detectives veiled, cursed lied and
even threatened Anderson’s family in order to get him to incriminate himself in the robbery. Such
tactics are totally unconstitutional and any incriminating evidence derived therefrom must be declared
inadmissible.
(g) Did you seek further review by a higher state court? [x] Yes

[] No

If yes, answer the following:
(1) Name of court: Supreme Court of Louisiana.
(2) Docket or case number (if you know): 2014—KO—0591.
(3) Results: Cert. Denied.
(4) Date of result (if you know): October. 24 2014,
(5) Citation to the case (if you know): 2014-0591 (10/24/14V 151 So.3d 599

Page 4

AO 241
(Rev. 01/15

(6) Grounds raised: The district court*s ruling which denied Anderson’s motion to
suppress was completely erroneous and violated his right to a fair and impartial trial under the Sixth
Amendment to the United States Constitution. During this investigation, the detectives used every
conceivable tactic it could to get Anderson to implicate himself in this robbery. These detectives
veiled, cursed lied and even threatened Anderson’s family in order to get him to incriminate himself in
the robbery. Such tactics are totally unconstitutional and anv incriminating evidence derived therefrom
must be declared inadmissible.
(h) Did you file a petition for certiorari in the United States Supreme Court? [] Yes

[x] No

If yes, answer the following:
(1) Docket or case number (if you know): N/A.
(2) Result: N/A.
(3) Date of result (if you know): N/A.
(4) Citation to the case (if you know): N/A.
10.

Other than the direct appeals listed above, have you previously filed any other petitions,
applications, or motions concerning this judgment of conviction in any state court? [x] Yes [] No

11.

If your answer to Question 10 was “Yes,” give the following information:
(a)

(1) Name of court: Twenty-Second Judicial District Court Justice Center. 701 N.

Columbia Street. Covington. LA 70434-1090.
(2) Docket or case number (if you know): 503016.
(3) Date of filing (if you know): December 28. 2015.
(4) Nature of the proceeding: Application Post-Conviction Relief.
(5) Grounds raised: Anderson8s trial was rendered fundamentally unfair in violation of
Article I. SS 1.2.13.16.17. and 22 of die Louisiana Constitution of 1974. and the Fifth. Sixth, and
Fourteenth Amendments to the United States Constitution: The State purposefully excluded all blacks

Page5

AO 241
(Rev. 01/15

from the iurv contrary to the United States Supreme Court’s ruling in Batson v. Kentucky; The trial
court failed to proceed to Batson's third step concerning Katherine Liebert; Anderson's trial was
rendered fundamentally unfair as a result of prosecutorial misconduct in violation of Article I.

1. 2.

3.13. 16. and 22 of the Louisiana Constitution of 1974. and the Fifth. Sixth, and Fourteenth
Amendments to the United States Constitution: The State allowed Detective Robert Chadwick to lie to
the iurv: The State continued to solicit testimonial evidence that amounts to unsupported hearsay;
Anderson was denied the effective assistance of appellate counsel in violation of Article I. $S 1. 2.3.
13.16. and 22 of the Louisiana Constitution of 1974. and the Fifth. Sixth, and Fourteenth Amendments
to die United States Constitution: Anderson was adjudicated a third felony offender in violation of the
Fifth. Eighth, and Fourteenth Amendments to the United States Constitution.
(6) Did you receive a hearing where evidence was given on your petition, application or
motion?

11 Yes

[x] No

(7) Result: The trial court denied the APCR without an evidentiary hearing.
(8) Date of result (if you know): July 20. 2016.
(b) If you filed any second petition, application or motion give the same information:
(1) Name of court: N/A.
(2) Docket or case number (if you know): N/A.
(3) Date of filing (if you know): N/A.
(4) Nature of the proceeding: N/A.
(5) Grounds raised: N/A.
(6) Did you receive a hearing where evidence was given on your petition, application or
motion?

II Yes

[] No

(7) Result: N/A.
(8) Date of result (if you know): N/A.

Page 6

AO 241
(Rev. 01/15

(c) If you filed any third petition, application or motion, give the same information:
(1) Name of court: N/A.
(2) pocket or case number (if you know): N/A.
(3) Date of filing (if you know): N/A.
(4) Nature of the proceeding: N/A.
(5) Grounds raised: N/A.
(6) Did you receive a hearing where evidence was given on your petition, application or
motion?

I] Yes

l]No

(7) Result: N/A.
(8) Date of result (if you know): N/A.
(d) Did you appeal to the highest state court having jurisdiction over the action taken on your
petition, application, or motion?
(1) First petition:

[x] Yes

[] No

(2) Second petition:

11 Yes

[] No

(3) Third petition:

[] Yes

[] No

(e) If you did not appeal to the highest state court having jurisdiction, explain briefly why you
did not: N/A.
12.

For this petition, state every ground which you claim that you are being held in violation of the
Constitution, laws, or treaties of the United States. Attach additional pages if you have more
than four grounds. State the facts supporting each ground.
CAPTION: In order to proceed in the federal court, you must ordinarily first exhaust (use
npl your available state-court remedies on each ground on which von request action by the
federal court. Also, if you fail to set forth all the grounds in this petition, you may be
barred from presenting additional grounds at a later date.

GROUND ONE: The trial court erred when it denied Anderson’s motion to suppress statements. The
statements were used in Anderson’s trial and rendered it fundamentally unfair in violation of the Fifth.
Sixth, and Fourteenth Amendments to the United States Constitution.

AO 241
(Rev. 01/15

Page 7

(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
The district court improperly denied Anderson’s motion to suppress his statement Andersonas
trial counsel argued that the detectives investigating the robbery used several threatening and coercive
tactics and caused Anderson to make an incriminating statement. What makes this bad is that there is not
anv evidence to support the false confession wrangled from Andersoa The photographs taken bv the
police when they executed their search warrant was lost. The alleged traffic ticket, which supposedly
connected Anderson to the vehicle where a gun was found, was also lost The detectives in this case
repeatedly gave Anderson false and misleading information to convince him that an armed robbery
conviction was inevitable. The worst cart however, is that the detectives told Anderson they would
pursue charges against his girlfriend. Laura Bolden, if he did not tell them what they wanted hear. Not
stopping there, the detectives went on to tell him that they would also take his girlfriend’s child awav.
Seeing no wav out of the situation. Anderson not only answered the detectives questions as best he could.
he also confessed to a crime he did not commit. The confession, however, is not supported bv anv
evidence presented to the jury. The State further failed to produce anv evidence that connects Anderson
to the robbery or the weapon that was found. It obvious that Anderson gave a false confession to appease
the detectives. Accordingly, Anderson’s conviction and sentence for both offenses should he reversed
and set aside because the district court committed reversible error when it denied his motion to suppress.
It is undeniable, what happened to Mr. Bennett was unfortunate and horrible: however, officers of the
law are not permitted to resort to the unlawful methods they employed when forcing a false confession
from Andersoa Apparently, the detectives were more concerned with getting a suspect than with how
they got a suspect. In total, the investigation Was deplorable. Many pieces of evidence was lost and a
lot of mistakes were made: nevertheless, these detectives claimed that their manipulative and coercive
wavs were justified because Anderson eventually incriminated himself. Before the trial court could
consider admitting what proposes to be a confession, the court must be satisfied that the statement was

Page 8

AO 241
(Rev. 01/15

given freely. voluntarily, and not under anv form of duress, intimidation, menaces, threats, inducements
nr promises. When a defendant desires to make a statement during custodial interrogation, the State must
prove that the accused was advised of his or her Miranda rights and voluntarily waived those right in
order to establish the admissibility of a statement This claim, if established, would entitle Anderson to
habeas relief. Reasonable jurist can definitely debate about it. See Memorandum in Support.
(b) If you did not exhaust your state remedies on Ground One, explain why: N/A.
(c)

Direct Appeal of Ground One:
(1) If you appealed from the judgment of conviction, did you raise this issue? [x] Yes [] No
(2) If you did not raise this issue in your direct appeal, explain why: N/A.

(d) Post-Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion of petition for habeas corpus in a
state trial court?

[] Yes

[x] No

(2) If your answer to Question (d)(1) is “Yes,” state:
Type of motion or petition: N/A.
Name and location of the court where the motion or petition was filed: N/A.
Docket or case number (if you know): N/A.
Date of court’s decision: N/A.
Result (attach a copy of the court’s opinion or order, if available): N/A.
(3) Did you receive a hearing on your motion or petition?

[] Yes

[] No

(4) Did you appeal from the denial of your motion or petition?

[jYes

□ No

(5) If you answer to Question (d)(4) is “Yes,” did you raise this issue in die appeal? [] Yes [] No
(6) If your answer to Question (d)(4) is “Yes,” state:
Name and location of die court where the motion or petition was filed: N/A.
Docket or case number (if you know): N/A.

Page 9

AO 241
(Rev. 01/15

Date of court’s decision: N/A.
Result (attach a copy of the court’s opinion or order, if available): N/A.
(7) If your answer to Question (d)(4) or Question (d)(5) is “No,” explain why you did not raise
this issue:

I raised the issue on direct appeal.

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground One: Louisiana Supreme Court
2014-KQ-0S91 filed March 20. 2014. denied October 24. 2014.
GROUND TWO: Anderson’s trial was rendered ftindamentallv unfair in violation of the Fifth. Sixth
and Fourteenth Amendments to the United States Constitution.
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
In the very first panel, the State used its peremptory challenges to exclude every AfricanAmerican prospective iuror from the venire. The State removed Chervl Ziegler. Jo Torreeano. and
Katherine Liebert. Anderson’s trial counsel promptly objected and asked for “a race neutral reason for
fthel exclusion of each of the African American jurors,” The State asked the trial court if it believed
that the Defense had made a prima facie case of discrimination. The court responded that it did
“appear las ifl there were three minority members of the jury” struck bv the State.
The State’s reason for striking Liebert from the panel was not race-neutral. Liebert was
concerned that Anderson would be convicted because he is black. The State did not want to have
Liebert rehabilitated because the prosecuting attorney did not want anv blacks on the jury. Especially
when a black prospective iuror expressed concerns about a racist astigmatism that causes all black folk
to look alike to some white folk. Even if Liebert’s opinion is wrong, the court or the State should have
asked her if she would have a problem returning a guilty verdict if the State met its burden of proving
hevond a reasonable doubt that Anderson committed the instant offense. Although the trial court and
the State rehabilitated other prospective jurors who happened to be white, the same was not done with

AO 241
(Rev. 01/15

Page 10

Liebcrt. It appears that the State did not want Liebert rehabilitated because she is black. It is as
Anderson’s trial counsel told the court: the State’s reasons for striking prospective jurors Ziegler.
Torregano. and Liebert are not “adequate basis to excuse the pattern and practice of excluding African
American jurors from the potential jury.” Although there were not any blacks on Andersonas iurv. the
court still excused the State’s prejudicial practice. The court’s decision to deny Anderson’s claim fails
to satisfy Batson’s third and final step. Batson has three well-defined steps. The first step requires die
defendant to make “a nrima facie showing that the prosecutor exercised a peremptory challenge on die
basis of race.” Once the nrima facie showing has been made, the second step requires the State “to
present a race-neutral explanation for striking the iuror in question.” and the reason cannot be
“inherently discriminatory." Batson's third and final step requires the trial court to “determine whether
the defendant has established purposeful discrimination.”
In the instant case, the court’s scrutiny of the State’s explanation for peremptorily striking every
black person from the iurv panel was cursory. Also, the court failed to address the State’s reasons for
striking prospective iuror Katherine Liebert There were only three blacks on the panel to begin with
and the State struck all three. The court did not evaluate the State’s demeanor and neither did it
determine if the State was being intentionally discriminatory or “whether the juror’s demeanor can
credibly be said to have exhibited the basis for the strike attributed to the iuror bv the prosecutor." See
Memorandum and in Support.
(b) If you did not exhaust your state remedies on Ground Two, explain why: N/A.
(c)

Direct Appeal of Gronnd Two:
(1) If you appealed from the judgment of conviction, did you raise this issue? [] Yes

[x] No

(2) If you did not raise this issue in your direct appeal, explain why: Anderson’s appellate
counsel did not raise the claim on direct appeal and he did not file a pro se supplemental brief because
he did not know how: thus, he raised it on his APCR and under ineffective assistance of appellate counsel.

Page 11

AO 241
(Rev. 01/15

(d)

Post Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a

state trial court?

[x] Yes

[] No

(2) If you answer to Question (d)(1) is “Yes," state:
Type of motion or petition: Application for post-conviction relief.
Name and location of the court where the motion or petition was filed: Twenty-Second Judicial
District Court. Justice Center. 701 N. Columbia Street Covington. LA 70434-1090.
Docket or case number (if you know): 503016.
Date of court’s decision: July 20.2016.
Result (attach a copy of the court’s opinion or order, if available): Ruling attached.
(3) Did you receive a hearing on your motion or petition?

[] Yes

[x] No

(4) Did you appeal from the denial of your motion or petition?

[x] Yes

[] No

(5) Ifyou answer to Question (d)(4) is “Yes,” did you raise this issue in the appeal? [x] Yes

[] No

(6) If your answer to Question (d)(4) is “Yes,” state:
Name and location of the court where the motion or petition was filed: 1st CSr. C.O.A.. Baton Rouge. LA.
Docket or case number (if you know): 2016-KW-1048.
Date of court’s decision: October 17.2017.
Result (attach a copy of the court’s opinion or order, if available): Ruling attached.
(7) If you answer to Question (d)(4) or Question (d)(5) is “No,” explain why you did not raise
this issue: N/A.
(e)

Other Remedies: Describe any other procedures (such as habeas corpus, administrative

remedies, etc.) that you have used to exhaust your state remedies on Ground Two: Louisiana Supreme
Court 2016-KH-2137 filed November 1. 2016. denied August 13. 2018.

Page 12

AO 241
(Rev. 01/15

GROUND THREE: Anderson’s trial was rendered fundamentally unfair as a result of prosecutorial
misconduct in violation of the Fifth. Sixth, and Fourteenth Amendments to the United States Constitution.
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
In Anderson’s case, the State wrangled a conviction without the evidence that was supposedly
obtained and some that was allegedly viewed bv investigators. The State’s alleged “evidence” was never
presented to the iurv and over Anderson’s trial counsel’s objection, the State was allowed to present a
case based on speculation and hearsay. As a result Anderson was denied his constitutional right to a fair
and impartial trial because the court allowed the State to circumvent justice bv presenting its theory to the
iurv unsupported bv anv tangible evidence. In this case. ADA Cucda’s unprofessional behavior, lack of
concern for justice, and his total disregard of Anderson’s rights caused Anderson’s trial counsel to render
ineffective assistance in her preparations to defend Anderson in this case. The State’s allegations to the
iurv that Anderson was the person who assaulted and robbed fee victim in this case was not supported bv
anv of the evidence presented. See Memorandum and in Support.
(b) If you did not exhaust your state remedies on Ground Three, explain why: N/A.
(c)

Direct Appeal of Ground Three:
(1) If you appealed from the judgment of conviction, did you raise this issue? [] Yes

{x] No

(2) If you did not raise this issue in your direct appeal, explain why: Anderson’s appellate
counsel did not raise the claim on direct anneal and he did not file a pro se supplemental brief because
he did not know how: thus, he raised it on his APCR and under ineffective assistance of appellate counsel.
(d)

Post Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a

state trial court?

[x] Yes

[] No

(2) If you answer to Question (d)(1) is “Yes,” state:
Type of motion or petition: Application for post-conviction relief.

Page 13

AO 241
(Rev. 01/15

Name and location of the court where the motion or petition was filed: Twenty-Second Judicial
District Court. Justice Center. 701 N. Columbia Street Covington. LA 70434-1090.
Docket or case number (if you know): 503016.
Date of court's decision: July 20.2016.
Result (attach a copy of the court’s opinion or order, if available): Ruling attached,
(3) Did you receive a hearing on your motion or petition?

[] Yes

[x] No

(4) Did you appeal from the denial of your motion or petition?

[x] Yes

[] No

(5) If you answer to Question (d)(4) is “Yes,” did you raise this issue in the appeal? [x] Yes [] No
(6) If your answer to Question (d)(4) is “Yes,” state:
Name and location of the court where the motion or petition was filed: 1st Qr. C.O.A.. Baton Rouge, LA.
Docket or case number (if you know): 2016-KW-1048.
Date of court’s decision: October 17. 2017.
Result (attach a copy of the court’s opinion or order, if available): Ruling attached.
(7) If your answer to Question (d)(4) or Question (d)(5) is “No,” explain why you did not raise
this issue: N/A.
(e)

Other Remedies: Describe any other procedures (such as habeas corpus, administrative

remedies, etc.) that you have used to exhaust your state remedies on Ground Three: Louisiana Supreme
Court 2016-KH-2137 filed November 1. 2016, denied August 13.2018.
GROUND FOUR: Anderson’s was denied the effective assistance of appellate counsel in violation of
the Fifth. Sixth and Fourteenth Amendments to the United States Constitution.
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
Mr. White failed to brief Anderson’s claim of purposeful discrimination to the appellate court
on direct appeal. Anderson is not suggesting that the issue raised bv Mr. White was not important but a
successfully litigated Batson claim is a structural defect that is too important not to be raised on direct

Page 14

AO 241
(Rev. 01/15

appeal. Mr. White’s failure to raise the fact that the State purposefully discriminated against every
African-American prospective jurors in this case and the trial court’s failure to follow Batson’s three
steps is proof that he did not make a complete, conscientious, and thorough review of the appellate
record. Had he done so. he would have briefed Anders on* s Batson claim. Mr. White’s direct appeal
brief shows that he raised the issue that was most prominent on the face of the record, and that he
failed to act in the role of an active advocate in behalf of his client as opposed to that of amicus
curiae. See Memorandum and in Support
(b) If you did not exhaust your state remedies on Ground Four, explain why: N/A.
(c)

Direct Appeal of Ground Four:
(1) If you appealed from the judgment of conviction, did you raise this issue? [] Yes

[x] No

(2) If you did not raise this issue in your direct appeal, explain why: A Claim of ineffective
assistance is best raised on an application for post-conviction relief.
(d)

Post Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a

state trial court?

[] Yes

[x] No

(2) If you answer to Question (d)(1) is “Yes,” state:
Type of motion or petition: Application for post-conviction relief.
Name and location of the court where the motion or petition was filed: Twenty-Second Judicial
District Court. Justice Center. 701 N. Columbia Street. Covington. LA 70434-1090.
Docket or case number (if you know): 503016.
Date of court’s decision: July 20.2016.
(3) Did you receive a hearing on your motion or petition?

[]Yes

[x] No

(4) Did you appeal from the denial of your motion or petition?

[x] Yes

[] No

(5) If you answer to Question (d)(4) is “Yes," did you raise this issue in the appeal? [x] Yes [] No

Page 15

AO 241
(Rev. 01/15

(6) If your answer to Question (d)(4) is “Yes," state:
Name and location of the court where the motion or petition was filed: 1st CSr. C.O.A., Baton Rotge. LA.
Docket or case number (if you know): 2016-KW-1048.
Date of court’s decision: October 17. 2017.
Result (attach a copy of the court’s opinion or order, if available): Ruling attached.
(7) If you answer to Question (d)(4) or Question (d)(5) is “No,” explain why you did not raise
this issue: N/A.
(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Four Louisiana Supreme Court
2016-KH-2137 filed November 1.2016. denied August 13,2018.
GROUND FIVE: Anderson was adjudicated a third felony offender in violation of the Fifth. Eighth.
and Fourteenth Amendments to the United States Constitution.
(a) Supporting facts (Do not argue or cite law. Just state the specific facts that support your claim.):
In alleging Anderson to be a third felony offender, the State relied on the same underlying felony
it used to prosecute him as a convicted felon in possession of a firearm. As it stands. Anderson’s
adjudication and enhanced sentencing as a third felony offender under La. R.S. 15:529.1 is the result
of an impermissible double enhancement. See Memorandum and in Support.
(b) If you did not exhaust your state remedies on Ground Five, explain why: N/A.
(c)

Direct Appeal of Ground Five:
(1) If you appealed from the judgment of conviction, did you raise this issue? [x] Yes

[] No

(2) If you did not raise this issue in your direct appeal, explain why: N/A.
(d)

Post Conviction Proceedings:
(1) Did you raise this issue through a post-conviction motion or petition for habeas corpus in a

state trial court?

[x] Yes

[] No

Page 16

AO 241
(Rev. 01/15

(2) If you answer to Question (d)(1) is “Yes ,” state:
(

Type of motion or petition: Motion to Correct an Illegal Habitual Offender Sentence.
Name and location of the court where the motion or petition was filed: Twenty-Second Judicial
District Court. Justice Center. 701 N. Columbia Street Covington. LA 70434-1090.
Docket or case number (if you know): 503016.
Date of court’s decision: June 7. 2017.
Result (attach a copy of the court’s opinion or order, if available): N/A.
(3) Did you receive a hearing on your motion or petition?

[] Yes

[x]No

(4) Did you appeal from the denial of your motion or petition?

[x] Yes

[] No

(5) If you answer to Question (d)(4) is “Yes,” did you raise this issue in the appeal? [x] Yes [] No
(6) If your answer to Question (d)(4) is “Yes,” state:
Name and location of the court where the motion or petition was filed: 1st Cit C.O.A.. Baton Rouge. LA.
Docket or case number (if you know): 2017-KW-0865.
Date of court’s decision: August 21. 2017.
Result (attach a copy of the court’s opinion or order, if available): Ruling attached.
(7) If you answer to Question (d)(4) or Question (d)(5) is “No,” explain why you did not raise
this issue:

N/A.

(e) Other Remedies: Describe any other procedures (such as habeas corpus, administrative remedies,
etc.) that you have used to exhaust your state remedies on Ground Five: Louisiana Supreme Court
2017-KH-1530 filed August 28.2017. denied April 3.2018.
13.

Please answer these additional questions about the petition you are filing:
(a)
Have all grounds for relief that you have raised in this petition been presented to the
highest state court having jurisdiction?
[x] Yes
[] No
If your answer is “No,” state which grounds have not been do presented and give your
reason(s) for not presenting them: N/A.

Page 17

AO 241
(Rev. 01/15

(b)

Is there any ground in this petition that has not been presented in some state or federal

court? If so, which ground or grounds have not been presented, and state your reasons for not
presenting them: N/A.
14.

Have you previously Hied any type of petition, application, or motion in a federal court
regarding the conviction that you challenge in this petition?

[]Yes

[x]No

If "Yes,” state the name and location of the court, the docket or case number, the type of
proceeding, the issues raised, the date of the court’s decision, and the result for each petition,
application, or motion filed. Attach a copy or any court opinion or order, if available. N/A.
15.

Do you have any petition or appeal now pending (filed and not decided yet) in any court, either
state or federal, for the judgment you are challenging?

[] Yes

[x] No

If “Yes,” state the name and location of the court, the docket or case number, the type of
proceeding, the issues raised. N/A.
16.

Give the name and address, if you know, of each attorney who represented you in the following
stages of the judgment you are challenging:
(a) At preliminary hearing: Melissa Brink. 402 North Jefferson Avenue. Covington LA 70433.
(b) At arraignment and plea: Melissa Brink. 402 North Jefferson Avenue. Covington LA 70433.
(c) At trial: Melissa Brink. 402 North Jefferson Avenue. Covington LA 70433.
(d) At sentencing: Melissa Brink. 402 North Jefferson Avenue. Covington LA 70433,
(e) On appeal: Prentice L. White. L.A.P.. P. O. Box 74385. Baton Rouge. LA 70874.
(f) In any post-conviction proceeding: N/A.
(g) On appeal from any ruling against you in a post-conviction proceeding: N/A.

17.

Do you have any future sentence to serve after you complete the sentence for the judgment that
you are challenging? [] Yes
[x] No
(a) If so, give the name and location of the court that imposed the other sentence you will serve in
the future: N/A.

Page 18

AO 241
(Rev. 01/15

(b) Give the date die other sentence was imposed: N/A.
(c) Give the length of the other sentence: N/A.
(d). Have you filed, or do you plan to file, any petition that challenges the judgment or
sentence to be served in the fiiture? [] Yes
18.

[x] No

TIMELINESS OF PETITION: If your judgment of conviction became final over one year ago,
you must explain the one-year statute of limitations as contained in 28 U.S.C. § 2244(d) does
not bar your petition.*
Although Anderson’s judgment of conviction became final over one year ago, his petition is not

barred bv 28 U.S.C. S 2244(d) because his time tolled upon the timely filing of his APCR.
Anderson was convicted November 15, 2012. and sentenced February 14. 2013. His conviction
and sentenced became final on January 22.2015. after the state supreme court denied his application
for certiorari on October 24. 2014.

*The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) as contained in 28
U.S.C. § 2244 (d) provides in part that:
A one year period of limitation shall apply to an application for a writ of habeas corpus
(1)
by a person in custody pursuant to die judgment of a State court. The limitation period shall run from
the latest of (A)
the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking for such review;
(B)
the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was prevented
from filing by such state action;
(C)
the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D)
the date on which the factual predicate of the claim or claims presented could not have
been discovered through the exercise of due diligence.
(2)
The time during which a properly filed application for State post-conviction or other
collateral review with respect to the pertinent judgment or claim is pending shall not be counted
toward any period of limitation under this subsection.

Page 19

AO 241
(Rev. 01/15

On December 23.2016. Anderson timely filed his APCR in the trial court and stopped the
running of his one-vear to seek federal habeas review. The trial court denied Anderson’s APCR on July
20. 2016. He timely exhausted his claims all the wav through to the state supreme court which denied
discretionary review on August 3.2018. Thus, Anderson’s habeas petition is timely in the court as he
has about twenty-five davs left on his one year from the Louisiana Supreme Court’s denial of his
APCR.
Therefore, petitioner asks that the Court grant the following relief: That his conviction and sentence
I

Be vacated and that Ms immediate release from custody be ordered: or in the alternative remand his
case to the Twenty-Fourth Judicial District Court. Parish of Jefferson for a full and fair evidentiary
hearing: or any other relief to which petitioner may be entitled.

~J~

Signature of Attorney (if any)

I declare (or certify, verily, or state) under penalty of perjury that the foregoing is true and correct and that this
Petition for Writ of Habeas Corpus was placed in the prison mailing system on
(month, day, year).
//^16 /■/

Executed (signed) on

(date).

Signature of Petitioner
If the person signing is not petitioner, state relationship to petitioner and explain why petitioner is not
signing this petition. N/A.

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERS ON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

On Petition for Federal Habeas Corpus Pursuant to 28 U.S.C. § 2254; From the Twentysecond Judicial District Court, Parish of St. Tammany, State of Louisiana,
Docket Number 503016

Respectfully submitted,

Carter V. Anderson
418030, Magnolia—2
Louisiana State Penitentiary
Angola, LA 70712

CIVIL PROCEEDING

TABLE OF CONTENTS
PAGE
..... ....................................................................... .......................................... .......

ii

Table of Authorities............................... ................................................................................

IV

Appendix........... ......................................................................................................................

vi

Memorandum................................ ....................................... ................... .................... .

1

Jurisdictional Statement............................................................................ ............................

1

Statement of the Case........................................................................................ ....................

2

Standard of Review...... ..........................................................................................................

3

Claims Raised on Direct Appeal.......... .............................. .......................... ...................... ...6
Claims Raised on Post-Conviction........................ ..............................................................

6

Timeliness of Petition.... ........................................................................................................

6

Statement of Facts................. .................................................................................................

7

Issues and Questions of Law and Fact Presented for Review................................... ......

10

Law and Argument.................................................................................................................

10

1.

The trial court erred when it denied Anderson’s motion to suppress statements. The
statements were used in Anderson’s trial and rendered it fundamentally unfair in
violation of the Fifth, Sixth, and Fourteenth Amendments to the United States
Constitution............................................. ..................................................................... ...10

2.

Anderson’s trial was rendered fundamentally unfair in violation of the Fifth, Sixth and
Fourteenth Amendments to the United States Constitution............................................. 15

3.

Anderson’s trial was rendered fundamentally unfair as a result of prosecutorial
misconduct, in violation of Article I, §§ 1, 2, 3, 13, 16, and 22 of the Louisiana
Constitution of 1974, and the Fifth, Sixth, and Fourteenth Amendments to the
United States Constitution
25

4.

Anderson’s was denied the effective assistance of appellate counsel in violation of
the Fifth, Sixth and Fourteenth Amendments to the United States Constitution... .44

5.

Anderson was adjudicated a third felony offender in violation of the Fifth, Eighth,
and Fourteenth Amendments to the United States Constitution
46

Pro Se Litigant Consideration............................................................ ......

49

Conclusion...................................................................................................

49

Affidavit/Certificate of Service...............................................................

50

ii

TABLE OF AUTHORITIES
PAGE
United States Constitution
Fifth Amendment.........

passim

Sixth Amendment.........

passim

Eighth Amendment.......

.46, 48

Fourteenth Amendment

passim

Louisiana Constitution of 1974
Article I, § 2...

passim

Article I, § 3...

passim

Article I, § 13

passim

Statutes
28U.S.C. § 2241.......

1,3

28U.S.C. § 2244.......

6

28U.S.C. § 2254.......

.1,3,4

La C. Cr. P. art. 797.....

18

La C.Cr.P. Art. 881.5

3, 46

La C.Cr.P. Art. 882....

3, 46

La R.S. 14:64............

47, 48

La R.S. 14:95.1.........

47, 48

La R.S. 15:529.1.......

47, 48

Federal Cases
Anders v. California, 386 U.S. 738, 87 S.Ct. 1396 (1967)....

45

Avery v. Georgia, 345 U.S. 559, 73 S.Ct. 891 (1953)............

25

Ballard v. United States, 329 U.S. 187, 67 S.Ct. 261 (1946).

16

Banks v. Dretke, 540 U.S. 668, 124 S.Ct. 1256 (2004).........

25

Batson v. Kentucky, 476 U.S. 79,106 S.Ct. 1712 (U.S. Ky. 1986)...16, 17, 22, 24, 25, 45
Bell v. Cone, 535 U.S. 685, 122 S.Ct. 1843 (2002).

4
m

Brady v. Maryland, 373 U.S. 83, 83 S.Ct. 1194 (1963).......................

26

Erickson v. Pardus, 551 U.S. 89, 127 S.Ct. 2197 (2007).............. .......

49

Evitts v. Lucey, 469 U.S. 387, 105 S.Ct. 830 (1985)......... ..................

46

Georgia v. McCollum, 505 U.S. 42, 112 S.Ct. 2348 (U.S. Ga. 1992),

16

Giglio v. United States, 405 U.S. 150, 92 S.Ct. 763 (1972)............ .

44

Haines v. Kerner, 404 U.S. 519, 92 S.Ct. 594 (1972)...........................

49

Hill v. Johnson, 210 F.3d481 (5 Cir. 2000)...........................................

4

Hughes v. Rowe, 449 U.S. 5, 101 S.Ct. 173 (1980).............................

49

Hunter v. Underwood, 471 U.S. 222, 105 S.Ct. 1916 (1985)..............

23, 24

Kyles v. Whitley, 514 U.S. 419, 115 S.Ct. 1555 (1995)......................

27

Martin v. Texas, 325 U.S. 398, 65 S.Ct. 1276 (1945)..........................

16

McCoy v. Court of Appeals of Wisconsin, Dist. 1, 486 U.S. 429, 108 S.Ct. 1895 (1988)...46
McCray v. New York, 461 U.S. 961, 103 S.Ct. 2438 (1983).....................................

16

Miller-El v. Dretke, 545 U.S. 231, 125 S.Ct. 2317 (U.S. 2005)............................ ...

,16, 25

Miranda v. Arizona, 384 U.S. 436, 86 S.Ct. 1602 (1966)........................................

13, 15

Napue v. People of State of Illinois, 360 U.S. 264, 79 S.Ct. 1173 (1959)..............

43, 44

Neal v. Delaware, 103 U.S. 370, 13 Otto 370 (1881).................................................

16

Norris v. Alabama, 294 U.S. 587, 55 S.Ct. 579 (1935)..............................................

16

North Carolina v. Pearce, 395 U.S. 711, 89 S.Ct. 2072 (1969)................................

49

Schneckloth v. Bustamonte, 412 U.S. 218, 93 S.Ct. 2041 (1973)........... ................

15

Self v. Collins, 973 F.2d 1198 (C.A. 5 Tex.) 1992)....................................................

11, 15

Serio v. Members of Louisiana Board of Pardons, 821 F.2d 1112 (5th Cir. 1987)

49

Spano v. New York, 360 U.S. 315, 79 S.Ct. 1202 (U.S. N.Y. 1959)........................

42

Strauder v. West Virginia, 100 U.S. 303, 10 Otto 303 (1880)..................................

24

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984).............................

5, 45

Thiel v. Southern Pacific Co., 328 U.S. 217 66 S.Ct. 984 (1946)...........................

16

Townsend v. Sain, 372 U.S. 293, 83 S.Ct. 745 (1963)..............................................

5

United States v. Agurs, 427 U.S. 97, 96 S.Ct. 2392 (1976).......................... ............

27, 28

United States v. Bagley, 473 U.S. 667, 105 S.Ct. 3375 (1985)................................

26, 27

iv

Village of Arlington Heights v. Metropolitan Housing Development Corp.,
429 U.S. 252, 97 S.Ct. 555 (1977)....... ...............................................................

23

State Cases
Griffith v. Roy, 269 So.2d 217 (La. 1973)....................................................

49

In re Toups, 00-0634 (La. 11/28/00), 773 So.2d 709..................................

43

People v. Savvides, 1 N.Y.2d 554, 154 N.Y. S.2d 885, 136N.E.2d 853...

44

State v. Baker, 2006-2175 (La. 10/16/Q7), 970 So.2d 948........................

48

State v. Dauzart, 02-1187 (La. App. 5 Cir 3/25/03), 844 So.2d 159........

47

State v. Holloway, 2012-0926 (La. App. 4 Cir. 7/3/13), 120 So.3d 795...

48, 49

State v. Jacobs, 07-887, (La App. 5 Cir. 5/24/11), 67 So.3d 535.............

22

State v. Jyles, 96-2669, (La 12/12/97), 704 So.2d 241..............................

45

State v. King, 06-2383, (La 4/27/07), 956 So.2d 562................................

43

State v. Labostrie, 96-2003 (La App. 4 Cir. 11/19/97), 702 So.2d 1194,
Writ denied, 98-0250 (La 6/26/98), 719 So.2d 1048.................................

13

State v. McIntyre, 381 So.2d 408 (La. 1980)....................... ..................... .

18

State v. Mouton, 95-0981, (La 4/28/95), 653 So.2d 1176.........................

45

State v. Ruiz, 2006-1755 (La 4/11/07), 955 So.2d81............................. ...

48

State v. Shannon, 10-580, (La App. 5 Cir. 2/15/11), 61 So.3d706..........

23

State v. Vaughn, 431 So.2d 763 (La 1983)........... ......................................

49

State v. Warner, 94-2649 (La App. 4 Cir. 3/16/95), 653 So.2d 57...........

49

State v. Webb, 364 So.2d 984 (La. 1978)......................................................

18

State v. West, 408 So.2d 1302, 1308 (La 1982)....... ..................................

3

v

APPENDIX
1.

February 18, 2014, Judgment of the Appellate Court on Direct Appeal

2.

October 24, 2014, Judgment of the Louisiana Supreme Court on Direct Appeal

3.

July 20, 2016, Judgment of the Trial Court on Post-Conviction Relief

4.

October 17, 2016, Judgment of the Appellate Court on Post-Conviction Relief

5.

August 3, 2017, Judgment of the Louisiana Supreme Court on Post-Conviction
Relief

6.

June 5, 2017, Judgment of the Trial Court on Motion to Correct

7.

August 21, 2017, Judgment of the Appellate Court on Motion to Correct

8.

August 3, 2018, Judgment of the Louisiana Supreme Court on Motion to Correct

vi

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CARTER VINCENT ANDERSON

CIVIL ACTION NO.

VERSUS

JUDGE

DARREL VANNOY, WARDEN
Louisiana State Penitentiary

MAGISTRATE JUDGE

MEMORANDUM IN SUPPORT
MAY IT PLEASE THE COURT:
NOW INTO COURT COMES, pro se Petitioner, Carter Vincent Anderson,
(“Anderson”), respectfully filing his Petition for Writ of Habeas Corpus and
Memorandum of Law in Support, and shows the Court the following:
JURISDICTIONAL STATEMENT
The Federal Writ of Habeas Corpus is authorized by 28 U.S.C. § 2241. Under 28
U.S. C. § 2254, a person in custody of a state prison may seek relief through a Writ of
Habeas Corpus. Anderson is a state prisoner being detained in the custody of Darrel
Vannoy, Warden of the Louisiana State Penitentiary at Angola, LA. Respondent Vannoy
has custody of Anderson by virtue of a St. Tammany Parish conviction and sentence
imposed by the Twenty-second Judicial District Criminal Court of Louisiana Anderson
now claims that Vannoy is illegally restraining his liberty because the convictions and
sentences were illegally imposed upon him by the State of Louisiana Therefore,

1

Anderson seeks release from Respondent’s custody through this petition for Writ of
Habeas Corpus.
STATEMENT OF THE CASE
On March 7, 2011, Anderson was charged by bill of information with one count
of armed robbery and one count of being a felon in possession of a firearm.1 On March
21, 2011, Anderson pled not guilty to the charged offenses.2 On November 15, 2012,
Anderson was found guilty as charged on both counts.3 On February 4, 2013, Anderson
was sentenced to concurrent terms of 60 years and 10 years at hard labor.4 On April 16,
2013, Anderson was adjudicated a third felony offender, the court vacated the
previously imposed sentences and re-sentenced Anderson to life imprisonment at hard
labor without the benefits of probation, parole, or suspension of sentence.5
Anderson timely appealed his convictions and sentences without success.6 On
December 23, 2016, Anderson timely filed an application for post-conviction relief
(“APCR”) with memorandum in support.
On July 20, 2016, the trial court denied his APCR. On August 2, 2016, Anderson
timely filed a supervisory writ of review to the First Circuit Court of Appeal. On

‘SeeR. pp. 25-26.
2See R. p. 1.
3R. p. 468.
4R. p. 476.
5See R. p. 490.
6Appendix 1; Appendix 2.
2

October 17, 2016, the appellate court denied Anderson’s writ application. On November
1, 2016, Anderson timely filed his application for certiorari and/or supervisory writ of
review to the Louisiana Supreme court. That court declined discretionary review on
August 3, 2018.7
While his APCR was pending in the state courts, Anderson filed amotion to
correct an illegal sentence on the grounds that his sentences and habitual offender
adjudication is illegal because of an impermissible double enhancement. On June 7,
2017, the trial court—claiming that there were too many filings in this case and that the
motion was untimely—denied the motion contrary to La. C. Cr. P. art. 881.5 and La. C.
Cr. P. art. 882 which allows an illegal sentence to be corrected at any time.
Anderson timely filed a writ application to the appellate to seek review of the
trial court’s denial of his motion to correct an illegal sentence. On August 21, 2017, the
appellate court denied Anderson’s writ application. He then filed a timely writ of
certiorari to the Louisiana Supreme Court along with amotion to consolidate. The state
supreme court, however, denied Anderson’s APCR and motion to correct on August 3,
2018. This petition for writ of habeas corpus under 28 U.S.C. § 2241 timely follows.
STANDARD OF REVIEW
The standard of review is set forth under the revised AEDPA 28 U.S. C. § 2254(d)
(1)(2), furnishing new standards of review for questions of fact, questions of law, and
mixed questions of law and fact for habeas petitions. If a state court has adjudicated a
claim on the merits, pure questions of law and mixed questions of law and fact are

7See Appendix 3; Appendix 4; Appendix 5.
3

reviewed under 28 U.S. C. § 2254(d)(1).8 Questions of fact are reviewed under 28 U.S. C.
§ 2254 (d)(2).9
Regarding questions of law and mixed questions of law and fact, a federal court
must defer to the state court’s decision unless it was “contrary to, or involved an
unreasonable application of clearly established Federal law, as determined by the
Supreme Court of the United States.”10 28 U.S.C. § 2254(d)(l)'s “contrary to” and
“unreasonable application” clauses have independent meaning. A federal habeas court
may issue the writ under the “contrary to” clause if the state court applies a rule
different from the governing law set forth in federal cases, or if it decides a case
differently than the federal courts have done on a set of materially indistinguishable
facts. The Court may grant relief under the “unreasonable application” clause if the
state court correctly identifies the governing legal principle from federal decisions but
unreasonably applies it to the facts of the particular case.11 As to questions of fact, a
state court’s factual findings are presumed to be correct and a federal court “will give
deference to the state court’s decision unless it was based on an unreasonable
determination of the facts in light of the evidence presented in the state court
proceeding. »12

gHill v. Johnson, 210 F.3d 481, 485 (5th Cir. 2000).
9Hill v. Johnson, supra.
1028 U.S.C. § 2254(d)(1).
nBell v. Cone, 535 U.S. 685, 694, 122 S.Ct. 1843, 152 L.Ed2d 914 (2002).
12See Hill v. Johnson, 210 F.3d at 485; 28 U.S.C. § 2254(e)(1).
4

The adjudication of Anderson’s claims by the state courts is contrary to clearly
established federal law as interpreted by the Supreme Court because:
The trial court claims to have reviewed the entire record and concluded that
Anderson’s APCR could be denied without an evidentiary hearing. In denying relief,
however, the court failed to identify any specific claim or the legal principle from the
federal decisions governing the claims Anderson raised in his APCR. The Court of
Appeal, First Circuit, essentially followed suit and issued a one-word denial.13
The Louisiana Supreme Court, in denying relief, said that Anderson failed to
show he received ineffective assistance of counsel under Strickland v. Washington.14
The supreme court’s ruling, however, is not only contrary to, but also involves an
unreasonable application of Strickland v. Washington. First of all, the state supreme
court’s ruling does not make it apparent that Anderson’s ineffective of assistance of
counsel claim was against his appellate counsel for not raising the claims preserved for
appellate review by his trial counsel. He did not file an ineffective assistance claim
against his trial counsel. Further, the state supreme court’s determination that Anderson
failed to meet his burden of proof without affording him an evidentiary hearing allows
this court to grant an evidentiary hearing under Townsend v. Sain, 372 U.S. 293, 83
S.Ct. 745, 9 L.Ed.2d 770 (1963).

13See Appendix 3; Appendix 4.
14Appendix 5.
5

CLAIM RAISED QN DIRECT APPEAL
1.

The trial court erred when it denied Anderson’s motion to suppress statements.
The statements were used in Anderson’s trial and rendered it fundamentally
unfair in violation of the Fifth, Sixth, and Fourteenth Amendments to the United
States Constitution.
CLAIMS RAISED QN POST-CONVICTION

1.

Anderson’s trial was rendered fundamentally unfair in violation of Article I, §§
1, 2, 13, 16,17, and 22 of the Louisiana Constitution of 1974, and the Fifth,
Sixth, and Fourteenth Amendments to the United States Constitution.
A.
The State purposefully excluded all blacks from the jury contrary to the
United States Supreme Court’s ruling in Batson v. Kentucky.
The trial court failed to proceed to Batson’s third step concerning
Katherine Liebert.

2.

Anderson’s trial was rendered fundamentally unfair as a result of prosecutorial
misconduct in violation of Article I, §§ 1, 2, 3, 13,16, and 22 of the Louisiana
Constitution of 1974, and the Fifth, Sixth, and Fourteenth Amendments to the
United States Constitution.
A.

The State allowed Detective Robert Chadwick to lie to the jury.

B.
The State continued to solicit testimonial evidence that amounts to
unsupported hearsay.
3.

Anderson was denied the effective assistance of appellate counsel in violation of
Article I, §§ 1, 2, 3, 13, 16, and 22 of the Louisiana Constitution of 1974, and the
Fifth, Sixth, and Fourteenth Amendments to the United States Constitution.

4.

Anderson was adjudicated a third felony offender in violation of the Fifth,
Eighth, and Fourteenth Amendments to the United States Constitution.
TIMELINESS OF PETITION
Although Anderson’s judgment of conviction became final over one year ago, his

petition is not barred by 28 U.S. C. § 2244(d) because his time tolled upon the timely
filing of his APCR.

6

Anderson was convicted November 15, 2012, and sentenced February 14, 2013.
His conviction and sentenced became final on January 22, 2015, after the state supreme
court denied his application for certiorari on October 24, 2014.
On December 23, 2016, Anderson timely filed his APCR in the trial court and
stopped the running of his one-year to seek federal habeas review. The trial court denied
Anderson’s APCR on July 20, 2016. He timely exhausted his claims all the way through
to the state supreme court which denied discretionary review on August 3, 2018. Thus,
Anderson’s habeas petition is timely in the court as he has about twenty-five days left
on his one year from the Louisiana Supreme Court’s denial of his APCR.
Carter’s one-year to seek habeas relief from the finality of his conviction and
sentence would be August 28, 2018. As a result, this petition for writ of habeas corpus
is timely filed.
STATEMENT OF FACTS
Retiree Larry Bennett (“Mr. Bennett”) came from Ohio to Louisiana during the
time of Mardi Gras to buy apart for his airplane.15 While sleeping in his vehicle in a
Wal-Mart parking lot, Mr. Bennett was startled awake by the sound of shattering glass.
At the time, Mr. Bennett thought his vehicle had been hit by another vehicle; however,
he soon realized he was being robbed.1* The perpetrator ordered Mr. Bennett out of his
car and then hit him over the head with a weapon and ordered him to leave the keys in

15R. pp. 307, 309.
16R. pp. 309-10.
7

the ignition.17 The perpetrator ordered Mr. Bennett to cover his head with a blanket as
he made his escape from the parking lot in Mr. Bennett’s car.18 After the perpetrator left,
Mr. Bennett made contact with a police officer at the Wal-Mart. Paramedics responded,
and Mr. Bennett was taken to a local hospital.19
Investigator’s tracked Mr. Bennett’s cell-phone to ahome where Anderson was
staying with his girlfriend and one of her relatives.20 The police initially believed
Vincent Navarre, the boyfriend of the relative of Anderson’s girlfriend, was the
perpetrator of this crime. Navarre, however, was eliminated as a possible suspect
without any investigation because one of the detectives went to high school with him.21
After Navarre was eliminated, Anderson became the primary suspect in this case.
John Binder (“Binder”) testified for the State.22 Binder said he and his sisters
were leaving Wal-Mart when he observed glass on the ground, and “a short black man,
standing with a car door open. And there was an older looking man sitting in the driver
seat of the car.”23 Binder said he “could clearly see because there’s a light pole

17R. p. 310.
18R. p. 312.
19R. p. 312.
20R. pp. 321-25.
21R. pp. 347-48.
22R. p. 299.
23R. p. 300.
8

nearby.”24 Binder said the perpetrator was “maybe five-five. Kind of on the shorter side
for a male.” He went on to say that the victim “was around five nine or five 10.”25
Although Binder claimed to have saw everything clearly with the aid of the lighting in
the parking lot, he admitted that he could not identify the black male who robbed Mr.
Bennett.26
According to Detective Robert Chadwick, Vincent Navarre was not really a
suspect. He told the jury that the prime suspect was “Ms. Laura Bolden’s boyfriend ...
Carter Anderson.”27 Det. Chadwick also admitted that the police lost many items of
evidence.28
Detective Daniel Suzeneaux admitted that their investigation was sloppy and that
the police failed to properly collect evidence. In fact, the police failed to preserve most
of the alleged evidence referred to at Anderson’s trial; moreover, the police did not even
try to conduct any type of identification procedure with Mr. Bennett.29

24R. p. 302.
25R. p. 303-04.
26R. p. 302.
27R. p. 325.
28

R. pp. 326, 50, 376-77, 396.

29R. p. 370.
9

ISSUES AND QUESTIONS OF LAW AND FACT PRESENTED FOR REVIEW
Issue No. 1
When interviewing Anderson about a robbery, the police did not believe
him to be the perpetrator, however, the uncorroborated word of one officer
cast suspicion upon Anderson. The police, not advising him of his rights
after he became the primary suspect, began to lie and threaten him and
forced a statement from him where he claimed to have robbed the victim
in this case. Did the trial court deny Anderson’s motion to suppress in
error?
Issue No. 2
Anderson presented a claim of purposeful discrimination and argued that
the State used peremptory challenges to strike every African-American
prospective juror from the panel and failed to give any race-neutral for
one of the prospective jurors. Did the state courts err by summarily
denying the claim without conducting an evidentiary hearing?
Issue No. 3
Anderson presented a claim that the trial court committed reversible error
when it failed to proceed to Batson’s third step concerning the State’s
alleged race neutral reasoning for peremptorily challenging an AfricanAmerican prospective juror. Did the state courts err by summarily denying
the claim without conducting an evidentiaiy hearing?
Issue No. 4
Anderson presented a claim that his appellate counsel rendered ineffective
assistance when he failed to raise a claim of purposeful discrimination on
direct appeal. Did the state courts err by summarily denying the claim
without conducting an evidentiary hearing?
LAW AND ARGUMENT
Claim No. 1
The trial court erred when it denied Anderson’s motion to suppress
statements. The statements were used in Anderson’s trial and rendered it
fundamentally unfair in violation of the Fifth, Sixth, and Fourteenth
Amendments to the United States Constitution.

10

The Court of Appeals for the Fifth Circuit has said that the “Fifth Amendment
provides that no person ‘shall be compelled in any criminal case to be a witness against
himself.”’30 The Fifth Circuit has also said that the privilege against self-incrimination
also applies to state prisoners. Pointing to United States Supreme Court jurisprudence,
the Fifth Circuit has held that states are precluded from “securing criminal convictions
resulting from coercive police conduct.”31
The district court improperly denied Anderson’s motion to suppress his
statement. Anderson’s trial counsel argued that the detectives investigating the robbery
used several threatening and coercive tactics and caused Anderson to make an
incriminating statement. What makes this bad is that there is not any evidence to
support the false confession wrangled from Anderson. The photographs taken by the
police when they executed their search warrant was lost. The alleged traffic ticket,
which supposedly connected Anderson to the vehicle where a gun was found, was also
lost.
The detectives in this case repeatedly gave Anderson false and misleading
information to convince him that an armed robbery conviction was inevitable. The worst
part, however, is that the detectives told Anderson they would pursue charges against
his girlfriend, Laura Bolden, if he did not tell them what they wanted hear. Not stopping
there, the detectives went on to tell him that they would also take his girlfriend’s child
away. Seeing no way out of the situation, Anderson not only answered the detectives

30&?//v. Collins, 973 F.2d 1198, 1205 (C.A. 5 Tex.) 1992).
31Ibid.
11

questions as best he could, he also confessed to a crime he did not commit. The
confession, however, is not supported by any evidence presented to the jury. The State
further failed to produce any evidence that connects Anderson to the robbery or the
weapon that was found. It obvious that Anderson gave a false confession to appease the
detectives.32
Accordingly, Anderson’s conviction and sentence for both offenses should be
reversed and set aside because the district court committed reversible error when it
denied his motion to suppress.
It is undeniable, what happened to Mr. Bennett was unfortunate and horrible;
however, officers of the law are not permitted to resort to the unlawful methods they
employed when forcing a false confession from Anderson. Apparently, the detectives
were more concerned with getting a suspect than with how they got a suspect. In total,
the investigation was deplorable. Many pieces of evidence was lost, and a lot of
mistakes were made; nevertheless, these detectives claimed that their manipulative and
coercive ways were justified because Anderson eventually incriminated himself.
Neither Mr. Bennett or Binder could identify Anderson. There is no DNA
evidence that links Anderson to the robbery; moreover, there were several people who
had access to the vehicle where the gun suspected to have been used in the robbery was
recovered. Still, on the uncorroborated word of one police officer, the primary suspect
was cleared and Anderson “became the perpetrator. Thus, Anderson requests that the
Court, at the very least hold an evidentiary to help decide if his conviction for armed

32See Trial Record, p. 147.
12

robbery and for possession of a firearm are the direct results of the police’s use of
coercion, threats and promises to get him to incriminate himself in this offense. Given
the totality of the circumstances, Anderson requests that his convictions be reversed.33
Before the trial court could consider admitting what proposes to be a confession,
the court must be satisfied that the statement was given freely, voluntarily, and not
under any form of duress, intimidation, menaces, threats, inducements or promises.34
When a defendant desires to make a statement during custodial interrogation, the State
must prove that the accused was advised of his or her Miranda rights and voluntarily
waived those right in order to establish the admissibility of a statement.35
Not only must the State show that the defendant was advised of his rights, but
that the defendant was responsive and aware of what was happening; however, when the
evidence shows that the statement was the product of fear, duress, intimidation, threats
or promises, a trial court is constitutionally compelled to strike the statement and
prohibit the jury from hearing the contents thereof.
Because there were so many obstacles in the investigation, the trial court should
have granted Anderson’s motion to suppress immediately after seeing the videotape of
Anderson being threatened by the detectives. Items were allegedly photographed, but
the photographs were conveniently lost. The contents of the vehicle was searched, but
the actual owners of these items remain a mystery to this day. There were a number of
33See generally, State v. West, 408 So.2d 1302, 1308 (La. 1982).
34See State v. Labostrie, 96-2003 (La, App. 4 Cir. 11/19/97), 702 So.2d 1194,
writ denied, 98-0250 (La. 6/26/98), 719 So.2d 1048.
35See Miranda v. Arizona, 340 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d 694 (1966).
13

people who may have had access to the vehicle—not just Anderson. In essence, access
to this vehicle was not limited to Anderson or Bolden.36
Threats were lodged against Anderson’s girlfriend while he was in the
interrogation room. For Anderson, this is when he emotionally collapsed under the
weight of realizing that his girlfriend could also be falsely accused of this crime. He
wept and the thought of his girlfriend being marched away to jail while the State took
custody of their child was too much for him to handle.37
The detectives told him how they found his fingerprints in Mr. Bennett’s car,
however, Anderson’s flngeiprints were not found in his car. Anderson was told that the
eyewitnesses selected his picture during a photographic lineup—another lie. In fact, the
eyewitness, Binder, told detectives that the perpetrator had his hair in dreadlocks, but
Anderson’s booking photo showed that he did not have his hair in dread locks.
Anderson knew all of this was not true, but telling the truth did not matter to these
detectives. It did not matter because Anderson was simply trying to guarantee his
family’s safety.38 These detectives had the audacity to tell Anderson that they would
help his girlfriend, knowing that they were intending to fully prosecute her for this
offense. The detectives’ method of interrogation was devised solely to get Anderson to
incriminate himself.

36See R. pp. 327, 372.
37See R. pp. 121, 375.
38See R. pp. 122, 385, 381.
14

This entire investigation was constitutionally defective. The trial court erred in
finding that Anderson’s statement was admissible in light of every deficiency listed
above. Thus, Anderson requests that his conviction and sentence be reversed on the
grounds that the evidence used against him should have been suppressed and declared
constitutionally inadmissible. Anderson was convicted because of his criminal past, not
because there was admissible evidence linking him to the robbery perpetrated against
Mr. Bennett.
According to the Court of Appeals, Fifth Circuit, the United States Supreme
Court has long ago established the test to determine voluntariness:
Is the confession the product of an essentially free and unconstrained
choice by its maker? If it is, if he has willed to confess, it may be used
against him. If it is not, if his will has been overborne and his capacity for
self-determination critically, the use of his confession offends due
process.39
The trial court did not conduct this test during the suppression hearing. As a
result, an evidentiary hearing, at the very least must be ordered to determine if the
procedural safeguards established in Miranda v. Arizona, the numbers, have been
contravened.
Claim No. 2
Anderson’s trial was rendered fundamentally unfair in violation of the
Fifth, Sixth and Fourteenth Amendments to the United States Constitution.
The United States Supreme Court has “consistently and repeatedly reaffirmed
that racial discrimination by the State injury selection offends the Equal Protection

39Selfv. Collins, supra; (quoting) Schneckloth v. Bustamonte, 412 U.S. 218, 22526, 93 S.Ct. 2041, 2047, 36 L.Ed.2d 854 (1973).
15

Clause.”40 The Supreme Court also said that a State “denies a black defendant equal
protection of the laws when it puts him on trial before a jury from which members of
his race have been purposefully excluded.”41 Our system of justice affords every
criminal defendant “the right to be tried by a jury whose members are selected pursuant
to non discriminatory criteria.”42 Because of equal protection, every defendant has the
guarantee “that the State will not exclude members of his race from the jury venire on
account of race, or on the false assumption that members of his race group are not
qualified to serve as jurors.”43 In the process of choosing a jury, racial discrimination
not only injures “the accused whose life or liberty” is to be decided; it also affects the
juror whose competence to serve was not based “on an assessment of individual
qualifications and ability” to consider the evidence presented at trial impartially.44
Discriminatory jury selection causes damage to more than a criminal defendant
and the juror who has been dismissed because of their race. It affects the entire
community and “undermine[s] public confidence in the fairness of our system of

40Miller-El v. Dretke, 545 U.S. 231, 125 S.Ct. 2317, 2319, 162 L.Ed.2d 196
(quoting Georgia v. McCollum, 505 U.S. 42, 44, 112 S.Ct. 2348, 120 L. Ed 2d 33.
41 Batson v. Kentucky, 476 U.S. 79, 85, 106 S.Ct. 1712, 1716, 90 L.Ed.2d 69.
42Id., 476 U.S., at 86-7; see also Martin v. Texas, 325 U.S. 398, 403, 65 S.Ct.
1276, 1279, 89 L.Ed. 1692 (1945).
43Id., 476 U.S., at 86; see also Norris v. Alabama, 294 U.S. 587, 55 S.Ct. 579,
584, 79 L.Ed. 1074 (1935); Neal v. Delaware, 13 Otto 370, 397, 103 U.S. 370, 397, 26
L.Ed 567(1881).
^Id., 476 U.S., at 87; see also Thiel v. Southern Pacific Co., 328 U.S. 217, 22324, 66 S.Ct. 984, 987-88, 90 L.Ed. 1181 (1946).
16

justice.45 In Anderson’s case, the State peremptorily challenged and excluded onehundred percent of eligible blacks from the jury panel.46
(A).

The State purposefully excluded all blacks from the jury contrary to the
Supreme Court’s ruling in Batson v. Kentucky.
In the very first panel, the State used its peremptory challenges to exclude every

African-American prospective juror from the venire. The State removed Cheryl Ziegler,
Jo Torregano, and Katherine Liebert. Anderson’s trial counsel promptly objected and
asked for “a race neutral reason for [the] exclusion of each of the African American
jurors. »47 The State asked the trial court if it believed that the Defense had made a prima
facie case of discrimination.48 The court responded that it did “appear [as if] there were
three minority members of the jury” struck by the State.49
(1). The State struck Cheryl Ziegler (“Ziegler”) for being afraid that “she would
not be paid while serving as ajuror. »SQ The State said Ziegler was a concern because she
“may not be focused on the case and that she may not want to be there.”51 Even so, the
State’s race-neutral reason is unfounded. Ziegler did not say anything during voir dire
45Id., 476 U.S., at 87; see also Ballard v. United States, 329 U.S. 187, 195, 67
S.Ct. 261, 265, 91 L.Ed. 181 (1946); McCray v. New York, 461 U.S. 961, 968, 103 S.Ct.
2438, 2443, 77 L.Ed.2d 1322 (1983).
^See R. pp. 12-13.
47R. p. 221.
48

See R. p. 221.

49See R. p. 221.
50R. p. 222; cf. R p. 178.
• 51R. p. 222.
17

that would cause concern about her ability to serve as a fair and impartial juror to either
the State or the Defense. In fact, Ziegler said she would be an analytical juror who
“would follow the rules,” and on a scale of one-to-ten, she would be a “five” in terms of
her willingness to serve.52
There is a marked contrast between the State’s concerns and Ziegler’s.53 In
response to the State’s comments, Anderson’s trial counsel pointed-out that Ziegler’s
concern was about “about losing money, she said that she was willing to be here. She
did not indicate at a later time, when asked about her willingness to serve, that she was .
unwilling to serve because of any financial hardship.”54
Neither the trial court or the State made any attempt to rehabilitate Ziegler
although she allegedly caused the State some concern.55 According to the court, Ziegler
seemed concerned about not being paid for her service.56 If the court observed this
simple concern, then rehabilitation would have been simple. At any rate, Ziegler did not
give any impression of partiality to the State or the Defense.57 It would have been easy
to inform her that, if chosen, she would be compensated for her service. She was not

52R. pp. 205, 210.
53Cf. R. pp. 205, 210, 222.
54R. p. 223.
55 See R. p. 222.
56R. p. 223.
' 57See State v. McIntyre, 381 So.2d 408 (La 1980); State v. Webb, 364 So.2d 984
(La 1978); La. C. Cr. P. art. 797.
18

rehabilitated, however, because the court believed that “the race neutral reasons given
by the State [were] reasonable.”38
On the other hand, it appears as if the trial court was biased against Anderson.
When Anderson’s trial counsel sought to remove prospective juror Jared Panks
(“Panks”) for cause, the court refused. Anderson’s trial counsel informed the court that
Panks “clearly stated that he would hold it against [Anderson] if he did not testify.»59
The State intervened and told the court that Panks had been rehabilitated when the qnurt
questioned him after the Defense’s voir dire.60 The court sided with the State and denied
the cause challenge.61
The court’s rehabilitation of Panks was simple; and, the very thing done with him
could also have been done with Ziegler:
Mr. Panks ... expressed concerns about the fact that the defendant might
not testify in this case. And the law is that if the defendant does not testify
in this case, you cannot hold that against him. So Mr. Panks are you going
to be able to do that and act as a fair and impartial juror?62
Panks answered in the affirmative and was immediately deemed rehabilitated.
There is a remarkable difference in how the court handled prospective jurors Panks and
Ziegler. With Panks, the court observed he was in need of rehabilitation, exercised its
discretion to remedy the matter. The same, however, is not true concerning Ziegler.
58R. p. 223.
59 See R. p. 279.
60See R. p. 279.
61 See R. p. 279.
62R. p. 277.
19

In the matter concerning prospective juror Panks, Anderson’s trial counsel asked
the court to note the Defense’s objection and proceeded to “strike [Panks] as Defense
seven. »63 Even though Anderson’s trial counsel objected for the record, she still failed
to articulate her reason for objecting. However, it will be fairly articulated here. It does
not appear fair that the court took its time to rehabilitate a prospective juror who
happens to be white and is clearly biased against Anderson; but then utterly fails to
rehabilitate a prospective juror who happens to be black and clearly stated that she
“would follow the rules.”64 It is not fair, and it violates Anderson’s equal protection and
due process rights.
(2). The State struck Jo Torregano (“Torregano”) because she allegedly “had a
number of issues, including that she said that she was more of an emotional decision”
maker.6S A careful and honest look at Torregano’s responses during voir dire cast serious
doubt on the State’s excuse for removing Torregano from the panel. Torregano’s
responses were anti-Defense and pro-Stale; however, it was not enough to stop the State
from mischaracterizing Torregano’s remarks. The State said that Torregano did not want
to be there and that she clearly did not want to take part in the trial process.66 However,
the State failed to mention that Torregano said she is biased toward guns, and that she

63See R. p. 279.
64R. p. 205.
65R. p. 222.
66R. p. 222.
20

does not “like them in the house ... even if they are put up. »67 If considered honestly,
Torregano’s responses during voir dire makes it clear that the State dismissed her from
the jury because she is black. Torregano’s responses reveal that she was inclined to be
more sympathetic to the State’s case than Anderson’s defense.
(3). The State struck Katherine Liebert because “she made a comment about the
mis—ID. That everyone says they look the same. And she believes that people are
convicted by mis identification.”68 Liebert’s concern was valid and relevant. She should
not have been removed from the panel because she was concerned about the possibility
that Anderson would be convicted because he is black.
The State’s reason for striking Liebert from the panel was not race-neutral.
Liebert was concerned that Anderson would be convicted because he is black. The State
did not want to have Liebert rehabilitated because the prosecuting attorney did not want
any blacks on the jury. Especially when a black prospective juror expressed concerns
about a racist astigmatism that causes all black folk to look alike to some white folk.
Even if Liebert’s opinion is wrong, the court or the State should have asked her if she
would have a problem returning a guilty verdict if the State met its burden of proving
beyond a reasonable doubt that Anderson committed the instant offense. Although the
trial court and the State rehabilitated other prospective jurors who happened to be
white, the same was not done with Liebert.69 It appears that the State did not want

67R. p. 209.
08

R. p. 222.

69See R. p. 277.
21

Liebert rehabilitated because she is black. It is as Anderson’s trial counsel told the
court: the State’s reasons for striking prospective jurors Ziegler, Torregano, and Liebert
are not “adequate basis to excuse the pattern and practice of excluding African
American jurors from the potential jury.”70 Although there were not any blacks on
Anderson’s jury, the court still excused the State’s prejudicial practice:
The Court has viewed each of these parties that were struck by the State.
Ms. Ziegler, when she made that comment about the fact that she would
not be paid, seemed very concerned about that. Ms. Torregano did indicate
that she would not want to decide someone’s face [sic] fate. She also
indicated that she had difficulty with weapons. And had concerns about
weapons. The Court feels that the race neutral reasons given by the State
are reasonable in their decision making. And is going to deny the Batson
challenge.71
(B).

The court’s decision to deny Anderson’s claim fails to satisfy Batson's
third and final step.
Batson has three well-defined steps. The first step requires the defendant to make

“a prim a facie showing that the prosecutor exercised a peremptory challenge on the
basis of race.” Once the prima facie showing has been made, the second step requires
the State “to present a race-neutral explanation for striking the juror in question,” and
the reason cannot be “inherently discriminatory.” Batson’s third and final step requires
the trial court to “determine whether the defendant has established purposeful
discrimination. »72

70R. p. 223.
71R. p. 223.
12State v. Jacobs, 07-887, (La App. 5 Cir. 5/24/11), 67 So.3d at 544-555 (citing
Batson v. Kentucky, 476 U.S., at 96-98,106 S.Ct. at 1723,1724.
22

In the instant case, the court’s scrutiny of the State’s explanation for
peremptorily striking every black person from the jury panel was cursory. Also, the
court failed to ad&ess the State’s reasons for striking prospective juror Katherine
Liebert. There were only three blacks on the panel to begin with and the State struck all
three. The court did not evaluate the State’s demeanor and neither did it determine if the
State was being intentionally discriminatory or “whether the juror’s demeanor can
credibly be said to have exhibited the basis for the strike attributed to the juror by the
prosecutor. »73
Sadly, Anderson is a victim of a system that has been disenfranchising blacks for
centuries. It is not an uncommon practice in Louisiana that blacks are systematically
struck from juries. According to the United States Supreme Court, “Determining
whether invidious discriminatory purpose was a motivating factor demands a sensitive
\

inquiry into such circumstantial and direct evidence of intent as may be available.”74
In Hunter v. Underwood, the Supreme Court affirmed the Eleventh Circuit’s
dissolution of an Alabama law that disenfranchised persons convicted of certain
misdemeanors. The Court concluded that although the law was facially neutral with
respect to race, it still violated equal protection because it was passed in the Alabama
Constitutional Convention of 1901 and “was part of a movement that swept the postReconstruction South to disenfranchise blacks and, at which, the zeal for white

73See State v. Shannon, 10-580, (La. App. 5 Cir. 2/15/11), 61 So.3d 706, 719
(int ern al citati ons om itte d).
74 Village ofArlington Heights v. Metropolitan Housing Development Corp., 429
U.S. 252, 266, 97 S.Ct. 555, 50 L.Ed.2d 450 (1977).
23

supremacy ran rampant.”75 The Supreme Court also held in Strauder v. West Virginia,
that the Fourteenth Amendment prohibits states from excluding persons from jury
service because of race.76 It was against this backdrop and “a desire of Louisiana's
reactionary oligarchies to disenfranchise blacks and poor whites, [that] prompted the
Constitutional Convention of 1898.”77
The 1898 Constitutional Convention was designed to produce a constitution that
would entrench white power once and for all. Sweeping changes to election laws were
passed immediately prior to the convention. The effect was that when the people were
asked by referendum to vote on whether to have a Constitutional Convention and to
nominate delegates, black voter registration had dropped by ninety percent.78 As a result
of this legislative disenfranchisement, the 134 delegates at the 1898 Convention were
all white and the resulting constitution was ratified without being submitted by popular
vote.79 As in Hunter, the historical background of the offending Louisiana law clearly
demonstrates discriminatory intent.

75Hunter v. Underwood, 471 U.S. 222, 229, 105 S.Ct. 1916, 85 L.Ed.2d 222
(1985).
16Strauder v. West Virginia, 100 U.S. 303,10 Otto 303, 25 L.Ed. 664 (1880).
77See Lanza, Michael L., “Little More Than a Family Matter: The Constitution of
1898.” In Search of Fundamental Law. pp. 93-109.
78Id., at 98.
79Id., at 98-99.
24

The United States Constitution requires that Anderson be afforded protection
against discrimination from the St. Tammany Parish District Attorney’s office.80 The
Fourteenth Amendment to the United States Constitution prohibits the State from
creating a “jury list pursuant to neutral procedures but then resort to discrimination at
‘other stages in the selection process.”’81 Anderson’s claim is not only meritorious, it
also qualifies as a structural error. In Miller-El, the U. S. Supreme Court said:
A Batson challenge does not call for a mere exercise in thinking up any
rational basis. If the stated reason does not hold up, its pretextual
significance does not fade because a trial judge, or an appeals court, can
imagine a reason that might not have shown up as false.82
Because of the State’s purposeful discrimination against African-American
prospective jurors during jury selection, and the court’s failure to completely follow
Batson’s three step analysis, Anderson is entitled to a new trial.
Claim No. 3
Anderson’s trial was rendered fundamentally unfair as a result of
prosecutorial misconduct, in violation of the Fifth, Sixth, and Fourteenth
Amendments to the United States Constitution.
The United States Supreme Court has several times underscored the “special role
played by the American prosecutor in the search for truth in criminal trials.”83 Sadly,
before Anderson’s trial ever began, assistant district attorney Jason Cuccia revealed that

80See Batson v. Kentucky, 476 U.S., at 88, 106 S.Ct., at 1718.
81Id., 476 U.S., at 88, (quoting Avery v. Georgia, 345 U.S. 559, 562, 73 S.Ct. 891,
893 , 97 L.Ed. 1244 (1953).
82Miller- El v. Dretke, 545 U.S., at 252, 125 S.Ct., at 2332.
™ Banks v. Dretke, 540 U.S. 668,696,124 S.Ct. 1256,1275,157 L.Ed.2d 1166 (2004).
25

his interest was not that justice should be done but that Anderson be convicted at any
cost.
In Anderson’s case, the State wrangled a conviction without the evidence that
was supposedly obtained and some that was allegedly viewed by investigators. The
State’s alleged “evidence” was never presented to the jury and over Anderson’s trial
counsel’s objection, the State was allowed to present a case based on speculation and
hearsay. As a result, Anderson was denied his constitutional right to a fair and impartial
trial because the court allowed the State to circumvent justice by presenting its theory
to the jury unsupported by any tangible evidence.
In this case, ADA Cuccia’s unprofessional behavior, lack of concern for justice,
and his total disregard of Anderson’s rights caused Anderson’s trial counsel to render
ineffective assistance in her preparations to defend Anderson in this case. The State’s
allegations to the jury that Anderson was the person who assaulted and robbed the
victim in this case was not supported by any of the evidence presented. On the other
hand, ADA Cuccia consistently proved he would go to any length to trample on
Anderson’s due process and equal protection rights.
Comparatively speaking, under Brady, due process is violated when evidence that
is favorable to the accused is withheld from him.84 In this case the State consistently
presented testimonial evidence about physical evidence that, for some reason or another,
it did not present to the jury. Evidence is considered to be material “if there is a
reasonable probability that, had the evidence been disclosed to the defense, the result of

MBrady v. Maryland, 373 U.S. 83, 87, 83 S.Ct. 1194, 10 L.Ed.2d 215 (1963).
26

the proceeding would have been different.”85 The issue here, again, is not Brady per se;
however, the State was allowed to point the jury to evidence it did not actually possess.
In Kyles v. Whitley, “[t]he question is not whether the defendant would more likely than
not received a different verdict with the evidence, but whether in its absence he
received a fair trial, understood as a trial resulting in a verdict worthy of confidence. A
‘reasonable probability’ of a different result is accordingly shown when the government’s
evidentiary suppression undermines confidence in the outcome of the trial.”86
The evidence ADA Cuccia claimed he had a right to parade to the jury wasmaterial to the State’s case. Without the so-called evidence the State kept telling the
jury about, the case against Anderson could not have been made; thus, ADA Cuccia
should have been precluded from mentioning any alleged evidence that was not
preserved for the Defense or the jury to inspect. To support its use of referencing the
elusive evidence, the State rested heavily on the forced and coerced confession
Anderson gave to officers after being verbally abused and threatened. The police also
threatened Anderson’s girlfriend and her child to coax a confession out of him. The
physical evidence does not support Anderson’s confession. In light of the evidence
presented, Anderson’s confession seems to be immaterial. Speaking of materiality, the
Supreme Court said in Agurs that:
The proper standard of materiality must reflect our overriding concern
with the justice of the finding of guilt. Such a finding is permissible only
if supported by evidence establishing guilt beyond a reasonable doubt. It
85 United States v. Bagley, 473 U.S. 667, 682,105 S.Ct. 3375,87 L.Ed.2d 481 (1985).
M Kyles v. Whitley, 514 U.S. 419, 434 115 S.Ct. 1555, 131 L.Ed.2d 490 (U.S. La
1995)(citing Bagley, 473 U.S. at 687).
27

necessarily follows that if the omitted evidence creates a reasonable doubt
that did not otherwise exist, constitutional error has been committed. This
means that the omission must be evaluated in the context of the entire
record. If there is no reasonable doubt about guilt whether or not the
additional evidence is considered, there is no justification for a new trial.87
Because of sloppy police work and the questionable tactics of the prosecution
team, the so-called evidence allegedly recovered by the State was not available at trial,
In fact, one item of evidence actually recovered was a video depicting the incident and
it does not readily identify Anderson as the perpetrator. On the day of trial, Anderson’s
trial counsel announced that the Defense was ready. The court however said that there
were “a number of motions in this matter that were filed,” and that it “would like to
discuss ... the supplemental request and motion for discovery, disclosure, and
inspection. »8S
Anderson’s trial counsel, knowing the unethical dealings of the prosecution in
this case, told the court that she filed “aformal motion [to follow] informal
conversations had with the district attorney’s office.”89 The following colloquy ensued:
DEFENSE:

I had a pretrial conference with Mr. Cuccia regarding this evidence.
And it was indicated to me that these items did not exist or were
not preserved, but that it was their intention to seek to elicit
testimony regarding the viewing of some of these items. In
response to that, we did file the formal motion and order to have it
placed on the record that such items did not exist.

STATE:

And Your Honor, as the Court is aware of the time that Ms. Brink
and I had our informal conversation, we did not have any of those
items. Since that time, as a matter of fact yesterday, we were able
to locate the surveillance video from the Wal-Mart parking lot. And

87 United States v. Agurs, Ml U.S. 97, 112-13,96 S.Ct. 2392,49 L.Ed.2d 342 (1976).
88

See R. p. 103.

89

R. p. 101.
28

we have provided that to defense counsel as of this morning. As far
as the other items that are outstanding, or at least that are requested
in that, the State does not have them. And is unable to produce
them to them at this time.
COURT:

So of the seven items listed on the supplemental request, the only
items that you have located would be the videotapes from the WalMart parking lot?

STATE:

Correct.90

The trial court ignored the significance of counsel’s request to forbid the State
from using the remaining six missing items ofevidence. The State did not have the
evidence and was therefore unable to produce it to the Defense. The court’s
“understanding that [the defense was] provided open file discovery” does not amount to
much; especially when what was provided and what was still missing was the nature of
counsel’s motion.91 The State’s claim that it provided Anderson’s trial counsel with
everything in the district attorney’s files cannot satisfy due process because the State
used as evidence information that is not supported by anything in the district attorney’s
file. ADA Cucciaused against Anderson what he called evidence without being
compelled by the trial court to produce that evidence. This was a violation of
Anderson’s due process and equal protection rights and served to ensure that he would
not receive a fair and trial.
With the trial court’s blessing, the State presented hearsay testimony to the jury
which was not supported by any physical evidence. The testimony offered by detectives,
that they personally viewed items of evidentiary value which inculpated Anderson was

90R. pp. 102-103.
91 See R. p. 103.
29

highly inflammatory, prejudicial, and completely undermined the fair administration of
justice:
DEFENSE: It would be hearsay to testify as to what would be viewed on a
picture or videos that were not produced to us. We cannot
effectively cross-examine about what an officer said that they
viewed, when they didn’t preserve that evidence for our review.
STATE:

That is like saying you can’t, a witness can’t come in and testify
what they observed in person because you can’t cross-examine
them about what they observe. Frankly, that’s a little bit of an
inconceivable aigument. The officer observed the videotape. He can
testify what he observed on the videotape. And the cross-examine
allows them to traverse that officer or that witness’s credibility
about their observations.92

The State’s aigument is contrary to law and undermines Anderson’s due process
and equal protection rights. It is constitutionally unfair to allow police investigators to
come into court and testify about seeing physical evidence without preserving it. As it
stands, it is the word of a convicted felon against the word of the State. It is an
inescapable fact that the State’s word carries more weight than Anderson’s word with
any court. Although it is said that the State has a heavy burden, the burden of the
criminal defendant, on the other hand, is much heavier. Anderson’s credibility, when
weighed against that of the prosecution team, is virtually non-existent. It matters little if
he is actually innocent or not. The only time ADA Cuccia wanted the court to believe
anything Anderson said is when he inculpated himself as aresult of the threats,
intimidation, coercion, and the false promises of detectives who haphazardly
“investigated” this matter. The weight given to the State’s credibility with the court can

92R. pp. 104-105.
30

be glimpsed from the court’s erroneous ruling concerning Anderson’s trial counsel’s
motions in limine and supplemental discovery:
As to the motion in limine, if the State would locate any additional items,
we will have a hearing on whether or not they will be admissible. As to
the witness testimony, make the proper objection at the time the witnesses
testify.
As to the supplemental request and motion for discovery, I’m going to
allow the State to use the videotapes that have been provided to you from
the Wal-Mart parking lot. As to any other item, again, if the State would
locate any of those items, we will have a hearing to determine whether or
not they will be admissible.93
This was the first day of trial. Because the State located the video footage of the
Wal-Mart parking lot before trial began, is not at issue. However, allowing the State to
introduce “witness testimony” not supported by any evidence is contrary to law and is
at issue. The court knew the witnesses were law enforcement and therefore should not
have allowed them to testify to unsubstantiated allegations. This clearly prejudiced
Anderson in the presence of the jury and cannot be said to not have contributed to the
verdict.
The State knew the interview conducted with Anderson was unprofessional; even
so, to justify the unlawful tactics of the detectives, the State named the interrogation:
Now when you listen to that interview, it’s going to be an aggressive
interview style. It is going to start of [sic] pretty peaceful. You are going
to hear that he is read his Miranda rights. And you are going to hear that
things start off pretty lightly to say the least.
Now, this interview is going to become loud and boisterous. There’s going
to be a lot of cussing on it, from both sides. So folks, be prepared when
that comes up.94
93R. p. 105.
94R. pp. 294, 295.
31

The State knew the police dropped the ball during their investigation, that is why
ADA Cuccia conceded to the jury that the way the police handled this case was sloppy
and unprofessional. In fact, ADA Cuccia wished he could tell the jury that “there [was]
a lot more follow up than this. Frankly, there wasn’t.”95 This is what makes this case so
frightening—the State barely had a circumstantial case against Anderson. Considering
that the police suspected another person of committing this crime and that person was
ruled out as a suspect on the word of one police officer without any verification, it is
suspect that Anderson conveniently fits the description of the unidentified perpetrator of
this crime.96
Considering the testimony of John Binder, it becomes even clearer that Anderson
was not the person who robbed the victim in this case. Binder said he witnessed “a short
black man, standing with a car door open, »97 Binder went on to say that the perpetrator
was “maybe five-five. Kind of on the shorter side for a male.98 Anderson on the other
hand is approximately five feet, and ten inches tall.
Binder was an eyewitness to the robbery. He told the jury that he “could clearly
see because there’s a light pole near by.”99 However, when the State asked Binder could

95R. p. 296.
96Cf. R. pp. 113, 117-118, 325.
97R. p 300.
98

R. p 303.

"R. p 302.
32

he “make an identification of the black male,” he answered, “No.”100 ADA Cuccia’s goal
to win at any cost was seen with his next question. He asked Binder if it was because he
was “to far away? Why is it you are unable to make an identification?101 Binder
answered:
It was because when we were driving past, I didn’t look until I had seen
the broken glass. By that time, I can only see the back of the man. I
described him to the police just from the back of what I saw.102
Binder’s answer to the State’s leading question does not negate the fact that
Anderson does not fit the physical description of the perpetrator. In fact, on crossexamination, Binder’s description of the assailant wavered. After telling the jury that
the person who robbed the victim in this case “looked like a darker black male,” Binder
hinted that he may have made a mistake “because it was night time, »103 Even so, it must
not be forgotten that Binder testified that he observed the robbery clearly because of a
light-post in the parking lot. 104
(A).

The State allowed Detective Robert Chadwick (“Chadwick”) to lie to the jury

when he said that Vincent Navarre was not really a suspect at the time because the
primary suspect was “Ms. Laura Bolden’s boyfriend, which was Carter Anderson. »105

100R. p 302.
101

R. p 302.

102

R. p 302.

103R. p 306.
104

R. p 302.

105R. p. 325.
33

This testimony contradicted Detective Daniel Suzeneaux’s testimony that Anderson was
not the primary suspect at the beginning of the investigation, 100 Chadwick also told the
jury that the police took pictures of Anderson’s girlfriend’s vehicle for evidentiary
purposes; however, Chadwick said the pictures could not be turned over to the Defense
because they were lost. Not only did Chadwick admit the pictures were lost, he also said
that the police had not “been able to find those photographs since they were taken. »»107
Chadwick was asked on cross-examination did he personally locate anything of
evidentiary value in the vehicle. He answered that he “was present when items were
found.”108 Still, none of the items made their way to trial. The State had a burden of
proving guilt beyond a reasonable doubt, but since the alleged evidence was not
preserved, the State’s burden was alleviated because officer’s of the law swore they had
seen evidence incriminating Anderson—they just conveniently failed to preserve it.
During the redirect examination of Chadwick, it seems as if ADA Cuccia became

/.

upset and said that “since we all kind of beat all around the bush, may as well have it
out. Ml 09 He asked Chadwick what “were the items of evidentiary value that were
recovered from the vehicle?”110 Chadwick answered:
From the trunk of the car, Detective Brown and I found a silver
revolver, .357 magnum, Smith and Wesson. That item appeared to have
106See R. pp. 376-77.
107

R. p. 326.

108R. p. 327.
109

R. p. 328.

110R. p. 328.
34

some type of reddish brown substance on it. It was located in a black bag,
duffle bag, small duffle bag. In the passenger compartment, there was a
server book for Longhorn Steakhouse. Inside it was a traffic ticket issued
by the St. Tammany Parish Sheriff’s Office. And the name on the traffic
ticket was Carter Anderson.111
For a person who was not persbnally involved in the search, Chadwick gave great
details about the elusive evidence.112 Also, when he first began to say what was found
he said, “Detective Brown and I found. >9113 Chadwick lied under oath, worse still, the
State knew he was lying. Evidently, winning was more important to ADA Cuccia than
Anderson’s right to a fair trial.
(B).

The State continued to solicit testimonial evidence that amounts to nothing more

than unsupported hearsay. Detective Daniel Suzeneaux (“Det. Suzeneaux”) was called
as a witness for the State. It quickly becomes apparent that the State wanted the jury to
believe that there was a legal reason the alleged evidence against Anderson was not
preserved:
STATE:

And, Detective, after you viewed the video surveillance from the
apartment complex, were you able to download that data and take it
—to preserve for evidence?

WITNESS:

No, we were not. And what was happening, literally, as we’re
watching the video at the apartment complex, Detective Chadwick
is pinging the phone. So this is a very fast-paced investigation at
this point. When we got in touch with the apartment manager, he
did not have the knowledge on how to operate this system. And it
was a system that we weren’t familiar with as well. After we
viewed the video, we made an attempt at that point to try to
download it onto a CD or a JumpDrive. We were unable to do so
because Detective Chadwick came and said: Hey we know where

U1R. p. 328.
112R. p. 327.
113R. p. 328.
35

the phone is; it’s at this house. So we all left the apartment
complex, went to the house where we ended up finding the suspect.
And we never went back to retrieve the video from the apartment.
STATE:

Now, Detective, were you able to m ake an identification of the
person who dropped off that car at that apartment complex from the
video?

WITNESS:

We weren’t able to make a positive ID. It wasn’t a crystal clear
picture, you know here’s the guy who did it. We were able to get a
general idea—114

Anderson’s trial counsel interrupted with an objection to Det. Suzeneaux
testifying about “anything he allegedly viewed on that videotape since the video was
not preserved and cannot be viewed by [the Defense].”115 Counsel accurately told the
court that anything Det. Suzeneaux “observed on there would be in the nature of
hearsay.”116 The court still allowed the State to circumvent justice and trample on
Anderson’s due process and equal protection rights.
The State told the court that since Det. Suzeneaux was testifying about “his
observation. It is not hearsay. He saying directly what he observed. Correlational
evidence does not apply here because the video is not under their control. They did not
own that piece of video equipment. I can lay the foundation for that. »117 The court,
overruled counsel’s objection and agreed with the State and said that it was not
hearsay.118 The court failed to even consider that at least one of the detectives could
114R. pp. 347-48.
115See R. p. 348.
116See R. p. 348.
117R. p. 349.
118R. p. 349.
36

have stored behind to retrieve the video. Had the police really discovered evidence that
could have proven Anderson was the perpetrator they would have found away to
preserve it. In any event, it is very convenient for the State to say evidence exists but
not have the burden of proving that it does. Almost everything considered as evidence
^gainst Anderson was destroyed or lost in some fashion. This is why the police
unconstitutionally forced a confession from him. Det. Suzeneaux testified that a video,
that was never produced, depicts Anderson dumping items into a dumpster but the
dumpster “unfortunately was emptied before [they] were able to obtain anything that
was thrown out of the vehicle.119
Det. Suzeneaux was allowed to tell the jury whatever crossed his mind. He told
them that when the police knocked on the door to house where Anderson was, he
(Anderson) ran and hid from them.120 The detective’s assumptions should not have be
verbalized in the presence of the jury. The detective cannot truthfully say Anderson ran
and hid, especially when he could not see through walls or the door. Det. Suzeneaux
also told the jury that since the victim wras robbed, Anderson’s appearance had changed
because he “did not have glasses, did not have a beard, and he had short dreadlocks.”121
Concerning the statement Anderson was forced to make, the State asked Det.
Suzeneaux if at “any time did [he] or Detective Irwin force or coerce Mr. Anderson into

119R. p. 350.
120

R. p. 351.

121R. p. 355.
37

giving that statement?”122 Of course, Det. Suzeneaux answered, “No, sir. He did so on
his own free will. »123 Simply said, Det. Suzeneaux lied under oath. The police were
frustrated because the person who senselessly attacked the victim eluded c^>ture.
Anderson was convenient. His arrest history and past convictions made it easy for him
to be charged with this senseless crime; After all, it was the word of law enforcement
officers against that of an ex-felon. Because of his colorful past Anderson thought that
he should cooperate with the police; however, he did not understand that he would
become the scape-goat. That is why he waived his right to have an attorney present. He
was not seeking to confess to a crime he did not commit. Anderson believed he would
be able to clear his name by making himself available to the authorities.
Anderson respectfully asks the Court to consider something that suspiciously
stands out as strange. The detectives allegedly saw video footage of the perpetrator of
this crime. They also came into contact with Anderson and did not think or believe that
he was their suspect. Only after meeting him at the beginning of their investigation did
Anderson become a person of interest. He was still not considered as the suspect.
Anderson’s trial counsel questioned Det. Suzeneaux concerning the lies he told
Anderson. Det. Suzeneaux claimed that it was his lying that helped Anderson; however,
he did not say how having a man convicted and sent to prison for the rest of his life for
a crime he did not commit is helping him. In fact, Det. Suzeneaux went on to tell
counsel something very telling. He said, “Well, if you remember, in the beginning

122

See R. p. 356.

123See R. p. 356.
38

stages of this investigation, Mr. Anderson was not the primary suspect we were looking
at until we discovered further on that he was the primary suspect. »124 Still, how
Anderson was discovered to be the primary suspect was never disclosed.
Det. Suzeneaux went on to confess that the police investigation was sloppy, and
that they did not properly collect any evidence. Even if Anderson’s confession was
knowingly or voluntarily given without force, threat, or any intimidation; the
investigators still had a duty to collect and preserve the evidence. It is not unheard of
for someone to confess to a crime they did not commit; even so, there must be a factual
basis for any admission of guilt. In this case, Anderson was prejudiced because no one
wanted to believe that he did not have anything to do with this robbery because of his
past convictions. On the other hand, the police fabricated lies that are unmistakably
obvious and Anderson was still denied the benefit of reasonable doubt. Without any
corroborating evidence, Anderson’s statement is not enough. Other than the false
confession, there is no evidence linking Anderson to the robbery of the victim in this
case:
STATE:

Now, Detective, while we are on the subject of video we earlier
discussed the video from the apartment. While you were trying to
begin to retrieve that, you got called out to the house on Cousin
Street. Was any attempt made to go back and retrieve that video?

WITNESS:

Yes, sir. We attempted—like I said before, we could not do it at the
time. And just so you guys know, after the confession was received
from Mr. Anderson, and we were confident that we had the right
suspect in custody—it’s an unfortunate thing, but as a lesson
learned on my end, we did not tie up the loose end of getting the
video from the apartment complex, didn’t happen. I apologize for
that. And it’s something that, you know, obviously, from sitting in
this spot two years later, you wish you would have done. But,

l24R. pp. 376-77.
39

unfortunately with it being a holiday season and as busy as we
were, it didn’t happen that way.12S
This further enforces that Anderson’s arrest, prosecution, and sentencing was not
done according to law. His right of due process and equal protection rights were
trampled and the prosecution team’s behavior was excused because the police had a
busy season. The police was so busy that they even forgot to conduct any type of
identification procedure with the victim in this case.126 Amazingly, Anderson was
identified by the victim in open court even after his appearance, according to Det.
/

,

Suzeneaux, had drastically changed.127
The State knew this case was hopeless. The only way to secure a conviction was
to circumvent the demands of justice. The State also knew that the alleged evidence was
lost or missing. Det. Suzeneaux even told the jury that the photographs taken of the
\

victim’s vehicle were lost.128 ADA Cuccia is obviously an intelligent person; however,
justice demands fairness. This case only shows how shrewd ADA Cuccia was in
carrying out this unfounded prosecution. A colloquy between Anderson’s trial counsel
and Det. Suzeneaux reveals that the State knew this case was tainted from the
beginning:
DEFENSE:

Same with the search warrant, execution of the search warrant on
the vehicle where the gun allegedly was found?

WITNESS:

Yes, ma’am.

l25R. p. 370; Detective Suzeneaux was not called out to the house; cf. pp. 347-48:
12<5R. p. 370.
l27See R. p. 355.
128R. p. 372.
40

DEFENSE:

Photos were taken?

WITNESS:

Yes. ma’am.

DEFENSE: But they were lost also?
WITNESS:

Yes, ma’am. Just so you know, I was not present for that.

DEFENSE: But you were the supervising detective?
WITNESS:

I wouldn’t call me a supervisor but ultimately it’s my case, yes.

DEFENSE:

So the ultimate pieces of evidence here in this case that are still in
existence are the statement we just listened to?

WITNESS:

Yes, ma’am... 129

DEFENSE: Now, telling Mr. Anderson that you had fingerprints on a gun, that
was a little information right?
WITNESS:

Yes, ma’am.

DEFENSE: That was false?
WITNESS: Absolutely.
DEFENSE: So that was lie to get him to confess?
WITNESS: I wouldn’t call it a lie.
DEFENSE: Did you have fingerprints on the gun?
WITNESS: No, ma’am. But may I add something to that?
DEFENSE: It’s ayes or no answer. 130
The State objected to counsel’s response and the court sustained it. Even more
troubling though is that the court allowed the detective to explain jurisprudence to the
jury:

The US Supreme Courts allows us to lie to suspects, give them pieces of
information that might not be fully accurate, like we have DNA, we have
fingerprints, to see if their response is consistent with the evidence we
really do have, to see if there’s anything more that will come out of that

129

R. pp. 372-73.

I30R. pp. 379-80.
41

response from the suspects. So in reference to that, yes, we did tell him we
had his fingerprints when we did not.131
Det. Suzeneaux admitted at trial that he lied about everything he told Anderson.
He lied about the fingerprints on the weapon and from the victim’s vehicle. The only
thing Det. Suzeneaux admitted to having by way of evidence was Anderson’s coerced
statements.132 Surely, ADA Cucciaknew the detectives were lying before he chose to
prosecute this matter. The officers in this case are comparable to those in Spano v. New
York. They “were rather concerned primarily with securing a statement from defendant
on which they could convict him. The Undeviating intent of the officers to extract a
confession from petitioner is therefore patent. When such an intent is shown, this Court
has held that the confession obtained must be examined with the most careful scrutiny,
and has reversed a conviction on facts less compelling than these. »133
The one piece of evidence allegedly connecting Anderson to the gun found in the
vehicle searched by police is also conveniently missing—a traffic citation in the vehicle
allegedly issued to Anderson.134 Again, this missing piece of evidence was not
physically presented to the jury; even so, the jury still heard all about it.
“A district attorney should not harbor any personal feelings toward an accused
that might, consciously or unconsciously, impair his ability to conduct the accused’s

131R. p. 380.
v

132See R. pp. 380-81.
l33Spano v. New York, 360 U.S. 315, 324, 79 S.Ct. 1202, 1207, 3 L.Ed.2d 1265
(U.S. N.Y. 1959).
134See R. p. 396.
42

trial fairly and impartially,” because “[i]n our system of justice, we intrust vast
discretion to the prosecutor in deciding which cases to pursue, whether to dismiss the
charges, whether to offer a plea bargain, what any plea bargain will entail, and how the
trial will be conducted.”135
It is also well established that “a conviction obtained through the use of false
evidence, known to be such by representatives of the State, must fall under the
Fourteenth Amendment. The same result obtains when the State, although not soliciting
false evidence, allows it to go uncorrected when it spears ”13s The rule forbidding the
State’s use of “false evidence, including false testimony, to obtain a tainted conviction,
implicit in any concept of ordered liberty, does not cease to apply merely because the
false testimony goes only to the credibility of the witness.”137 This is because the “jury’s
estimate of the truthfulness and reliability of a given witness may well be determinative
of guilt or innocence, and it is upon such subtle factors as the possible interest of the
witness in testifying falsely that a defendant’s life may depend. »138
It does not matter if “‘the falsehood bore upon the witness’ credibility rather than
directly upon the defendant’s guilt. A lie is a lie, no matter what its subject, and, if it is
in any way relevant to the case, the district attorney has the responsibility and duty to

u5State v. King, 06-2383, (La 4/27/07), 956 So.2d 562, 570; quoting In re Toups,
00-0634 (La 11/28/00), 773 So.2d 709, 715.
l3*Napue v. People of State of Illinois, 360 U.S. 264, 269, 79 S.Ct. 1173, 1177, 3
L.Ed2d 1217 (1959).
137Id.
138Id.
43

correct what he knows to be false and elicit the truth.’”139 Even if the “‘district
attorney’s silence was not the result of guile or a desire to prejudice matters little, for
its impact was the same, preventing as it did, a trial that could in any real sense be
termed fair. »>140 Consequently, Anderson is entitled to anew trial “‘if the false
testimony could, in any reasonable likelihood have affected the judgment of the
jury-

»»141

Claim No. 4
Anderson’s was denied the effective assistance of appellate counsel in
violation of the Fifth, Sixth and Fourteenth Amendments to the United
States Constitution.
Appellant counsel, Prentice L. White, (“Mr. White”) filed Anderson’s direct
qspeal, raising only one issue:
The district court’s ruling which denied Anderson’s motion to suppress
was completely erroneous and violated his right to a fair and impartial
trial under the Sixth Amendment to the United States Constitution. During
this investigation, the detectives used every conceivable tactic it could to
get Anderson to implicate himself in this robbery. These detectives yelled,
cursed, lied and even threatened Anderson’s family in order to get him to
incriminate himself in the robbery. Such tactics are totally
unconstitutional and any incriminating evidence derived therefrom must
be declared inadmiss[i]ble.142

139Id.; quoting People v. Savvides, 1 N.Y.2d 554, 557, 154 N.Y. S.2d 885, 887,
136 N.E.2d 853, 854-855.
140Id.
141 Giglio v. United States, 405 U.S. 150, 154, 92 S.Ct. 763, 766, 31 L.Ed.2d 104
(1972); citing Napue v. People ofState ofIllinois, 360 U.S. 264, 271, 79 S.Ct. 1173,
1178, 3 L.Ed.2d 1217 (1959).
142See Original Direct Appeal Brief Appeal Brief, pp. 6-7.
44

Mr. White failed to brief Anderson’s claim of purposeful discrimination to the
appellate court on direct appeal. Anderson is not suggesting that the issue raised by Mr.
White was not important but a successfully litigated Batson claim is a structural defect
that is too important not to be raised on direct appeal. Mr. White’s failure to raise the
fact that the State purposefully discriminated against every African-American
prospective jurors in this case and the trial court’s failure to follow Batson '5 three steps
is proof that he did not make a complete, conscientious, and thorough review of the
appellate record Had he done so, he would have briefed Anderson’s Batson claim. Mr.
White’s direct appeal brief shows that he raised the issue that was most prominent on
the face of the record, and that he failed to “act in the role of an active advocate in
behalf of his client, as opposed to that of amicus curiae. >’143
The Louisiana Supreme Court has said that a brief filed by counsel must not only
review the procedural history of a case and the evidence presented at trial. It must also
provide “a detailed and reviewable assessment for both the defendant and the appellate
court of whether the appeal is worth pursuing in the first place. »144
A counsel’s performance on appeal is judged under the two-prong Strickland
test.145 To be considered as effective on appeal, an appellate counsel is not required to

X43Anders v. California, 386 U.S. 738, 744,87 S.Ct. 1396, 1400, 18L.Ed.2d493
(1967).
l44State v. Jyles, 96-2669, (La. 12/12/97), 704 So.2d 241, 242; citing State v.
Mouton, 95-0981, (La. 4/28/95), 653 So.2d 1176.
i45Evitts v. Lucey, 469 U.S. 387, 105 S.Ct. 830, 83 L.Ed.2d 821 (1985).
45

raise every n on-frivolous issue.146 However, it does mean, as it does at trial, that
counsel perform in a reasonably effective manner, 147 ce The appellate lawyer must master
the trial record, thoroughly research the law, and exercise judgment in identifying the
arguments that may be advanced on appeal.”148 “In searching for the strongest
arguments available, the attorney must be zealous and must resolve all doubts and
ambiguous legal questions in favor of his or her client.”149
Claim No. 5
Anderson was adjudicated a third felony offender in violation of the Fifth,
Eighth, and Fourteenth Amendments to the United States Constitution.
In denying this claim, the trial court opined that Anderson’s m otion to correct an
illegal sentence was untimely; however, under La. C. Cr. P art. 882, an illegal sentence
may be corrected at any time by the court that imposed the sentence. Also, under La. C.
Cr. P. art. 881.5, a defendant’s motion to correct a sentence that exceeds the maximum
sentence may be filed at any time.
The first conviction the State relied on in seeking to have Anderson adjudicated a
third felony offender is for one count of simple burglary under docket number 375879
originating in the Twenty-second Judicial District Court.

146See Evitts, 105 S.Ct. at 835.
147/<f.
14SMcCoy v. Court ofAppeals of Wisconsin, Dist. 1, 486 U.S. 429, 438, 108 S.Ct.
1895, 100 L.Ed.2d 440 (1988) 56 USLW 4520.
149Id., at 444.
46

The second conviction the State relied on is for one count of felon in possession
of afirearm in docket number 395212 also originating in the Twenty-second Judicial
District Court.
In alleging Anderson to be a third felony offender, the State relied on the same
underlying felony it used to prosecute him as a convicted felon in possession of a
firearm. As it stands, Anderson’s adjudication and enhanced sentencing as a third felony
offender under La. R.S. 15:529.1 is the result of an impermissible double
enhancement.150 The trial court erred when it adjudicated Anderson a third felony
offender under the habitual offender law.
On March 29, 2004, Anderson pled guilty to one count of simple burglary of an
inhabited dwelling and was sentenced to serve six years at hard labor. On October 17,
2005, Anderson pled guilty to one count of felon in possession of afirearm and was
sentenced to serve ten years at hard labor.
In its felony bill of information, the State’s count two against Anderson reads:
R.S. 14:95.1 CONVICTED FELON POSSESSING A FIREARM OR
CARRYING A CONCEALED WEAPON, by being a convicted felon;
having previously been convicted of POSSESSION OF COCAINE ON
OCTOBER 17, 2005, IN DOCKET NUMBER 395213, IN THE 22ND
JUDICIAL DISTRICT COURT IN ST. TAMMANY, and possessing or
having concealed upon his person a weapon, to-wit: A GUN.
In this case, Anderson was arrested and charged with one count of armed robbery
and one count of being a felon in possession of afirearm in violation of La. R.S. 14:64
and La. R.S. 14:95.1, respectively. To support the charge of felon in possession of a
firearm against. Anderson, the State used the above cited October 17, 2005, convictions
150State v. Dauzart, 02-1187 (La. App. 5 Cir 3/25/03), 844 So.2d 159, 168.
47

for possession of cocaine and possessing or having upon his person a weapon as the
underlying felony. However, the State’s habitual offender bill of information listed the
same firearm conviction to support its allegation that Anderson was a third felony
offender.
In State v. Baker, the state supreme court noted that “the state may not seek
multiple enhancement of a defendant’s sentence on the basis of the same set of prior
convictions. „1S1 However, that is exactly what the State did in this case. The State knew
Anderson had a previous conviction for felon in possession of firearm. This is what
prompted the district attorney’s office to file a bill of information against Anderson with
being a felon in possession of afirearm in violation of La. R.S. 14:95.1.
Contrary to the state and federal constitutions, the State used the same
underlying felony twice to have Anderson adjudicated a third felony offender.152 As a
result, the trial court erred when it adjudicated and sentenced Anderson as a third felony
offender under La. R.S. 15:529.1.
The Fifth Amendment to the United States Constitution and Article 1 § 15 of the
Louisiana Constitution guarantees that no one is to be placed in jeopartfy twice for the
same offense.153 However, Anderson’s right of equal protection has been violated
because the very provisions that are designed to protect him were violated by an

l51State v. Baker, 2006-2175 (La. 10/16/07), 970 So.2d 948, 957; see also State v.
Ruiz, 2006-1755 p. 12-13 (La, 4/11/07), 955 So. 2d 81, 89.
152La. Const, art. I, § 15; U.S. Const, amend. V; U.S. Const, amend. VIII; U.S.
Const, amend. XIV.
153See State v. Holloway, 2012-0926 (La. App. 4 Cir. 7/3/13), 120 So.3d 795, 797.
48

impermissible double enhancement when he was subjected to “multiple punishment for
the same conduct. 33154
PRO SE LITIGANT CONSIDERATION
As a pro se litigant, Carter’s writ of habeas corpus should be liberally construed
in the interest of justice.153
CONCLUSION
Wherefore, Carter respectfully requests the Court to vacate his convictions and
sentences, or in the alternative remand his case back to the Twenty-second Judicial
District Court, Parish of Tammany for a full evidentiary hearing.
*tted.
Carter V. Anderson
418030, Magnolia—2
Louisiana State Penitentiary
Angola, Louisiana 70712

154Id.; citing North Carolina v. Pearce, 395 U.S. 711, 717, 89 S.Ct. 2072, 2076,
23 L.Ed.2d 656 (1969); State v. Vaughn, 431 So.2d 763, 767 (La. 1983); State v. Warner,
94-2649, p. 4 (La. App. 4 Cir. 3/16/95), 653 So.2d 57, 59.
155See Erickson v. Pardus, 551 U.S. 89, 94, 127 S.Ct. 2197, 167 L.Ed.2d 1081
(2007) (per curiam); Hughes v. Rowe, 449 U.S. 5, 9, 101 S.Ct. 173, 66 L.Ed.2d 163
(1980) (citing Haines v. Kerner, 404 U.S. 519, 520- 21, 92 S.Ct. 594, 30 L.Ed.2d 652
(1972) (per curiam); Serio v. Members of Louisiana Board of Pardons, 821 F.2d 1112
(5th Cir. 1987); Griffith v. Roy, 269 So.2d 217, 222 (La. 1973).
49

AFFIDAVIT/CERTIFICATE OF SERVICE
I, Carter Vincent Anderson, do hereby declare that the foregoing is true and
correct to best of my knowledge, information, and belief. I further certify that a copy of
the same has been served upon:
Opposing Counsel:
Warren Montgomery, District Attorney
701 N. Columbia Street
Covington, LA 70433
By placing a copy of same in a properly addressed envelope into the hands of the
Classification Officer assigned to my unit along with a Withdrawal form made out to the
General Fund, LSP, Angola, LA 70712 for the cost of postage and a properly filled out
Inmate’s Request for Indigent/Legal Mail form, receiving receipt for same in
accordance with the institution’s rules and procedures for the sending of legal mail.
Done this

day of August, 2018.
Respectfully subm itted,

Carter V. Anderson
418030, Magnolia—2
Louisiana State Penitentiary
Angola, Louisiana 70712

50

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERSON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERSON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 1

NOT DESIGNATED FOR PUBLICATION
STATE OF LOUISIANA
COURT OF APPEAL
FIRST CIRCUIT
2013 KA 0836
STATE OF LOUISIANA
VERSUS
CARTER V. ANDERSON
Judgment Rendered: FEB 1 8 20f4
******
On Appeal from the Twenty-Second Judicial District Court
In and for the Parish of St. Tammany
State of Louisiana
No. 503016 "C"
Honorable Richard A. Swartz, Judge Presiding
******

Walter P. Reed
District Attorney
Covington, Louisiana

Counsel for Appellee
State of Louisiana

Kathryn W. Landry
Special Appeals Counsel
Baton Rouge, Louisiana
Prentice L. White
Baton Rouge, Louisiana

Counsel for Defendant/Appellant
Carter V. Anderson

******

BEFORE: PETTIGREW, MCDONALD, AND McCLENDON, JJ.

McClendon, j.
Defendant, Carter V. Anderson, was charged by bill of information with
armed robbery (count one) and possession of a firearm or carrying a concealed
weapon by a person convicted of certain felonies (count two), violations of LSAR.s. 14:64 and LSA-R.S. 14:9s.!.1 The trial court denied defendant's motion to
suppress his confession. Defendant entered a plea of not guilty and, after a trial
by jury, was found guilty as charged on both counts. The State filed a habitual
offender bill of information seeking to enhance the sentences on both counts.
The trial court subsequently adjudicated defendant a third-felony habitual
offender, vacated the original sentences, and imposed sentences of life
Imprisonment at hard labor without the benefit of parole, probation, or
suspension of sentence on both counts, to be served concurrently.2 Defendant
now appeals, assigning error to the trial court's ruling on the motion to suppress
the confession. For the following reasons, we affirm the convictions, habitual
offender adjudications, and sentences.
STATEMENT OF FACTS
On December 30, 2010, between midnight and 1:00 a.m., Larry Bennett
(the victim) was in a Wal-Mart parking lot in Slidell, Louisiana, when an AfricanAmerican male approached his 1993 Cadillac Seville. The victim, a retired truck
driver from Toledo, Ohio, who came to Slidell to purchase a part for his antique
airplane, was set to spend the night in his vehicle when the perpetrator suddenly
smashed his rear window.

When the victim turned towards the back, the

perpetrator pointed a gun at the victim's face and told him to get out of the car.
When the victim attempted to take the keys out of the Ignition, the perpetrator
told him to leave the keys in the ignition and get out of the car, and he began
1 The prior felony conviction used on count two is a 2005 conviction of possession of cocaine, as
noted in the bill of information and stipulated by both parties during the trial.
2 On count one, the trial court originally sentenced defendant to sixty years imprisonment at
hard labor with the first twenty years to be served without the benefit of parole, probation, or
suspension of sentence. The original sentence on count two was ten years imprisonment at hard
labor without the benefit of parole, probation, or suspension of sentence. The trial court
enhanced both counts, adjudicating defendant a third-felony habitual offender based on a 2004
conviction of simple burglary of an Inhabited dwelling and a 2005 conviction of possession of a
firearm or carrying a concealed weapon by a convicted felon.

2

striking the victim in the back of his head.

Before fleeing the scene in the

victim's vehicle, the perpetrator forced the victim to place a blanket that was in
his vehicle over his head, as blood from his head injury began to cover his neck.
John Binder, a bystander who was in the Wal-Mart parking lot at the time,
witnessed the robbery and contacted the police,

Binder described the

perpetrator as a short, African-American male with dreadlocks. The victim was
taken to Ochsner Hospital where he received stitches in the back of his head.
After being released from the hospital, the victim provided the Slidell
Police Department (SPD) with the telephone number for the cell phone that he
left in the vehicle and with the clothing that he was wearing at the time of the
incident. The police accessed the cell phone records and determined that the
cell phone was used to call Laura Bolden. Bolden was defendant's girlfriend,
with whom he was living at the time in a duplex apartment building at the corner
of 11th Street and Cousin Street in Slidell. The victim's vehicle was recovered
from an apartment complex within walking distance of the residence.

SPD

Detectives Daniel Suzeneaux3 and Brian Brown observed surveillance footage4
from the apartment complex showing that, shortly after the robbery, the vehicle
was dropped off by an individual who fit the description provided by Binder. The
victim's cell phone was found at the residence on Cousin Street, and defendant
and the others who were present at the residence were asked to come to the
police station for questioning.

Defendant, before being questioned, initially

denied any knowledge or involvement. Defendant was advised of his Miranda
rights at the scene and again at the police station where a waiver of rights form
was executed.

Defendant made incriminating statements during an audio-

recorded interview at the police station.

SPD executed a search warrant for

Bolden's vehicle that was at the residence on Cousin Street and found a bag
containing a handgun and a traffic ticket in defendant's name. The victim's DNA
3 The detective's name is alternatively spelled as "Seuzeneau" in the record.
4 The apartment manager had limited knowledge on the operation of the surveillance system.
After the police viewed the surveillance footage, they unsuccessfully attempted to download the
footage.

3

was found during the testing of swabs processed from the recovered handgun.
Defendant fit the basic description depicted on the surveillance footage and
given by Binder; however, at the time of his arrest he had a short haircut with
remaining twists, as opposed to full dreadlocks.

During the audio-recorded

interview, defendant admitted that his girlfriend recently, styled his hair in
dreadlocks, but due to the "good" texture of his hair he could not maintain the
locks. During the trial, the victim identified defendant as the perpetrator, noting
that he was able to focus on the perpetrator's eyes and nose as the gun was
being held between the perpetrator's face and the victim's face.
ASSIGNMENT OF ERROR
In his sole assignment of error, defendant argues that the trial court erred
in denying his motion to suppress his confession. He asserts that detectives
threatened him and his girlfriend in order to get him to incriminate himself.
Defendant contends that there was no eyewitness identification or DNA evidence
linking him to the armed robbery offense. Defendant argues that the convictions
should be reversed due to the police's use of coercion, threats, and promises to
induce the confession.

Defendant contends that the trial court should have

granted the motion to suppress after hearing the detectives threatening him on
the recording. Defendant notes that he was not the only person who had access
to the vehicle and further contends that the police investigation was faulty
because they lost evidence and they failed to identify the owner of the items
seized from the vehicle that was searched.

Defendant contends that he

emotionally collapsed under the notion that his girlfriend could be falsely accused
of this crime.

Defendant notes that the detectives lied about his fingerprints

being found in the victim's vehicle and about having a witness who already
identified defendant as the perpetrator.

Defendant also claims that the

detectives promised to help his girlfriend, knowing that they intended to
prosecute her.
The Fourth Amendment to the United States Constitution and article I, § 5
of the Louisiana Constitution protect persons against unreasonable searches and

4

seizures. A defendant adversely affected may move to suppress any evidence
from use at the trial on the merits on the ground that it was unconstitutionally
obtained. LSA-C.Cr.P. art. 703A. The State bears the burden of proving the
admissibility of a purported confession or any evidence seized during a search
without a warrant.

LSA-C.Cr.P. art. 703D. Louisiana Revised Statute 15:451

provides that before a purported confession can be introduced in evidence, it
must be affirmatively shown to be free and voluntary and not made under the
influence of fear, duress, intimidation, menaces, threats, inducements, or
promises. It must also be established that an accused who makes a confession
during custodial interrogation was first advised of his or her Miranda rights.
State v. Plain, 99-1112 (La.App. 1 Cir. 2/18/00), 752 So.2d 337, 342. The
State must specifically rebut a defendant's specific allegations of police
misconduct in eliciting a confession. State v. Thomas, 461 So.2d 1253, 1256
(La.App. 1 Cir. 1984), writ denied. 464 So.2d 1375 (La. 1985).
Whether a showing of voluntariness has been made is analyzed on a caseby-case basis with regard to the facts and circumstances of each case. State v.
Benoit, 440 So.2d 129,131 (La. 1983). The trial court must consider the totality
of the circumstances in deciding whether a confession is admissible. State v.
Hernandez, 432 So.2d 350, 352 (La.App. 1 Cir. 1983).

Testimony of the

interviewing police officer alone. may be sufficient to prove a defendant's
statements were freely and voluntarily given.

State v. Maten, 04-1718

(La.App. 1 Cir. 3/24/05), 899 So.2d 711, 721, writ denied. 05-1570 (La.
1/27/06), 922 So.2d 544.
A trial court's ruling on a motion to suppress the evidence is entitled to
great weight, because the court had the opportunity to observe the witnesses
and weigh the credibility of their testimony. State v. Jones, 01-0908 (La.App. 1
Cir. 11/8/02), 835 So.2d 703, 706, writ denied. 02-2989 (La. 4/21/03), 841
So.2d 791. Correspondingly, when a trial court denies a motion to suppress,
factual and credibility determinations should not be reversed in the absence of a
clear abuse of the trial court's discretion, i.e., unless such ruling is not supported

5

by the evidence. See State v. Green, 94-0887 (La. 5/22/95), 655 So.2d 272,
280-81. However, a trial court's legal findings are subject to a de novo standard
of review.

See State v. Hunt, 09-1589 (La. 12/1/09), 25 So.3d 746, 751.
\
When reviewing a trial court's ruling on a motion to suppress, the entire record
may be considered, including trial testimony. State v. Martin, 595 So.2d 592,
596 (La. 1992).
The following evidence was presented at the hearing on the motion to
suppress.

Detective Suzeneaux testified that everyone present at the duplex

apartment on the day of the robbery, including defendant, was asked to come to
the station for questioning regarding the robbery, and everyone agreed. After
Bolden was interviewed, Detective Suzeneaux and SPD Detective Luke Irwin
interviewed defendant. Detective Suzeneaux denied that defendant was coerced
or forced into making a statement at the hearing and again during the trial.
The audio-recorded interview revealed that defendant's rights were read
to him, and he stated that he understood his rights and further stated that he
wished to make a statement. Defendant denied that he had been physically or
verbally abused and confirmed that he was making the statement of his own free
will. Defendant initially denied having specific information regarding, or being
involved in, the robbery.

He implicated his.male roommate before eventually

making incriminating statements that pointed to his personal involvement, but he
did not initially make a full-blown confession. The police relayed some of the
information that they had regarding the offense and admittedly used falsehoods.
For example, the police indicated that they already knew what happened and
that they had fingerprint evidence and witness statements implicating defendant.
Vulgar language was also used along with repeated requests for truth, honesty,
and details. The police also told defendant that he was not helping himself by
lying and that he was being given the chance to tell the truth.

Defendant

eventually admitted to handling the gun, having personal contact with the stolen
vehicle, and knowing that it had been stolen. Defendant ultimately stated that
he hit the victim out of fear. The police informed defendant that if he continued

6

:

to cooperate they would let his cooperation be known. The police reminded
defendant that his child and girlfriend loved him and suggested that defendant
may have committed the offense for them, as they continued to question
defendant. Before defendant finally confessed, he again admitted that he was
not being forced to make the statements.

Defendant's emotional breakdown

came after he confessed and became even more concerned about the
consequences of his actions.
As to the voluntariness of defendant's statements, we note that the police
testimony indicated that there were no promises or abuse to induce defendant's
agreement to make a statement, and defendant indicated as such during the
interview. As noted, defendant was fully advised of his rights and executed a
waiver of rights form. We note that statements by the police to a defendant that
he would be better off if he cooperated are not promises or inducements
designed to extract a confession. State v. Lavalais, 95-0320 (La. 11/25/96),
685 So.2d 1048, 1053, cert, denied. 522 U.S. 825, 118 S.Ct. 85, 139 L.Ed.2d 42

(1997).

A confession is not rendered inadmissible by the fact that law

enforcement officers exhort or adjure a defendant to tell the truth, provided the
exhortation is not accompanied by an inducement in the nature of a threat or
one which implies a promise of reward. Further, a defendant's confession is not
inadmissible merely because in making it he may have been motivated by a
desire to protect his girlfriend.

See State v. Lee, 577 So.2d 134, 143-44

(La.App. 1 Cir.), writ denied. 580 So.2d 667 (La. 1991); State v. Weinberg,
364 So.2d 964, 969-71 (La. 1978); State v. Brown, 504 So.2d 1025, 1031
(La.App. 1 Cir.), writ denied. 507 So.2d 225 (La. 1987). As did the Louisiana
Supreme Court in Lavalais, we find in this case that, rather than being promises
or inducements designed to extract a confession, the comments in question
herein were more likely musings not much beyond what this defendant might
well have concluded for himself. Lavalais, 685 So.2d at 1053-54. The totality
of the interview clearly conveys that the statements were not being made
according to any promises, coercion, or threats.

7

- Regarding certain falsehoods used by the police during questioning, the
issue is whether or not such tactics were sufficient to make an otherwise
voluntary confession or statement inadmissible. See State v. Lockhart, 629
So.2d 1195, 1204 (La.App. 1 Cir. 1993), writ denied, 94-0050 (La. 4/7/94), 635
So.2d 1132. In Lockhart, a detective misled the defendant into believing that
the police knew more about the case than they really did by telling him that the
victims had identified him. Another detective stated that he would Inform the
district attorney's office that the defendant contended the shootings were
accidental. This court found that the detectives' statements to the defendant
were not sufficient inducements "to make an otherwise voluntary confession
inadmissible." Lockhart, 629 So.2d at 1204. Similarly, in State v. Sanford,
569 So.2d 147, 150-52 (La.App. 1 Cir. 1990), writ denied. 623 So.2d 1299 (La.
1993), this court determined that a defendant's confession was not rendered
involuntary, although the detective apparently misled the defendant into
believing that one of his cohorts had confessed by informing him that the other
suspects were "singing like birds." Sanford, 569 So.2d at 151.
We have carefully reviewed the evidence presented at the suppression
hearing and at trial and conclude that the lower court's ruling is supported by the
record.

While the officers admittedly utilized confrontational language,

defendant, who had a criminal record, seemed to be more concerned about his
realization that he was a multiple offender and admitted to being terrified in that
regard. We find that the totality of the circumstances surrounding the making of
the confession by defendant and his responses as a whole show that the
confession was made freely and voluntarily. Considering the above, we further
find that the trial court did not err or abuse its discretion in denying the motion
to suppress. The assignment of error is without merit.
CONVICTIONS, HABITUAL OFFENDER ADJUDICATIONS, AND
SENTENCES AFFIRMED.

8

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERSON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 2

Wqpfiupttmt (Emirf txi
STATE OF LOUISIANA

txt ^Iffwtatana
NO.

2014-KO-0591

VS.
CARTER V. ANDERSON

IN RE: Anderson, Carter V.; - Defendant; Applying For Writ of
Certiorari and/or Review, Parish of St. Tammany, 22nd Judicial
District Court Div. C, No. 503016; to the Court of Appeal, First
Circuit, No. 2013 KA 0836;

October 24, 2014
Denied.
JTK
BJJ
JLW
GGG
MRC
JDH

Supreme Court of Louisiana
October 24,2014

AM 1a A .f) /
Deputy

Clerk ofyCourt
For the Court

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERSON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 3

NUMBER 503016 DIV. “C"

STATE OF LOUISIANA

22nd judicial district court
VERSUS

PARISH OF ST. TAMMANY
STATE OF LOUISIANA

CARTER V. ANDERSON
FILED:73[Ai{AAOj<S)OI(n

DEPUTY CLERIC

ORDER
This matter is before the Court pursuant to an Application for Post-Conviction
Relief filed by Carter V. Anderson. Pursuant to the Court’s Order, the St. Tammany Parish
District Attorney filed a State’s Response to Carter V. Anderson’s Application for PostConviction Relief. The Court has reviewed the entire record and finds that the issues
raised in the Application for Post-Conviction Relief may be decided on the record and no
evidentiary hearing is necessary.
The Court finds that Applicant has failed to prove grounds upon which relief shall
be granted.. Accordingly, the Court finds the Application of the defendant is without merit
and must be denied.
IT IS HEREBY ORDERED that the Application for Post-Conviction Relief filed by
Carter V. Anderson is DENIED.
IT IS FURTHER ORDERED that the Clerk of Court for the Parish of St. Tammany
give notice of this denial to Applicant, the District Attorney for the Parish of St. Tammany
and the Applicant’s custodian.
SIGNED AT COVINGTON, LOUISIANA, this

th day of JulY 2°l6-

JUDGE RICHARD A. SWARTZ

1

v^E^iW'KiSH’

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERSON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 4

STATE OF LOUISIANA
COURT OF APPEAL, FIRST CIRCUIT
NO.

STATE OF LOUISIANA
VERSUS

2016 KW 1048

OCT 1 7 2016

CARTER VINCENT ANDERSON

In Re:

Carter Vincent Anderson, applying for supervisory
writs, 22nd Judicial District Court, Parish of St.
Tammany, No. 503,016.

BEFORE:

WHIPPLE, C.J., GUIDRY'AND McCLENDON, jj.

WRIT DENIED.
JMG
PMc
VGW

COURT OF APPEAL, FIRST CIRCUIT

DEPUTY CLErtiv OF COURT
FOR THE COURT

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERS ON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 5

!

(Hand n£ tfyzj&fafa nf mrisJtana
STATE EX REL. CARTER VINCENT ANDERSON
VS .

NO.

2016-KH-2137

STATE OF LOUISIANA
i

IN RE: Carter Vincent Anderson; -■ Plaintiff; Applying For
Supervisory and/or Remedial Writs, Parish of St. Tammany,
22nd
Judicial District Court Div. C, No. 503016; to the Court of Appeal,
First Circuit, No. 2!016 KW 1048;

August 3, 2018
Denied. See per curiam.
BJJ
JLW
GGG
MRC
JDH
SJC
JTG

:

Supreme Court of Louisiana
August 3,2018

IW
HtftltHui
V Deputy clerJ

of Court
For the Court

SUPREME COURT OF LOUISIANA
No. I6-KH-2137
STATE EX REL. CARTER VINCENT ANDERSON
V.

STATE OF LOUISIANA

AUG 0 3.2018

ON SUPERVISORY WRITS TO THE TWENTY-SECOND
JUDICIAL DISTRICT COURT, PARRISH OF ST. TAMMANY
-ER CURIAM:
Denied. Relator fails to show that he received ineffective assistance of
counsel under the standard of Strickland v. Washington, 466 U.S. 668, 104 S.Ct.
2052, 80 L.Ed.2d 674 (1984). As to his remaining claims, relator fails to satisfy his
post-conviction burden of proof. La.C.Cr.P. art. 930.2.
• .

■

t

' |

Relator has now fully litigated his application for post-conviction relief in

state court. Similar to federal habeas relief, see 28 U.S.C. § 2244, Louisiana post­
conviction procedure envisions the filing of a successive application only under the
narrow circumstances provided in La.C.Cr.P. art. 930.4 and within the limitations
perjid as set out in La.C.Cr.P. art. 930.8. Notably, the Legislature in 2013 La. Acts
251 amended that article to make the procedural bars against successive filings
mandatory. Relator’s claims have now been fully litigated in accord with
La.C.Cr.P. art. 930.6, and this denial is final. Hereafter, unless he can show that
one of the narrow exceptions authorizing the filing of a successive application
applies, relator has exhausted his right to state collateral review. The district court
is ordered to record a minute entry consistent with this per curiam.

!

!
!

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERS ON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 6

CARTER V. ANDERSON

DOCKET NO: 503016 DIVISION “C”

VERSUS

22ND JUDICIAL DISTRICT COURT

DARRYL VANNOY, Warden
Louisiana State Penitentiary

ST. TAMMANY PARISH LOUISIANA

'Jnuis Onn

LA
DEPUTY CL

FILED:
ORDER
CONSIDERING THE FOREGOING:

IT IS HEREBY ORDERED that a contradictory hearing with the office of Die
day of

district attorney be held on the

_, 2017, wherein the State

should be prepared to show just cause as to why Anderson shpirid not be granted the
specific relief sought in this matte
rr IS FURTHER ord:

\e/-

A1

EEnMit a wrifof Habeas Corpus Ad Testificandum be

issued concerning the foregoing anfldSe directed to Darryl Vannoy, Warden of the
Louisiana State Penitentiary, to produce the body of Carter V Anderson, for the purpose
of this hearing to be held on the date and time specified by this honorable Court.
Covington. Louisiana this 9 day of .TTfled f* -2017.

JUDGE-TWENTY-SECOND JUDICIAL

[CT COURT

A TRUE

'Y

^-^CL£f4:^2nc)'jUD/5lsV. COURT
tJVD
ST. TAMMANY PARISH. LA

-5-

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERSON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 7

STATE OF LOUISIANA
COURT OF APPEAL, FIRST CIRCUIT
NO.

STATE OF LOUISIANA
VERSUS

2017 KW 0865

AUG 21 2017

CARTER VINCENT ANDERSON

In Re:

applying for supervisory
Carter Vincent Anderson,
writs, 22nd Judicial District Court, Parish of St
Tammany, No. 503,016.

BEFORE:

WHIPPLE, C.J., MCDONALD AND CHUTZ, JJ.

WRIT DENIED.
JMM
WRC
VGW

COURT OF APPEAR, FIRST CIRCUIT
r\

!

t

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF LOUISIANA

CARTER VINCENT ANDERS ON
VERSUS
DARREL VANNOY, Warden
Louisiana State Penitentiary

Appendix 8

©Ip Supreme ©mtrf of fyzj&fah of Jlamstarta

•t

STATE EX REL. CARTER VINCENT ANDERSON
NO.

I
VS .

2017-KH-1530

STATE OF LOUISIANA

i
IN RE: Carter Vincent Anderson; - Plaintiff; Applying For
Supervisory and/or Remedial Writs, Parish of St. Tammany,
22nd
Judicial District Cotirt Div. C, No. 503016; to the Court of Appeal,
First Circuit, No. 2;017 KW 0865;

:
August 3, 2018
'l

Denied.

JDH
BJJ
JLW

GGG
x MRC
SJC
JTG

■

!

!
Supreme Court of Louisiana
August 3,2018

T

1 Clerjc of Court
For the Court

i

